<html>
<title> - TO REVIEW THE RESPONSE BY CHARITIES TO HURRICANE KATRINA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
        TO REVIEW THE RESPONSE BY CHARITIES TO HURRICANE KATRINA

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2005

                               __________

                           Serial No. 109-52

                               __________

         Printed for the use of the Committee on Ways and Means




                    U.S. GOVERNMENT PRINTING OFFICE
26-384                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

E. CLAY SHAW, JR., Florida           CHARLES B. RANGEL, New York
NANCY L. JOHNSON, Connecticut        FORTNEY PETE STARK, California
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM MCCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
PHIL ENGLISH, Pennsylvania           WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona               JOHN S. TANNER, Tennessee
JERRY WELLER, Illinois               XAVIER BECERRA, California
KENNY C. HULSHOF, Missouri           LLOYD DOGGETT, Texas
RON LEWIS, Kentucky                  EARL POMEROY, North Dakota
MARK FOLEY, Florida                  STEPHANIE TUBBS JONES, Ohio
KEVIN BRADY, Texas                   MIKE THOMPSON, California
THOMAS M. REYNOLDS, New York         JOHN B. LARSON, Connecticut
PAUL RYAN, Wisconsin                 RAHM EMANUEL, Illinois
ERIC CANTOR, Virginia
JOHN LINDER, Georgia
BOB BEAUPREZ, Colorado
MELISSA A. HART, Pennsylvania
CHRIS CHOCOLA, Indiana
DEVIN NUNES, California

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                       SUBCOMMITTEE ON OVERSIGHT

                    JIM RAMSTAD, Minnesota, Chairman

ERIC CANTOR, Virginia                JOHN LEWIS, Georgia
BOB BEAUPREZ, Colorado               EARL POMEROY, North Dakota
JOHN LINDER, Georgia                 MICHAEL R. MCNULTY, New York
E. CLAY SHAW, JR., Florida           JOHN S. TANNER, Tennessee
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
DEVIN NUNES, California
J.D. HAYWORTH, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of December 6, 2005, announcing the hearing.............     2

                               WITNESSES

McCrery, Hon. Jim, a Representative in Congress from the State of 
  Louisiana......................................................     8

                                 ______

American Red Cross, Joseph C. Becker.............................    27
Baton Rouge Area Foundation, John G. Davies......................    40
Salvation Army of America, Major Todd Hawks......................    34
U.S. Government Accountability Office, Cynthia M. Fagnoni, 
  Managing Director, Education, Workforce and Income Security....    19

                                 ______

American Institute of Philanthropy, Daniel Borochoff.............    54
National Spinal Cord Injury Association, Marcie Roth.............    59
Resources for Independent Living, Yavonka Archaga................    68
Wyatt, Johnny G., City Marshal and Homeland Security Director, 
  Bossier City, Louisiana........................................    73

                       SUBMISSIONS FOR THE RECORD

American Arts Alliance, statement................................    81
National Council of Nonprofit Associations, Audrey Alvarado, 
  statement......................................................    83
National Fraternal Congress of America, statement................    85
Rotary International, Evanston, IL, Christine Neely, statement...    87


        TO REVIEW THE RESPONSE BY CHARITIES TO HURRICANE KATRINA

                              ----------                              


                       TUESDAY, DECEMBER 13, 2005

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                 Subcommittee on Oversight,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 3:05 p.m., in 
room 1100, Longworth House Office Building, Hon. Jim Ramstad 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                       SUBCOMMITTEE ON OVERSIGHT

                                                CONTACT: (202) 225-7601
FOR IMMEDIATE RELEASE
December 06, 2005
No. OV-5

                Ramstad Announces Hearing to Review the

               Response by Charities to Hurricane Katrina

    Congressman Jim Ramstad (R-MN), Chairman, Subcommittee on Oversight 
of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing to review the response by charities to 
Hurricane Katrina. The hearing will take place on Tuesday, December 13, 
2005, in the main Committee 
hearing room, 1100 Longworth House Office Building, beginning at 3:00 p.
m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. Invited 
witnesses will include Members of Congress and witnesses representing 
the U.S. Government Accountability Office, the American Red Cross, the 
Salvation Army, and certain other groups involved with the response to 
Hurricane Katrina.
      

BACKGROUND:

      
    Hurricane Katrina caused unprecedented destruction along much of 
the coast of the Gulf of Mexico, displacing more than one million 
people and causing over $100 billion of property damage. Tax-exempt 
charitable organizations have played a key role in the response and 
recovery efforts by providing food, shelter, and clothing to many of 
the victims of Katrina, as well as counseling, financial assistance, 
and other forms of help. Americans have reportedly given or pledged 
nearly $2.6 billion in donations to charitable organizations aiding the 
victims of Hurricane Katrina.
      
    Due to the scope of the disaster, a multitude of charities have 
been involved in the response to Hurricane Katrina. National 
organizations, such as the American Red Cross and the Salvation Army, 
have had prominent roles, but local charitable organizations ranging 
from churches to foundations have performed significant 
responsibilities as well. The hearing will provide an opportunity to 
review the activities of these organizations, the coordination of their 
relief efforts, and the lessons they have learned from Hurricane 
Katrina.
      
    In announcing the hearing, Chairman Ramstad stated, ``We are 
grateful for the charitable organizations that have played such a 
critical role in responding to Hurricane Katrina. The Subcommittee has 
a responsibility to examine the lessons learned so that charities can 
improve their efforts to prepare for and respond to disasters in the 
future. We also want to ensure that Americans who have given so 
generously have confidence that their contributions have been and will 
be used effectively to help people in need.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on relief services provided by charitable 
organizations, and will explore areas where service delivery, 
preparedness, and coordination could be improved.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``109th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=17). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business Tuesday, 
December 27, 2005. Finally, please note that due to the change in House 
mail policy, the U.S. Capitol Police will refuse sealed-package 
deliveries to all House Office Buildings. For questions, or if you 
encounter technical problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman RAMSTAD. The hearing will come to order.
    I want to welcome everyone to today's hearing on the 
response of charities to Hurricane Katrina.
    As we all know, the whole world watched as Hurricane 
Katrina caused unprecedented devastation along the Gulf Coast, 
displacing more than 1 million people, and causing over $100 
billion in property damage. This destruction has required a 
massive response from Federal, State, and local governments.
    The Hurricane has also inspired the Nation's charities to 
make an historic effort. Americans have made this effort 
possible by giving or pledging over $2.6 billion to help the 
victims of this terrible disaster. Charities have provided 
critically important assistance, ranging from food, shelter and 
cash assistance to counseling and job training. This is the 
single largest charitable response to a disaster in our 
Nation's history.
    This Subcommittee has the responsibility to review the 
activities of charities, to see where things worked, where they 
didn't work, and where the response can be made more effective. 
This Subcommittee, as some of you will remember, held a similar 
review after the September 11th attacks, and highlighted areas 
in which charities needed to improve their response to 
disasters. I hope our effort today can lead to further 
improvements as well.
    Several of the witnesses today will tell extremely 
inspiring stories. We will hear about volunteers who dropped 
what they were doing so they could help take care of hurricane 
victims. We will hear about churches and synagogues providing 
shelter and food to people who had nothing but the clothes on 
their backs.
    We will hear about Americans generously donating to the 
American Red Cross, the Salvation Army and other organizations 
to provide needed cash assistance to Hurricane victims; as I 
said earlier, $2.6 billion in monetary contributions by the 
American people.
    Notwithstanding the tremendous humanitarian response, other 
witnesses will describe some significant shortcomings in the 
charitable response. Today's hearing will really focus on three 
main concerns. First, how coordination between charities can be 
improved. In massive disasters like this one, charities both 
large and small get involved in the response. Their collective 
resources, capabilities and efforts obviously must be 
effectively coordinated.
    Four years ago, this Subcommittee discussed the problem of 
coordination among charities responding to the September 11th 
attacks. Hurricane Katrina has unfortunately shown that much 
work still remains.
    The second area of concern we will examine is how all 
Americans can have access to and receive assistance from 
charitable organizations during disasters. It is important that 
the Red Cross and other charities not forget communities and 
individuals who are harder to reach or who need special 
attention, minority populations, people with disabilities, and 
low-income people.
    Today we will hear from two witnesses representing people 
with disabilities, which are of major interest to me, and I 
know other Members of the Subcommittee. These two witnesses 
will describe the experiences of individuals with disabilities 
during the disaster, and believe me, some of those experiences 
are downright shocking. We need to hear what the Red Cross and 
others are planning to do to ensure that underserved 
populations are not forgotten or neglected during the next 
disaster. We always know, unfortunately, there will be the next 
disaster.
    The third area of concern is that we need to ensure that 
charitable dollars are not lost to fraud. While disasters bring 
out the best in most people, they also bring out the worst in 
others. In some cases, criminals have pretended to be charities 
and have stolen money intended for actual charities. In other 
cases, people pretending to be victims have taken advantage of 
charities and taken money that could have been used to help 
actual victims.
    The New York Times reported that the Red Cross distributed 
$32 million in cash to residents in and around Jackson, 
Mississippi, even though many of them had experienced little or 
no significant property damage. One pawn shop owner in Jackson, 
Mississippi, told the New York Times that many aid recipients 
cashed relief checks at his shop and immediately bought 
jewelry, guns, DVDs and electronics.
    The owner of a Western Union branch in Jackson was quoted 
as saying, ``Surely the Red Cross has to have a better use of 
funds, unless they just have money they are trying to get rid 
of for some reason.''
    Stories like this may discourage donors from giving money 
for relief efforts; therefore, we have to understand what the 
Red Cross and other charities are doing to ensure that their 
aid is going to the people who actually need it. If this 
hearing helps document where charities fell short in serving 
the hurricane victims, it can help ensure these problems do not 
occur again. If Americans do not have confidence that their 
donations are being used wisely, they may not be so generous 
when the next disaster strikes.
    This morning I am sure many of you noted that the American 
Red Cross announced the resignation of its president, Marsha J. 
Evans. I would like to thank Ms. Evans for her dedication and 
hard work.
    I also, quite frankly, appreciated Ms. Evans' candid 
acknowledgment in September that the Red Cross's responses to 
Hurricanes Katrina and Rita had been ``uneven,'' and that these 
natural disasters ``eclipsed even our direst worst-case 
scenarios.''
    In more recent weeks, I have been encouraged by the Red 
Cross's public vow to address some of the criticisms by seeking 
greater diversity within its ranks and establishing 
partnerships with local groups. I believe the coming transition 
at the American Red Cross offers an opportunity for Red Cross 
management to respond to the concerns that have been raised and 
that will be discussed here today.
    At this time, I now recognize my good friend from Georgia, 
the distinguished Ranking Member, Mr. Lewis, for his opening 
statement.
    [The opening statement of Chairman Ramstad follows:]

    Opening Statement of The Honorable Jim Ramstad, Chairman, and a 
         Representative in Congress from the State of Minnesota

    Hurricane Katrina caused unprecedented destruction along the Gulf 
Coast, displacing more than one million people, and causing over $100 
billion in property damage. This destruction has required a massive 
response from federal, state, and local governments. The hurricane has 
also inspired the nation's charities to make an historic effort. 
Americans have made this effort possible by giving or pledging over 
$2.6 billion to help the victims of this disaster. Charities have 
provided critically important assistance, ranging from food, shelter, 
and cash assistance, to counseling and job training.
    This is the single largest charitable response to a disaster in our 
nation's history. This Subcommittee has the responsibility to review 
the activities of charities to see where things worked, where they 
didn't work, and where the response can be made more effective. This 
Subcommittee held a similar review after the September 11th attacks, 
and highlighted areas in which charities needed to improve their 
response to disasters. I hope that our efforts today can lead to 
further improvements.
    Several of the witnesses today will tell an inspiring story.
    They will tell us about volunteers who dropped what they were doing 
so they could help take care of hurricane victims. We will hear about 
how churches provided shelter and food to people who had nothing. We 
will hear about how Americans' generous donations allowed the American 
Red Cross and other organizations to provide needed cash assistance to 
hurricane victims.
    Notwithstanding the tremendous humanitarian response, other 
witnesses will describe some significant shortcomings in the charitable 
response. Today's hearing will focus on three main concerns.

    <bullet>  First, how coordination between charities can be 
improved.

    In massive disasters like this one, charities, large and small, get 
involved in the response. Their collective resources, capabilities, and 
efforts must be effectively coordinated. Four years ago, this 
Subcommittee discussed the problem of coordination among charities 
responding to the September 11th attacks. Hurricane Katrina has shown 
that much work still remains.

    <bullet>  Second, how all Americans can have access to and receive 
assistance from charitable groups during disasters.

    The Red Cross and other charities must not forget communities and 
individuals who are harder to reach or who need special attention. 
Today, we will hear from two witnesses representing the disabled 
community, which is of particular interest to me. They will describe 
the experiences of individuals with disabilities during this disaster, 
and some of those experiences are shocking. We need to hear what the 
Red Cross and others are planning to do to ensure that underserved 
populations are not forgotten or neglected during the next disaster.

    <bullet>  Third, we need to ensure that charitable dollars are not 
lost to fraud. While disasters bring out the best in many people, they 
also bring out the worst in others. In some cases, criminals have 
pretended to be charities, and stolen money intended for real 
charities.

    In other cases, people pretending to be victims have taken 
advantage of real charities, and taken money that could have been used 
to help real victims. The New York Times reported that the Red Cross 
distributed $32 million in cash to residents in and around Jackson, 
Mississippi, even though many of them had not experienced significant 
property damage.
    One pawn shop owner in Jackson, Mississippi, told the Times that 
many aid recipients cashed relief checks at his shop, and immediately 
bought jewelry, guns, DVDs, and electronics. The owner of a Western 
Union branch in Jackson was quoted as saying: ``Surely the Red Cross 
has to have a better use of funds. Unless they just have money that 
they are trying to get rid of for some reason.'' Stories like this may 
discourage donors from giving their money for relief efforts. 
Therefore, we have to understand what the Red Cross and other charities 
are doing to ensure that their aid is going to the people who need it 
most.
    If this hearing helps document where charities fell short in 
serving the hurricane victims, it can help ensure these problems do not 
occur again. If Americans do not have confidence that their donations 
are being used wisely, they may not be so generous when the next 
disaster strikes.
    This morning, the Red Cross announced the resignation of their CEO, 
Marsha Evans. I would like to thank Ms. Evans for her dedication and 
hard work. I also would like to say that this transition offers an 
opportunity for the Red Cross management to respond to the concerns 
that have been raised and will be discussed today.
    I now recognize the distinguished Ranking Member from Georgia, my 
good friend, Mr. Lewis, for his opening statement.

                                 <F-dash>

    Mr. LEWIS. Thank you very much, Mr. Chairman. Thank you for 
holding this hearing this afternoon.
    More than 2 months ago, Hurricane Katrina tore through the 
gulf region, causing unbelievable destruction. Tens of 
thousands of people were forced to leave their homes. The area 
suffered over $100 billion in property damage.
    Charitable organizations played a critical role in our 
country's humanitarian response to Hurricane Katrina. Americans 
helped these efforts by giving well over $2.5 billion to 
charitable organizations for the victims of Hurricane Katrina. 
The American Red Cross described Hurricane Katrina as a 
disaster of epic proportion, in fact, nearly 20 times larger 
than anything we have ever faced before.
    At the peak of the emergency, the Red Cross sheltered close 
to 150,000 people in more than 500 facilities. In response to 
the hurricanes, Hurricane Katrina and Hurricane Rita, the Red 
Cross has provided 3.42 million overnight stays in more than 
1,000 shelters nationwide, and given more than 1.2 million 
families emergency financial assistance.
    In coordination with the Southern Baptist Convention, the 
Red Cross has served over 50 million hot meals and snacks to 
hurricane survivors. The Salvation Army and small churches, 
often local churches, were able to meet many of the needs of 
hard-to-reach communities where the American Red Cross could 
not.
    When Katrina first hit the region, the Salvation Army was 
able to quickly deliver food, blankets, cleaning kits, and 
other needed supplies to those in most need. Today, the 
organization has served more than 12 million hot meals, 
sandwiches and snacks to survivors and first responders.
    Mr. Chairman and Members of the Subcommittee, I want to 
welcome all of the witnesses coming before the Subcommittee 
today. Your organizations' response to Hurricane Katrina was 
outstanding and unlike anything seen in our country before. 
There are always lessons to be learned to improve our disaster 
response system for the future; I share your interest in 
learning from past experience.
    In conclusion, America's charitable response to Hurricane 
Katrina deserves our praise. I want to give each of you my 
personal thank you for all that you did and continue to do.
    [The opening statement of Mr. Lewis follows:]

  Opening Statement of The Honorable John Lewis, a Representative in 
                   Congress from the State of Georgia

    More than two months ago, Hurricane Katrina tore through the Gulf 
region causing unbelievable destruction. Tens of thousands of people 
were forced to leave their homes. The area suffered over $100 billion 
in property damage.
    Charitable organizations played a critical role in providing our 
country's humanitarian response to Hurricane Katrina. Americans helped 
these efforts by giving well over two and a half billion dollars to 
charitable organizations for the purpose of aiding the victims of 
Hurricane Katrina.
    The American Red Cross describes Hurricane Katrina as a disaster of 
epic proportions--``in fact, nearly 20 times larger than anything we 
had ever faced before.'' At the peak of the Katrina emergency, the Red 
Cross sheltered close to 150,000 people in more than 500 facilities. In 
response to Hurricane Katrina and Hurricane Rita, the Red Cross 
provided 3.42 million overnight stays in more than 1,000 shelters 
nationwide and gave more that 1.2 million families emergency financial 
assistance. In coordination with the Southern Baptist Convention, the 
Red Cross served over 50 million hot meals and snacks to hurricane 
survivors.
    The Salvation Army and small charities, often local churches, were 
able to meet many of the needs of hard-to-reach communities where the 
American Red Cross could not. When Katrina first hit the region, the 
Salvation Army was able to quickly deliver food, blankets, cleaning 
kits, and other needed supplies to those in most need. To date, the 
organization has served more than 12 million hot meals, sandwiches and 
snacks to hurricane survivors and first responders.
    I want to welcome all the witnesses coming before the Subcommittee 
today. Your organizations' responses to Hurricane Katrina were 
outstanding and unlike anything seen in our country before. There are 
always lessons to be learned to improve our disaster response system 
for the future. I share your interest in learning from past experience. 
In conclusion, America's charitable response to Hurricane Katrina 
deserves our praise. I want to give each of you my personal thank you.

                                 <F-dash>

    Chairman RAMSTAD. The Chair thanks the Ranking Member.
    Now, we call the first panel comprising of our colleague 
from Louisiana, a Member of the Committee on Ways and Means and 
Chairman of the Subcommittee on Social Security.
    I want to say before you begin, Jim, that in the wake of 
Hurricane Katrina, your leadership, your hard work, your 
dedicated efforts were truly an inspiration to all of us and to 
all Americans. I want to thank you for all that you did to lead 
us in the direction of providing the appropriate relief to 
people devastated by the worst natural disaster in our Nation's 
history.
    I look forward to your testimony. Welcome to the 
Subcommittee.

STATEMENT OF THE HON. JIM MCCRERY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. MCCRERY. Thank you, Mr. Chairman. Thank you for those 
kind words.
    I want to thank the full Committee of Ways and Means for 
being so responsive in the wake of Katrina initially, and now 
Rita, in moving bills through the Congress, through our 
Committee, through the Congress on unemployment compensation 
relief, on welfare relief, tax relief for individuals who are 
victims of Katrina; and now, we hope this week or next, another 
tax bill dealing with incentives to bring investment, business 
investment, back to the devastated areas.
    I think this hearing today, though, is very important, Mr. 
Chairman, and I commend you for holding it in an effort to shed 
light on the positive things that were done--as you and Mr. 
Lewis both talked about, indeed there were a lot of very 
positive deeds performed in the wake of Hurricane Katrina--but 
also to question and highlight problems that were present in 
dealing with the aftermath of those storms.
    Today, I want to take this opportunity to shed light on 
some of those shortcomings as I saw them from my perspective as 
someone on the ground in a part of Louisiana that was not 
touched by Katrina. My district was not touched at all by the 
storm, but we were touched by the tens of thousands of evacuees 
that came into my district seeking shelter.
    So, it is that experience, primarily, that I want to talk 
about today. Before another Committee, I can talk about the 
Federal Emergency Management Agency (FEMA) and some other 
things, but today I am going to focus on the sheltering 
activity and who was responsible for that.
    I am concerned, in particular, with the performance of the 
American Red Cross. Based on my experiences on the ground from 
Katrina and Rita, the American Red Cross was not properly 
prepared to fulfill its emergency role in our national response 
plan. For over 100 years, beginning with the Congressional 
Charter of 1905, the Federal Government has partnered with the 
American Red Cross to provide domestic and international 
disaster relief.
    The current relationship is outlined in the U.S. Department 
of Homeland Security's National Response Plan, where the 
American Red Cross is named the primary agency responsible for 
mass care after a disaster. This means that the American Red 
Cross, a Non-Governmental Organization (NGO), is primarily 
responsible for providing emergency medical care, food and 
shelter to Americans in the wake of natural and man-made 
disasters. After witnessing the Red Cross's struggles during 
Katrina and Rita, I question whether it is prudent for Congress 
to place such great responsibility in the hands of one 
organization.
    Hurricane Katrina and the subsequent flooding of New 
Orleans displaced roughly 1 million people from their homes in 
southeast Louisiana. Tens of thousands sought shelter in my 
district. It was clear from the beginning that the Red Cross 
simply didn't have the sheltering capacity to meet immediate 
needs. Small independent shelters began popping up by the 
dozens across northwest Louisiana. At the peak, there were over 
40 shelters operating in my district, and fewer than 10 of 
those were Red Cross shelters.
    So, Mr. Chairman and Members of the Subcommittee, when you 
read in the paper or you hear statistics like Mr. Lewis cited 
in his opening statement about X number of people being fed and 
so forth, a lot of those statistics come from the Red Cross, 
and they are accurate insofar as the Red Cross is concerned, 
but there are literally tens of thousands, probably hundreds of 
thousands of people being fed and sheltered that are not 
accounted for in those figures because the Red Cross does not 
know about them.
    That is the experience I had, Mr. Chairman. Immediately 
after Katrina, when I was going around my district trying to 
make sure that evacuees from south Louisiana were taken care 
of, we had a number of small shelters--I say ``small,'' some of 
them had 300 people in a high school gymnasium; they were not 
that small--but we had a number of shelters like that that 
popped up out of necessity.
    The large shelters in Shreveport were full, and none were 
opening at that time. So, these people were coming up from 
south Louisiana, banging on our doors, saying, ``Help.'' Those 
communities, rightfully so, opened their doors, created a 
shelter, and when I or the people from those local communities 
tried to get the Red Cross to send them blankets or cots or 
food, or diapers, they were told, sorry, we cannot help you.
    Now, I believe that the Red Cross director in my district 
was being honest. He probably could not help because he either 
didn't have the provisions, or he didn't have the 
transportation for the provisions, didn't have the volunteers, 
but whose fault is that? In my view, it is the fault of the 
American Red Cross--not my local chapter, the national Red 
Cross--poorly planning or just not planning at all for a 
disaster of this scope.
    We have known for decades that New Orleans was vulnerable 
to a storm of this sort, that flooding was possible, that 
hundreds of thousands of people would be displaced from their 
homes. We have, since 9/11, I think, anticipated a similar man-
made disaster that could be caused by a terrorist act. Why were 
we not better prepared?
    I spoke earlier about FEMA. I think FEMA was woefully 
unprepared. The Federal Government was woefully unprepared. Our 
State government was woefully unprepared. The local governments 
were unprepared. I think the Red Cross was unprepared, as 
clearly demonstrated.
    So, that is my testimony in a nutshell, Mr. Chairman. I 
will be happy to stay and answer questions that your Committee 
might have.
    [The prepared statement of Mr. McCrery follows:]

 Statement of The Honorable Jim McCrery, a Representative in Congress 
                      from the State of Louisiana

    Mr. Chairman, my colleagues on Ways and Means, I commend you for 
holding this hearing and appreciate the invitation to share my views on 
the charitable response to Hurricanes Katrina and Rita. For the past 
three months, my energies have been largely devoted to responding to 
the hurricanes which ravaged the Gulf Coast region. As part of that 
response, I have assisted hurricane evacuees residing in my 
congressional district, as well as my constituents who were directly 
impacted by Rita. National and local charities have played a central 
role in feeding, housing and finding employment for these families. 
Their contributions to the relief and recovery have been amazing. I am, 
however, particularly concerned with the performance of the American 
Red Cross. Based upon my experiences from Katrina and Rita, the 
American Red Cross is not properly prepared to fulfill its emergency 
role in our National Response Plan.
    For over 100 years, and beginning with the Congressional Charter of 
1905, the Federal Government has partnered with the American Red Cross 
to provide domestic and international disaster relief. The current 
relationship is outlined in the U.S. Department of Homeland Security's 
National Response Plan where the American Red Cross is named the 
primary agency responsible for mass care after a disaster. This means 
that the American Red Cross, a non-governmental organization, is 
primarily responsible for providing emergency medical care, food, and 
shelter to Americans in the wake of natural and man-made disasters. 
After witnessing the American Red Cross' struggles during Katrina and 
Rita, I am not sure it is prudent for Congress to place such great 
responsibility in the hands of one organization.
    Hurricane Katrina, and the subsequent flooding of New Orleans, 
displaced roughly one million people from their homes in southeast 
Louisiana. Tens of thousands of evacuees sought shelter in my district. 
It was clear from the beginning that the Red Cross simply did not have 
the sheltering capacity to meet immediate needs. Small independent 
shelters began popping up by the dozens across northwest Louisiana. At 
the peak, there were over forty shelters in my district, while fewer 
than ten of those were operated by the Red Cross. Red Cross had serious 
trouble operating at least three of the larger shelters in my district: 
Hirsch Coliseum in Shreveport, LA, CenturyTel Center in Bossier City, 
LA, and the Health and Physical Educational Building at Northwestern 
State University in Natchitoches, LA.
    Several days after Katrina's landfall, the American Red Cross asked 
a network of local churches, led by the First Assembly of God, to take 
over the Red Cross shelter at Hirsch Coliseum in Shreveport, LA. Steve 
Beyer, an Associate Pastor with one of the churches, agreed to manage 
the shelter until a replacement Red Cross manager could be found. No 
one replaced him. Mr. Beyer operated the Hirsch Coliseum shelter, where 
6,200 people came through its doors, with only two Red Cross volunteers 
for the first two weeks. The Red Cross asked church volunteers to wear 
Red Cross shirts, I suppose to give the appearance that Red Cross was 
operating the shelter.
    The CenturyTel Center in Bossier City, LA, opened as an independent 
shelter one week after the storm in response to overwhelming need for 
additional sheltering capacity. CenturyTel operated on the backs of 
local government and community organizations while it waited for 
certification from the American Red Cross. Even after the American Red 
Cross moved in, local charities provided all of the food for seven days 
until Red Cross could secure food. Johnny Wyatt, the City Marshall and 
Homeland Security Director for Bossier City, LA, helped manage 
CenturyTel. Mr. Wyatt is scheduled to appear in front of the 
Subcommittee today. His testimony will shed light on the challenges of 
working with the American Red Cross.
    The American Red Cross shelter at Northwestern State University was 
managed by the City of Natchitoches and the Natchitoches Parish 
Sheriff's Department in conjunction with the University. Dr. Bill 
Dickens, the shelter's manager, had one Red Cross volunteer to help 
service the 1,000 evacuees housed each night at the site for the first 
10 days following the storm. I should note that it took seven days for 
this shelter to receive any of the $60,000 in new bedding that was 
donated to the local Red Cross chapter by General Motors. The bedding 
sat unused in a Red Cross facility seventy miles away in Shreveport, 
LA, despite the fact that some evacuees in Natchitoches were sleeping 
on the floor. The failure to get these resources to the shelter in a 
timely fashion represents an inexcusable breakdown in communication and 
coordination within the Red Cross.
    While the Red Cross could barely manage its own network of 
shelters, the organization offered little assistance to struggling 
independent shelters. Dennis Butcher, the Office of Emergency 
Preparedness Director for Claiborne Parish, was instructed by the Red 
Cross to fend for himself. Mr. Butcher operated an independent shelter 
of 1,200 evacuees for over a month without any assistance from the Red 
Cross. I wish Mr. Butcher's experience was unique, but the Red Cross 
also refused requests for assistance from the Office of Emergency 
Preparedness Directors for Claiborne, Sabine, Vernon and Webster 
Parishes. I also spoke with OEP and other officials on the Mississippi 
Gulf Coast who experienced similar treatment from the Red Cross.
    To date, the American Red Cross has attributed its shortcomings in 
my district to their local chapter. The Federal Government named the 
American National Red Cross as its partner in the National Response 
plan, not the local chapter in my district. If it is not the 
responsibility of the National Red Cross to step in when a Category 4 
hurricane decimates a major metropolitan area and overwhelms one of 
their local chapters, whose responsibility is it? It has been over 
thirty years since Hurricane Camille decimated the Mississippi Coast, 
four years since the terrorist attacks of 2001, and a little over a 
year since Florida's terrible hurricane season. Forecasters have known 
for decades that New Orleans was one hurricane away from a major 
disaster. The American Red Cross, as the Federal Government's lead 
partner in mass care, should have been prepared to meet the immediate 
needs of the victims of Hurricanes Katrina and Rita. The national 
organization should have been prepared to move sufficient numbers of 
volunteers and staff to affected areas. Americans rely on the Red Cross 
in times of crisis, but the Red Cross could not be relied on in 
northwestern Louisiana.
    The American Red Cross' reputation in Louisiana has been severely 
damaged. I have stopped giving money to the organization, and instead, 
have directed over $450,000 in funds I raised for hurricane relief to 
the United Way and the Salvation Army. The Red Cross, though, continues 
to enjoy a major advantage in fundraising over other charities because 
of its partnership with the Federal Government. In this disaster alone, 
the Red Cross absorbed over 60% of all charitable donations. I believe 
it is Congress' responsibility to reexamine the Federal Government's 
relationship with the Red Cross.
    In closing I would like to once again commend this Committee for 
its willingness to examine this important issue. I would also like to 
thank all the volunteers who have invested their time and money into 
the recovery effort. The Gulf Coast is forever indebted to them for 
their generosity.

                                 <F-dash>

    Chairman RAMSTAD. Well, thank you very much for your very 
compelling testimony. I have just a few questions I would like 
to ask.
    Jim, what kind of response did you get when you brought the 
problems to the attention of the Red Cross Headquarters of the 
American Red Cross? What kind of response did you get when you 
alerted them as to the problems with the shelters?
    Mr. MCCRERY. The national organization expressed some 
surprise at some of the things I was telling them. So, they 
were evidently unaware of what was happening on the ground in 
my district. They did pledge to look into it and to try to 
identify where the problems arose and fix those, and that is 
why I am here today.
    I hope I am not being unduly tough on the Red Cross, but I 
think we need to talk plainly about the shortcomings of our 
disaster response; and if the Red Cross is going to be the 
Federal Government's primary responder in terms of shelter, 
than I think we owe it to ourselves and we owe it to the Red 
Cross to point out the shortcomings of that effort so that we 
can be better prepared next time.
    The national Red Cross evidently was not well aware of what 
was going on on the ground, at least in my district, and they 
have promised to try to rectify those problems, but the initial 
response was just simply, we didn't know.
    Chairman RAMSTAD. I notice from your written testimony that 
you asserted the national Red Cross attributed the shortcomings 
in your district to the local chapter. Rather than being an 
issue of lack of control by the national Red Cross vis-a-vis 
the local chapter, you seem to indicate today it is more a lack 
of planning on national's part.
    Mr. MCCRERY. That is my perception, that there was not in 
place an adequate plan on the part of the Red Cross to deal 
with sheltering this many people. It overwhelmed them. It 
overwhelmed my local chapter. It overwhelmed the national Red 
Cross. I understand that. It was a very difficult situation.
    This country has never seen anything like it in our 
history, but after 9/11, I think we all knew that something 
like this could happen somewhere, and we should have been 
better prepared. That is all I am saying, Mr. Chairman.
    I hope the Federal Government will work with the Red Cross 
or maybe bring in the Salvation Army or other groups to have a 
united effort to make sure these kinds of problems are met in 
the future.
    Chairman RAMSTAD. I want to ask one final question. I 
touched on it in my opening statement, and you certainly have 
just touched on it again; that is Congress' responsibility to 
examine the relationship between the Federal Government and the 
Red Cross, which you clearly stated, so that we can avoid 
problems that happened in your district from happening again, 
from being repeated anywhere else.
    Do you have any suggestions for how we as Members of 
Congress can help improve the response by charitable 
organizations?
    Mr. MCCRERY. Mr. Chairman, I think that we ought to 
reexamine the congressional charter that gives the American Red 
Cross the responsibility for the initial sheltering and feeding 
and so forth of victims of national disasters. We ought to 
examine that relationship, perhaps bring in other 
organizations, make it an umbrella organization.
    I do not know, but Congress needs to fully examine that and 
make sure that the plan we have in place with some NGOs is the 
best one to meet such a massive need in case we have this kind 
of disaster again.
    Let me hasten to add, Mr. Chairman, that there were lots of 
volunteers; I do not know how many--hundreds, thousands of 
volunteers, and the Red Cross and the Salvation Army, the 
United Way and lots of organizations that did heroic jobs. I 
think my local director of the Red Cross worked 22 straight 
days with no time off, trying to see to the needs of the 
shelters that they were operating in my area.
    So, I certainly want to commend those individuals who 
volunteered their time, and some who were paid, and went beyond 
their call of duty to perform these heroic acts. They should be 
commended.
    I think that Congress has to, if not share the blame, at 
least share the responsibility, going forward, to make sure 
that the organization or organizations that we vest with this 
responsibility is better prepared next time to carry out that 
responsibility.
    Chairman RAMSTAD. Thank you again for your testimony and 
your outstanding leadership.
    The Chair now recognizes the distinguished Ranking Member 
for questions.
    Mr. LEWIS. Thank you, Mr. Chairman. Let me join you in 
thanking Jim for his leadership and his hard work during the 
unbelievable crisis along the Gulf Coast.
    I have one or two questions. You have some praise and some 
complaints about how things were handled in your district. 
Could you, just for the record--what do you consider to be the 
best job done and the worst job done?
    Mr. MCCRERY. Well, the best job, in my view, Mr. Lewis, was 
done by people who were not in the Red Cross or the Salvation 
Army or any other organization. They were just ordinary people 
who came out of their homes and brought diapers and pillows and 
blankets and food, and stayed at the high school gymnasium or 
wherever, the civic center, in some small town and cooked for 
the people who were there; who gave them rides to the Social 
Security office to make sure they got their checks; just 
performed daily acts of human kindness for people they had not 
very much in common with.
    Believe me, people in north Louisiana don't share much 
culturally with people in south Louisiana. They are Cajun, 
Catholics, French speaking in many cases from south Louisiana, 
and we are Protestant rednecks in north Louisiana; it is like 
two different States. Yet these folks in north Louisiana were 
coming out of their homes every day and every night to take 
care of people that they didn't know and didn't have much in 
common with, except that they were human beings. That was very 
inspiring to me.
    The worst thing was just the total lack of planning that 
was evident in this crisis. It was insufficient.
    Mr. LEWIS. Let me just try to see if I can find out 
something here. I believe the Red Cross is going to testify, 
maybe later, that this was the worst level of human need in the 
history of the organization.
    You said earlier that the Federal Government was not 
prepared, that the local government, the county, the State was 
not prepared. Were there any charitable organizations prepared 
for such a level of human need, such devastation?
    Mr. MCCRERY. Probably not.
    Mr. LEWIS. Well, is it possible for someone to be prepared?
    Mr. MCCRERY. I think that is a fair question, and it may 
not be possible to be prepared for every single contingency 
associated with a disaster of this scale, but, Mr. Lewis, it is 
my contention that we could have and should have been much 
better prepared to meet the contingencies of this kind of 
disaster than we were.
    It was not hard to imagine that the numbers of people 
evacuating south Louisiana, who did, would actually evacuate. 
This scenario had been on the books for years, as I have said, 
and we should have been better prepared.
    Let me just give you an example, and maybe--and the Red 
Cross is going to testify, and you can ask them about this--and 
maybe they have some sound reason why they could not do this, 
but in my view they should have, from the national office, 
anticipated a huge need for volunteers or for bodies, for human 
beings, in areas north of New Orleans and the Mississippi Gulf 
Coast.
    They should have prepositioned people in Dallas and 
Shreveport and Jackson, maybe Atlanta, ready to go into 
whatever areas were taking those evacuees from those devastated 
areas; and they weren't. My local chapter got zero help for 
quite a while. I think that is inexcusable.
    Mr. LEWIS. Well, should there be a greater burden on the 
National Government than on some charitable organization, 
whether that organization be national, international or local? 
Rather than talk about getting involved in a blame game, I just 
want to be clear here where we are going.
    Mr. MCCRERY. Well, I am merely reporting to you what 
happened on the ground.
    The Federal Government has already made the decision, 
through the Congress, to enlist the American Red Cross as the 
NGO that is on the front lines, supposed to meet the needs of 
evacuees and shelters and so forth in a disaster. We have made 
that decision.
    Whether that decision needs to be reconsidered is a 
question for this Congress. I am posing it today. I do not know 
the answer, Mr. Lewis, but it is a question we ought to ask. We 
ought to examine it thoroughly, and if there is a change 
necessary, we ought to make that change.
    If the Red Cross needs help, if they need other 
organizations, if they need the Federal Government, then we 
ought to examine that and get it done.
    Mr. LEWIS. Thank you very much.
    Chairman RAMSTAD. The Chair would now recognize the 
gentleman from Colorado, Mr. Beauprez.
    Mr. BEAUPREZ. Thank you, Mr. Chairman.
    Jim, let me add my thanks to you for your leadership on 
this, and my sympathy to all of the people affected by these 
horrible storms. Even though Colorado is a long ways from the 
impacted area, we took in 4,200 refugees even in far-away 
Colorado, about three out of four of them from your State of 
Louisiana; and it stressed us a little bit. I can only imagine 
what it must have been like for you in your district, Jim.
    You have mentioned in considerable detail what you went 
through, what your local Red Cross chapter went through. We all 
know that Louisiana, Mississippi, Alabama, were affected by 
Katrina; Rita took its effects on Texas as well. Of course, the 
storms impacted areas even farther than that because of the 
refugees.
    What is your perception, Jim, of the circumstances, the 
struggles, the way the whole reaction was managed in other 
areas? Was yours unique or was this a pattern that was far too 
prevalent?
    Mr. MCCRERY. I cannot speak with any authority on whether 
similar problems existed in other localities, except for the 
Mississippi Gulf Coast, which I did tour and spoke with several 
public officials in the Mississippi Gulf Coast area. There were 
similar complaints, Mr. Beauprez, about the Red Cross and the 
response to sheltering and assisting shelters on the 
Mississippi Gulf Coast.
    Mr. BEAUPREZ. I am sure you have had some opportunity to 
talk to some other States, Florida comes to mind, that has been 
hit, hit, and hit again it seems. At least it is my perception 
that however they manage to do it, they seem to respond pretty 
well. What is the difference in Florida?
    Mr. MCCRERY. I have spoken to some of our colleagues from 
Florida, who have also expressed complaints about FEMA, about 
the Red Cross, about other organizations in the aftermath of 
hurricanes in South Florida.
    If you are asking about the State's response, I think the 
State of Florida has enough experience that they have learned 
to be ready and to respond admirably on the State level.
    Mr. BEAUPREZ. Well, given that experience, you have pointed 
out clearly that while we didn't know the when or the degree of 
the devastation, it should have come as a mystery to no one 
that something like this could happen. After all, we have had 
other hurricanes, not this large, but we have had others.
    We had 9/11. We certainly witnessed, a bit from afar, but 
we saw the devastation from the tsunami months before your 
terrible event. So, it should have come with some, I guess, 
anticipation.
    You said that the question as to the prudence of one 
organization having the responsibility within our national 
response plan, that the Red Cross does, is a legitimate 
question.
    Well, let me ask you directly. In your opinion, Jim, is the 
thing broken so badly it can't be fixed? What is your 
perception right now?
    Mr. MCCRERY. My belief is that it can be fixed, that it is 
possible to be better prepared. Will it take a lot of 
organization and a lot of work? Yes, I think it will. I do 
think it is possible to be much better prepared to meet the 
needs.
    Look, we all have run campaigns, and we know, at least 
those of us who had tough campaigns at one time--and some of us 
still do--we have to organize volunteers, and we have to have 
them ready to get on a bus, if necessary, and go to some other 
town to go door to door and hand out leaflets. That is hard 
work. It is hard to have a ready set of volunteers, at a phone 
call to pick up and go. I know that. It is very difficult.
    However, that is the kind of nitty-gritty work that I think 
needs to be done on a national level; to have people ready at 
the drop of a hat to respond and be there, have bodies on the 
ground ready to help, ready to give some guidance. That is all 
a lot of people in my district wanted.
    They wanted some people there to just direct them. Look, I 
am here, I am ready to help, but tell me how to do it; what do 
I need to do? There was nobody.
    Chairman RAMSTAD. The Chair now recognizes the gentleman 
from Texas, Mr. Johnson.
    Mr. JOHNSON. No questions.
    Chairman RAMSTAD. Mr. Linder.
    Mr. LINDER. Thank you, Mr. Chairman.
    Thank you, Jim, for all you have done on this issue and all 
of your colleagues. I am sure you are still working on it on 
the weekends when you get home.
    Is there a competing element between FEMA and the Red 
Cross?
    Mr. MCCRERY. I don't know. There shouldn't be, but I am 
glad you brought that up, because one thing that was prevalent 
in the first, say, 5 days following the storm, is that I would 
finally get in touch with somebody at FEMA, and they would say, 
``that is the Red Cross's responsibility.''
    I would get in touch with the Red Cross; they would say, 
``Oh, no, that is FEMA's responsibility.''
    I would call FEMA back, and they would say, Oh, no, I think 
that is the State's responsibility; call the Emergency 
Operations Center in Baton Rouge. That is the National Guard.
    Everybody was doing this: ``That is somebody else's 
responsibility.''
    So, clearly in our National Response Plan, we either need 
to have a better plan or we need to have people better familiar 
with the plan so that everybody knows what his responsibility 
is; and we do not get this runaround of, no, that is not us, 
that is him, them, whoever.
    People need to know what their responsibility is and take 
responsibility and give answers and give direction when the 
time comes.
    Mr. LINDER. Is there a reason to question whether we would 
have the major planner of shelter and food in a major disaster 
being an NGO that has a pretty huge budget and pays its 
executive director $500,000 a year, and is distant from the 
government?
    Mr. MCCRERY. I don't know. That is the question we need to 
examine.
    Congress has made that decision in the past. We have said 
that in this case the American Red Cross is the appropriate 
organization; we are going to not only vest them with that 
responsibility, we are also going to provide them some assets 
and some assistance. So, I think that needs to be thoroughly 
examined.
    We cannot ignore this. It is going to happen again 
somewhere, if it is an Earthquake in California, it is a 
Category 5 in South Florida.
    Mr. LINDER. Or a terrorist attack.
    Mr. MCCRERY. Or a terrorist attack where the terrorists 
dynamite a dam or infiltrate the water system with pollutants, 
that causes people to have to leave in mass numbers. Something 
is going to happen. So, we owe it to ourselves and our 
constituents to make sure that we either take the plan that is 
on the books and make it work or create a new plan.
    Mr. LINDER. If we anticipated a disaster, which we saw 
coming for several days, and were unprepared for that, how 
could they prepare for a nuclear accident that we didn't have 
any idea was coming?
    Mr. MCCRERY. Yes. Well, certainly something like that--
where a nuclear device explodes that we do not have any notice 
of, the problems are going to be different associated with 
that, but some of them could be similar. You could have people 
within a certain radius of the explosion ordered to get out 
quickly and to evacuate, to go somewhere else, and you could 
have the same kinds of problems.
    Certainly every situation would be different, but some of 
them would be the same, and we need to be prepared for that.
    Mr. LINDER. My recollection is that after September 11th, 
huge sums of money came into the Red Cross. They made an 
executive decision not to spend it all on September 11th, which 
I believe the board subsequently overturned.
    Mr. MCCRERY. That's right.
    Mr. LINDER. Do you have any expectation that this is 
occurring in this event?
    Mr. MCCRERY. I do not. I just do not know, but--I think you 
raise a legitimate question, though, which is, should we have 
one organization that is generally recognized as the 
organization to respond to disasters, and as a consequence of 
that recognition, have the overwhelming majority of private 
sector donations going to that one organization. I think that 
is a legitimate question.
    The government shares in the responsibility for identifying 
that one organization, I think. So, I think that is a question 
we need to reexamine.
    Mr. LINDER. Thank you.
    Chairman RAMSTAD. The gentleman from California, Mr. Nunes.
    Mr. NUNES. No questions.
    Chairman RAMSTAD. The gentleman from Florida, Mr. Shaw.
    Mr. SHAW. Thank you, Mr. Chairman.
    I, having experienced a lesser disaster, but a disaster, 
indeed, with Wilma down in Florida and having been a lifetime 
resident of Florida, I have seen many, many hurricanes, but I 
do not think I have ever seen, and I do not think one has ever 
hit our shores that has caused the devastation and loss of 
property--even though there have been some with much larger 
loss of life in Florida, back in the early days--as Katrina.
    Looking back on what we have learned, I think it is easy to 
overlook much of the good that was done, the heroic behavior, 
the generosity of the American people. All of those 
organizations have done a good job in so many ways, but that 
does not mean that we should not go back.
    I appreciate your testimony as to what went wrong, and 
those are the things that we should be talking about. You won't 
read about it in the paper unless it is something that went 
wrong. Nevertheless, we should not be afraid to get in there, 
roll up our sleeves and talk about it.
    I would suggest--and perhaps you hit on this in your 
testimony, but I think FEMA should call together all of these 
organizations. You talk about a ``plan.'' Well, the plan should 
be in writing and be very, very clear.
    There were many breakdowns. The first breakdown was in 
individual responsibility. That was a huge breakdown, and 
particularly in Louisiana. Then there was a breakdown in the 
city, there was a breakdown in the Governor's office in 
Louisiana.
    Florida was not perfect, but I think that--compared to what 
went on in Louisiana, that we should get an Oscar for the way 
our government operated at the local as well as at the State 
level with Jeb Bush. I think he did a wonderful job.
    Again, I can tell you, the press in Florida talks about 
what went wrong. One area that is a little bit outside of the 
scope of this hearing, but Mr. Linder brought up the question 
of FEMA, an area that is worrying me, and that is exactly what 
FEMA does.
    In Florida, I am sure in Louisiana, Mississippi and 
Alabama, I don't care how rich you are, if you went out and 
bought a generator, they reimbursed you up to $800. Luckily, 
most people didn't know that, or I can tell you that it would 
have been rampant. Chain saws, why are we buying people chain 
saws? We all are anxious to get the trees out of the road and 
out of our yards, but giving individuals--refunding the money 
for going out and buying themselves a nice new chain saw, I do 
not think is the responsibility of FEMA.
    Now, I know of personal individuals, if you have got 
medical emergencies, something that is really drastic and 
people cannot afford it, then I think it is proper to buy a 
generator to put in someone's personal home. To just simply 
say, all you have got to do is buy one--one of the adjusters 
for FEMA, going out and looking at where the generator was and 
being sure that it was properly done before the adjustment, 
found it in a five-car garage. Now, I can tell you, somebody 
with a five-car garage should not be getting a free generator.
    On the island of Palm Beach, there were several people; 
there is not a home on the island of Palm Beach that is worth 
less than $1 million. That should not happen. As a matter of 
fact, I do not think we should be buying them, period, except 
in drastic circumstances.
    Did you have the same experience in your area.
    Mr. MCCRERY. Yes. As you said, this is not the proper forum 
to examine FEMA's responsibilities.
    Mr. SHAW. It is as close as this Committee will get.
    Mr. MCCRERY. Since you asked, though--and I have already 
stated in a general sense that FEMA was unprepared for this--
and I think the examples that you point out of people abusing 
FEMA abound. That is hard to control because that is human 
nature, to take advantage of a situation, sometimes even in 
Florida. What FEMA can do about that, short of our changing the 
rules, I don't know.
    Mr. SHAW. Well, I did look at what the law is; and the law 
allows FEMA to set the regulations as to what they are going to 
do, and I think we need to be a little more restrictive in the 
statute.
    So, I plan to ask the party of appropriate jurisdiction to 
look at that and tighten up on that, because otherwise, the 
word has gotten out now; and I can tell you, when Florida gets 
another hurricane, the best business you can be in is selling 
generators, because you are going to sell jagillions of them.
    It is wrong. It is not the proper use of taxpayer dollars.
    Thank you, Mr. Chairman. I yield back.
    Chairman RAMSTAD. Thank you, Mr. Shaw.
    The Chair again thanks you, Chairman McCrery, for your 
testimony, your leadership and your great effort in this 
regard. We look forward to working with you to remedy some of 
the problems that you point out.
    The Chair will now call the second panel for today's 
hearing. If you would come forward please, take your seats. 
First, Cynthia M. Fagnoni, Managing Director, Education 
Workforce and Income Security, U.S. Government Accountability 
Office (GAO); Joseph C. Becker, Senior Vice President, 
Preparedness and Response, American Red Cross; Major Todd 
Hawks, Public Affairs Secretary and Associate National 
Community Relations and Development Secretary, Salvation Army 
of America; and John G. Davies, President and Chief Executive 
Officer (CEO), Baton Rouge Area Foundation.
    Welcome to all four of you witnesses. Thank you for being 
here today. We will begin, please, with Ms. Fagnoni.

STATEMENT OF CYNTHIA M. FAGNONI, MANAGING DIRECTOR, EDUCATION, 
 WORKFORCE AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. FAGNONI. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. I am pleased to be here today to share early 
findings from GAO's ongoing review of charities' response to 
the recent Gulf Coast hurricanes.
    Charities have played a major role in responding to 
national disasters, including the September 11th terrorist 
attacks, and Hurricanes Katrina and Rita. They provided food, 
water, shelter and other assistance to victims in devastated 
areas.
    Following the recent hurricanes, charities mounted the 
largest disaster response effort in U.S. history. My statement 
today will focus on charities' progress in incorporating 
lessons learned following the September 11th attacks and our 
preliminary observations on how well charities have coordinated 
following the Gulf Coast hurricanes.
    The GAO reported several lessons learned from the 9/11 
response that could help charities enhance their responses to 
future disasters. These included making it easier for eligible 
survivors to get the help they need, enhancing coordination 
among charities and with FEMA, educating the public about 
charities' roles in disaster response, and planning for future 
events.
    We recommended that FEMA convene a working group of 
charities to address these lessons learned, which resulted in 
the creation of the Coordinated Assistance Network (CAN). The 
CAN involves seven of the largest disaster response charities 
and is designed to improve coordination and share information 
electronically about aid recipients and services provided.
    In response to hurricanes Katrina and Rita, charities have 
raised more than $2.5 billion in cash donations according to 
the Center on Philanthropy at Indiana University. The American 
Red Cross raised more than half of that total, with other 
organizations raising considerably smaller amounts.
    Disaster relief charities took steps to coordinate services 
through central operations centers, conference calls and 
electronic databases. For example, in the weeks following 
Katrina, the Red Cross organized a national operations center 
with FEMA and other national charities to coordinate services 
on the ground.
    National Voluntary Organizations Active in Disaster (VOAD), 
an umbrella organization of charities organized daily 
conference calls with Federal officials and more than 40 
charities to share information. The CAN activated its case 
management databases, which enabled more than 40 participating 
charities to share data on their clients and the services they 
provided.
    The CAN also created and activated a shelter database that 
included information about the operating status and capacity of 
emergency shelters in the Gulf Coast region. The charity 
representatives we interviewed reinforced the importance of 
these efforts, but they raised some concerns about the 
usefulness of these operations and systems.
    For example, charity representatives told us that the 
national VOAD conference calls often included too many 
participants and sometimes participants provided inaccurate 
information. Some charity officials also told us that because 
the CAN databases were still under development, they were not 
ready for use on such a large scale.
    Many volunteers had not received sufficient training on the 
system, and some of the technological glitches had not been 
resolved. In addition, the databases required Internet access 
and electricity, which is not always available in disaster 
situations. We also found that charities had to balance access 
to services with safety concerns as they responded to the 
hurricanes.
    The GAO teams visiting the Gulf Coast in October observed 
that the Red Cross didn't provide relief in certain areas due 
to policies intended to protect the safety of service providers 
and victims. These policies included not establishing shelters 
in flood-risk areas or in structures that are vulnerable to 
strong winds, even when victims remained in these areas.
    The GAO teams in the field observed that the Salvation Army 
and smaller charitable organizations, often local churches, 
frequently met victims' needs in these locations. Smaller 
charities played an important role in responding to this 
disaster, but some concerns were raised about their ability to 
provide adequate services to victims.
    Some charity representatives told us that many of the 
smaller organizations had never operated in a disaster and may 
not have completely understood the situation. Some smaller 
organizations tried to establish tent cities to house evacuees, 
for example, but were not prepared to provide the water, 
sanitation and electricity these shelters required.
    In addition, some of the small charities that placed 
dislocated children in temporary homes didn't keep sufficient 
records about where the children were placed. This made it 
difficult for families to locate their missing children.
    In closing, the devastation of Hurricanes Katrina and Rita 
has challenged charities' abilities to provide large-scale aid 
to disaster survivors. At the same time, it has provided a 
critical opportunity to assess how the Nation's charities have 
incorporated lessons learned from responding to 9/11.
    In ongoing work, GAO will continue to examine how well 
charities coordinated their response to the Gulf Coast 
hurricanes.
    Mr. Chairman, this completes my oral statement. I would be 
happy to answer any questions you or the Subcommittee Members 
may have. Thank you.
    [The prepared statement of Ms. Fagnoni follows:]

    Statement of Cynthia M. Fagnoni, Managing Director, Education, 
  Workforce and Income Security, U.S. Government Accountability Office

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the role of charitable 
services in response to recent Gulf Coast hurricanes. Hurricanes 
Katrina and Rita caused massive destruction and large-scale disruption 
of lives in Alabama, Louisiana, Mississippi, and Texas. In response to 
this destruction, we have witnessed heroic efforts by public, private, 
and nonprofit organizations and volunteers. My testimony today will 
present some of our observations regarding the performance of charities 
in response to these hurricanes. These natural disasters have placed 
strengthening the nation's emergency response efforts at the top of the 
national agenda. Comptroller General Walker has stated that GAO will 
provide support to Congress through analysis and evaluation of 
coordination efforts among federal agencies, and between federal 
agencies and the state, local, private, and nonprofit sectors. GAO has 
conducted several previous reviews of federal actions following 
national disasters, including Hurricane Andrew in 1992 and the 
terrorist attacks of September 11, 2001, that will be helpful in 
evaluating the nation's response to recent hurricanes. We plan to 
conduct all Katrina-related work under the Comptroller General's 
authority since it is an issue of interest to the entire Congress and 
numerous committees in both houses.
    Charities have addressed many short- and long-term needs of the 
victims of recent hurricanes in the Gulf Coast region. Their efforts 
represent the largest disaster response effort in United States history 
by charitable organizations. As charities collect donations to address 
these needs, questions have been raised about how the money will be 
used and how charitable relief efforts will be coordinated. This 
testimony will discuss progress to date in incorporating lessons 
learned from our review of charitable coordination following September 
11, and preliminary observations about the coordination of charities 
after the recent hurricanes. This testimony is based upon published GAO 
reports; ongoing work; relevant interviews with federal, state, and 
local government officials in states affected by the hurricanes; 
interviews with charitable officials and national experts; and data on 
total hurricane-related donations to charities from Indiana 
University's Center on Philanthropy.
    In summary, we learned from our work following the September 11 
attacks that charities could take steps to make it easier for survivors 
of disasters to get the help they need, improve coordination among 
charities and the Federal Emergency Management Agency (FEMA), better 
educate the public about charities' roles in disaster recovery, and 
plan for responding to future disasters. Following our report, seven 
charities formed a network to share information electronically about 
aid recipients and services provided, improve coordination, and ease 
access to aid. The group worked in partnership with FEMA to develop a 
database to share information between agencies. In a little more than 3 
months, charities have raised more than $2.5 billion to assist in 
hurricane relief and recovery efforts. In addition, charities have 
taken other steps to improve coordination following the Gulf Coast 
hurricanes. Charities shared information through meetings at the 
American Red Cross headquarters, daily conference calls, and electronic 
databases that allowed multiple organizations to access information 
about services provided to hurricane victims. Despite these efforts, 
some charities raised concerns about the usefulness of the conference 
calls and electronic databases for sharing information. For example, 
some charities said that daily conference calls after Katrina included 
too many organizations and did not provide the information they needed. 
There were also problems with providing charitable services to victims 
in some hard-to-reach areas. GAO teams in the field reported that 
American Red Cross did not provide relief in certain areas because of 
safety policies. In areas where the American Red Cross did not operate, 
GAO teams observed that other charities, such as the Salvation Army and 
smaller charities--often local churches--provided relief services. 
Although smaller organizations provided needed charitable services in 
the Gulf Coast region, some concerns have been raised about their 
ability to provide adequate services to victims. We will be reviewing 
this issue in more detail over the next several months. GAO is 
currently engaged in ongoing work on the coordination of charitable 
efforts in response to Hurricanes Katrina and Rita and will further 
examine how effectively charities coordinated their responses to recent 
hurricanes.

Background
    Charities are organizations established to serve broad public 
purposes, such as the needs of the poor or distressed and other social 
welfare issues. The Internal Revenue Service reported that for 2002, 
501(c)(3) organizations, which include charities, had total assets of 
over $1.7 trillion. In 2004, the Internal Revenue Service (IRS) 
recognized 820,000 charities, accounting for about 90 percent of 
501(c)(3) organizations.\1\ Charities can include organizations with 
missions such as helping the poor, advancing religion, educating the 
public, or providing disaster relief services. Although the Federal 
Government indirectly subsidizes charities through their tax-exempt 
status and by allowing individuals to deduct charitable contributions 
from their income taxes, the Federal Government has a fairly limited 
role in monitoring charities. States provide the primary oversight of 
charities through their attorneys general and charity offices.
---------------------------------------------------------------------------
    \1\ This estimate based on data from the IRS, with modifications by 
the National Center for Charitable Statistics (NCCS) at the Urban 
Institute. NCCS excluded foreign and governmental organizations from 
the data.
---------------------------------------------------------------------------
Charities' Response to National Disasters
    Charities have historically played a large role in the nation's 
response to disasters. For example, after the September 11 attacks, 35 
of the nation's larger charities--including the American Red Cross and 
the Salvation Army--collected almost $2.7 billion to provide food, 
shelter, mental health services, and other types of aid.
    Charities' roles in responding to disasters can vary. Some 
charities, including the American Red Cross and the Salvation Army, are 
equipped to arrive at a disaster scene and provide immediate mass care, 
including food, shelter, and clothing, and in some circumstances, 
emergency financial assistance to affected persons. Other charities 
focus on providing longer-term assistance, such as job training, 
scholarships, or mental health counseling. In addition, new charities 
may form after disasters to address specific needs, such as the 
charities established after the September 11 attacks to serve survivors 
of restaurant workers and firefighters.

National Response Plan
    The U.S. Government's National Response Plan provides a single, 
comprehensive framework for the federal response to domestic incidents, 
such as natural disasters and terrorist attacks. The plan provides the 
structure and mechanisms for the coordination of federal support to 
states and localities. Major cabinet and other federal agencies are 
signatories to the plan, along with the American Red Cross and the 
National Voluntary Organizations Active in Disaster (National VOAD), a 
national charity umbrella organization. The American Red Cross and 
National VOAD are the only nongovernmental organizations that signed 
the plan. In December 2004, the Department of Homeland Security 
released the plan, which was developed at the request of President 
Bush. The plan incorporates and replaces several previous plans for 
disaster management, including the Federal Response Plan, which was 
originally signed in 1992. One of the ways the plan changed the Federal 
Response Plan was by not naming charities active in disaster relief 
other than the American Red Cross, but instead incorporating them under 
the umbrella organization, National VOAD.
    The plan designates 15 Emergency Support Functions, each 
identifying a specific disaster response need as well as organizations 
that have key roles in helping meet those needs. The sixth Emergency 
Support Function, the function most relevant to charities involved in 
disaster relief, creates a working group of key federal agencies and 
charitable organizations to address:

    <bullet>  mass care, including sheltering, feeding, and emergency 
first aid;
    <bullet>  housing, both short- and long-term; and
    <bullet>  human services, such as counseling, processing of 
benefits, and identifying support for persons with special needs.

    As a direct service provider, the American Red Cross feeds and 
shelters victims of disasters. In addition to fulfilling this role, the 
American Red Cross is responsible for coordinating federal efforts to 
address mass care, housing, and human services under Emergency Support 
Function 6 with FEMA. The American Red Cross is the only charity to 
serve as a primary agency under any Emergency Support Function. The 
plan gives the American Red Cross responsibility for coordinating 
federal mass care assistance in support of state and local efforts. The 
American Red Cross also has responsibilities under other Emergency 
Support Functions, such as providing counseling services and working 
with the Federal Government to distribute ice and water. FEMA's 
responsibilities include convening regular meetings with key agencies 
and coordinating the transition of service delivery from mass care 
operations to long-term recovery activities, among other 
responsibilities.
    National VOAD, a membership organization composed of approximately 
40 charities that provide services following disasters, is designated 
as a support agency under Emergency Support Function 6, but it does not 
provide direct services to victims.\2\ Rather, National VOAD is 
responsible for sharing information with its member organizations 
regarding the severity of the disaster, needs identified, and actions 
taken to address these needs.
---------------------------------------------------------------------------
    \2\ For a list of National VOAD members, see appendix 1.
---------------------------------------------------------------------------
Following September 11, GAO Reported That More Effective Collaboration 
        Could Enhance Charities' Contributions in Disasters
    Following September 11, GAO reported several lessons learned that 
could help charities enhance their response to future disasters.\3\ 
These included easing access to aid for eligible individuals, enhancing 
coordination among charities and between charities and FEMA, increasing 
attention to public education, and planning for future events. Further, 
GAO recommended that FEMA convene a working group to encourage 
charities involved in disaster response to integrate these lessons 
learned from the September 11 attacks. Following our report, seven of 
the largest disaster response charities, in partnership with FEMA, 
formed the Coordinated Assistance Network (CAN) to ease collaboration 
and facilitate data sharing. While the network databases are still 
largely in a pilot phase, both government and charity representatives 
have praised the potential of the network's databases to improve 
collaboration.
---------------------------------------------------------------------------
    \3\ GAO, September 11: More Effective Collaboration Could Enhance 
Charitable Organizations' Contributions in Disasters, GAO-03-259 
(Washington, D.C.: Dec. 19, 2002).
---------------------------------------------------------------------------
Lessons Learned from September 11 Could Improve Charities' Response to 
        Future Disasters
    <bullet>  Easing access to aid for those eligible: We reported that 
charities could help survivors find out what assistance is available 
and ease their access to that aid through a central, easy-to-access 
clearinghouse of public and private assistance. We also suggested 
offering eligible survivors a case manager, as was done in New York 
City and in Washington, D.C., following September 11 to help to 
identify gaps in service and provide assistance over the long term.
    <bullet>  Enhancing coordination among charities and with FEMA: We 
also found that private and public agencies could improve service 
delivery by coordinating, collaborating, sharing information with each 
other, and understanding each other's roles and responsibilities. 
Collaborative working relationships are critical to the success of 
other strategies to ease access to aid or identify service gaps, such 
as creating a streamlined application process or a database of families 
of those killed and injured.
    <bullet>  Increasing attention to public education: After September 
11, we reported that charities could better educate the public about 
the disaster recovery services they provide and ensure accountability 
by more fully informing the public about how they are using donations. 
Charities could improve transparency by taking steps when collecting 
funds to more clearly specify the purposes of the funds raised, the 
different categories of people they plan to assist, the services they 
plan to provide, and how long the charity plans to provide assistance.
    <bullet>  Planning for future events: Further, we reported that 
planning for how charities will respond to future disasters could aid 
the recovery process for individuals and communities. Although each 
disaster situation is unique, it could be useful for charities to 
develop an assistance plan to inform the public and guide the 
charities' fundraising efforts. In addition, state and local emergency 
preparedness efforts could explicitly address the role of charities and 
charitable aid in future events.

Charities Formed National Network to Improve Coordination
    GAO recommended that FEMA convene a working group to encourage 
charities involved in disaster response to integrate lessons learned 
from the September 11 attacks. After our report, FEMA encouraged 
charities to form a working group to share information following 
disasters, which became the Coordinated Assistance Network. The seven 
charities that formed CAN are the Alliance of Information and Referral 
Services, the American Red Cross, National VOAD, the Salvation Army, 9/
11 United Services Group, Safe Horizon, and the United Way of America. 
The group worked in partnership with FEMA to develop a database to 
share information between agencies.
    The CAN network addressed several of the lessons learned that GAO 
identified. To ease access to aid for those eligible, the network is 
designed to share client data, such as previous addresses, employment 
information, and FEMA identification numbers, between charities. CAN is 
intended to ensure that victims need only explain their circumstances 
once, rather than repeatedly to different service providers. To enhance 
coordination among charities and with FEMA, the CAN network is designed 
to make charities more aware of the services provided by one another 
and identify any gaps or redundancies in services. Last, to plan for 
future events, the CAN network intends to build partnerships or working 
relationships among disaster response charities before disasters 
strike. While the CAN network databases are still largely in pilot 
phase, both government and charity representatives have praised the 
database's potential to improve collaboration and noted that it 
functioned well following the disasters, considering that it was not 
fully developed.

Preliminary Observations of Charitable Organizations' Operations 
        Following the Gulf Coast Hurricanes
    Following the hurricanes, charities have raised more than $2.5 
billion to assist in hurricane relief and recovery efforts. Many of the 
charities responding to the disaster have taken steps to coordinate 
with one another and with FEMA and other government agencies. For 
example, charities have shared information through daily conference 
calls and through electronic databases that allowed multiple 
organizations to access information about services provided to 
hurricane victims. Some charity representatives we spoke with praised 
the potential of these systems for sharing information, but also raised 
concerns that using these systems could be difficult at times. 
Charities also experienced problems in providing services to victims in 
some hard-to-reach areas. GAO teams that visited the Gulf Coast region 
in October 2005 observed that in areas where the American Red Cross did 
not operate, other charities, such as the Salvation Army and smaller 
charities--often local churches--provided relief services. Although 
smaller organizations helped fill the gaps in charitable services in 
the Gulf Coast region, some concerns have been raised about their 
ability to provide adequate services to victims.

Charities Have Raised More than $2.5 Billion Following the Gulf Coast 
        Hurricanes
    Charities have raised more than $2.5 billion in cash donations in 
response to the Gulf Coast hurricanes, according to the Center on 
Philanthropy at Indiana University.\4\ The center notes that this 
number is a low estimate, since it does not include direct giving to 
individuals, giving to smaller charities, or in-kind donations. As of 
November 18, the American Red Cross had raised more than $1.5 billion, 
more than half of all dollars raised. The Salvation Army raised the 
second-highest amount, $270 million, about 18 percent of the amount 
raised by the American Red Cross. The Bush-Clinton Katrina Fund and 
Catholic Charities were the next-largest fund raisers, each raising 
about $100 million.
---------------------------------------------------------------------------
    \4\ This sum is as of November 18, 2005.
---------------------------------------------------------------------------
Charities Took Steps to Improve Coordination but Experienced Some 
        Challenges
    Charities operating in the Gulf Coast region following the 
hurricanes coordinated services through the convening of major national 
disaster relief organizations at the American Red Cross headquarters, 
daily conference calls organized by National VOAD, and databases 
established by CAN. The usefulness of the daily conference calls, as 
well as the CAN databases, was questioned by some charity 
representatives.
    In the weeks following Hurricane Katrina, the American Red Cross 
organized a national operations center with representatives from FEMA 
and several major national charities, including the Southern Baptist 
Convention and the Salvation Army, at its headquarters in Washington, 
D.C. Because of the scale of the hurricane disaster and the large 
response needed, this was the first time the American Red Cross 
coordinated this type of national operations center following a 
disaster. This working group helped the major charities coordinate 
services on the ground by allowing for face-to-face interaction and 
ongoing communication, according to charity representatives and FEMA 
officials.
    To help fulfill its information-sharing role under Emergency 
Support Function 6, National VOAD organized daily conference calls with 
FEMA and other Federal Government representatives and its member 
organizations operating in the Gulf Coast region. National VOAD also 
invited nonmember charitable organizations that were providing relief 
to hurricane victims to participate in these calls, which sometimes 
included more than 40 organizations at once. During these calls, both 
the Federal Government and charities were able to provide information 
and answer questions about services provided, needs identified, and the 
organizations' abilities to meet these needs. Representatives from 
charitable organizations told us that these calls were an effective way 
to coordinate the delivery of supplies among charities and help 
identify those regions that were most in need of charitable services.
    Charities were also able to share information through CAN 
databases. Following the hurricane disasters, CAN created a Web-based 
shelter registry that provided information about emergency shelters 
operating in the Gulf Coast region, including their capacity and 
operating status. CAN also activated the database of victim 
information, which at the time was being tested in six pilot 
communities. More than 40 charities--all of whom must sign CAN 
participation agreements, including the American Red Cross, the 
Salvation Army, and the United Way of America--were able to access this 
database and input information about the services they provided to 
individual clients, according to CAN representatives. Charities could 
share information about these clients, who were required to sign 
privacy releases, through the Web-based database, thus reducing service 
duplication and the need for victims to give the same information to 
multiple organizations.
    Although charity representatives we interviewed reinforced the 
importance of the conference calls and the CAN databases, they also 
raised concerns about the usefulness of these systems. For example, 
some representatives were concerned the conference calls had too many 
participants. Because 40 or more charities might be participating in 
any one call, the calls often ran long or dealt with issues that may 
not have been of interest to the whole group, according to some charity 
officials. Additionally, charity representatives told us that call 
participants sometimes provided information that turned out to be 
inaccurate.
    Charity officials we spoke with were supportive of CAN and its 
mission, but they raised several concerns about the usefulness of its 
databases following the hurricane disasters. One concern that we heard 
from a few charities was that the CAN case management system is still 
in its developmental stages and was therefore not ready to be activated 
on such a large scale. Many volunteers had not received sufficient 
training on the system, and some of the technological glitches had not 
been completely resolved, according to charity representatives. In 
addition, representatives told us that the shelter database, which was 
developed soon after the hurricanes and had not been previously tested, 
may not have been ready for widespread use. In addition, some officials 
said that after Katrina there was neither electricity nor Internet 
access in certain locations, and as a result, the CAN databases could 
not always be used. Some officials stated that they needed to collect 
information in writing at the time of the disaster and then input the 
data into the system once they had Internet access--a task that was 
time-consuming and diverted resources from other needed areas. CAN 
officials responded that the CAN databases were created primarily for 
long-term recovery efforts, which would take place after electricity 
and Internet access were restored, rather than for short-term relief.
    Charity representatives also told us that daily conference calls 
and electronic databases helped with coordination efforts, but these 
systems were not as important to coordination efforts as pre-existing 
relationships. Several of the charities we spoke with stated that in 
order for charities to function efficiently following a disaster, they 
must have some sort of established working relationship with the other 
charities involved in disaster relief efforts. One charity 
representative told us that it is difficult to make introductions in 
the chaos of a disaster. He stressed that charities that operate in 
disasters should have memorandums of understanding signed before a 
disaster strikes--a practice used by many charities--so that they can 
immediately coordinate efforts in a disaster situation.

Charities Struggled to Balance Access to Services with Concerns 
        Regarding Safety of Service Providers and Victims
    GAO teams that visited the Gulf Coast in October 2005 observed that 
the American Red Cross did not provide relief in certain areas because 
of safety policies; and thus, other charities, such as the Salvation 
Army and smaller charities, often helped to meet the needs of those 
areas. The American Red Cross told us that with the American Society 
for Civil Engineers and FEMA, it had previously developed policies 
intended to protect the safety of service providers and victims 
following a disaster. These policies include not establishing shelters 
in areas that may become flooded during a disaster or in structures 
that strong winds may compromise. However, victims remained in areas 
where the American Red Cross would not establish shelters. Further, 
where the American Red Cross was able to establish shelters, the needs 
of victims sometimes exceeded the capacity of the American Red Cross, 
as this represented the largest response effort in American Red Cross 
history. GAO teams in Mississippi observed that the Salvation Army and 
smaller charities, such as local church organizations, filled many of 
the needs for volunteer services that the American Red Cross did not 
meet. Additionally, GAO teams estimated that in the Birmingham, 
Alabama, area, a significant portion of the approximately 7,000 
evacuees were being cared for and sometimes being housed by local 
churches and their members.
    Although smaller organizations provided needed charitable services 
in the Gulf Coast region, some concerns have been raised about the 
organizations' abilities to provide adequate services to victims. Some 
officials told us that the smaller organizations helped meet important 
needs, but many of the organizations had never operated in a disaster 
situation and may not have completely understood the situation. For 
example, officials told us that some of the small charities that placed 
children who were separated from their parents in homes did not retain 
sufficient information about which children were placed where. This 
made it difficult to locate missing children. Other officials told us 
that some of the smaller organizations that tried to establish ``tent 
cities'' to house evacuees were not prepared to provide the water, 
sanitation, and electricity these types of shelters require.
    In closing, the devastation of Hurricanes Katrina and Rita once 
again challenged federal, state, and local governments and charitable 
organizations' abilities to provide large-scale aid to hundreds of 
thousands of survivors. It also provided a critical opportunity to 
assess how the nation's charities have incorporated lessons learned 
from responding to the September 11 tragedy.
    Our report on charitable organizations' contributions after 
September 11 identified several lessons learned and made important 
recommendations for improving the delivery of charitable services after 
disasters. GAO's ongoing work on the coordination of charitable efforts 
in response to Hurricanes Katrina and Rita will examine how these 
recommendations have been implemented and how effectively charities 
coordinated in response to recent hurricanes. Specifically, this 
upcoming report will address questions regarding the amount of money 
charities have raised to assist people affected by the hurricanes and 
how these funds have been used, how well charities are meeting their 
responsibilities under the National Response Plan, how well charities 
are coordinating their relief efforts, how people affected by the 
hurricanes have accessed charitable services and relief supplies and 
the challenges they encountered in dealing with charities, and what 
charities are doing to guard against fraud and abuse. This report will 
be released next year.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions that you or other members of the subcommittee 
may have at this time.

Appendix I
    Members of National Voluntary Organizations Active in Disaster
    Adventist Community Services
    America's Second Harvest
    American Baptist Men
    American Radio Relay League
    American Red Cross
    Ananda Marga Universal Relief Team
    Catholic Charities USA
    Center for International Disaster Information
    Christian Disaster Response International
    Christian Reformed World Relief Committee
    Church of the Brethren
    Church World Service
    Convoy of Hope
    Disaster Psychiatry Outreach
    Episcopal Relief and Development
    Friends Disaster Service, Inc.
    The Humane Society of the United States
    International Aid
    International Critical Incident Stress Foundation
    International Relief Friendship Foundation
    Lutheran Disaster Response
    Mennonite Disaster Service
    Mercy Medical Airlift
    National Emergency Response Teams
    National Organization for Victim Assistance
    Nazarene Disaster Response
    Northwest Medical Teams International
    The Points of Light Foundation
    Presbyterian Church (U.S.A.)
    REACT International, Inc.
    The Salvation Army
    Society of St. Vincent de Paul
    Southern Baptist Convention
    United Church of Christ
    United Jewish Communities
    United Methodist Committee on Relief
    United Way of America
    Volunteers of America
    World Vision

                                 <F-dash>

    Chairman RAMSTAD. Thank you for your testimony and for 
making us all accountable. Mr. Becker, please.

   STATEMENT OF JOSEPH C. BECKER, SENIOR VICE PRESIDENT FOR 
         RESPONSE AND PREPAREDNESS, AMERICAN RED CROSS

    Mr. BECKER. Mr. Chairman, my name is Joe Becker, and I head 
Red Cross disaster services. I continue to lead our 
organization's response to Hurricane Katrina. I am delighted to 
be here, and I appreciate the opportunity to share with you our 
work for the survivors of the storm. The core mission of the 
American Red Cross is to provide relief to victims of 
disasters. We are volunteer-led and our services are delivered 
by volunteers. We do this through a network of 800 chapters 
throughout the country. We, like others, deal with the human 
side of disaster. To do that we partner with other nonprofit 
groups and organizations, and we partner with every level of 
government--local, State and Federal. Every day we respond to 
victims of disaster, from as small as a family whose house 
burns to as big as Katrina, and we help with the same needs.
    We shelter, which is to provide a safe place for people to 
stay during a hurricane and in the coming days after until they 
have a place to go. We feed. We feed the people in our 
shelters, and we feed in the community. We work with other 
nonprofits and faith-based groups in the larger disasters, who 
come forward to join that effort. We provide emergency 
financial assistance. We do this to provide for things like the 
next set of clothes for people who left home with very little. 
This is usually done now in the form of a debit card. We 
provide mental health counseling, and we connect families with 
loved ones who are missing. So, we shelter, we feed, and we 
provide for immediate emergency financial needs of people.
    For many years, the bar that we had set for hurricanes was 
Andrew. Then we had the four back-to-back storms last year, the 
sum of which was the largest Red Cross response ever.
    In every way of measuring, Katrina has dwarfed the sum of 
all four storms last year. We said early on in Katrina that the 
response would be bigger than the Red Cross alone--that it 
would take many Americans to respond. They did.
    We did run the shelters, as was described, about 1,100 in 
27 States and here in the District. We just closed our last 
Katrina shelter a little over a week ago. We closed our last 
Wilma shelter last night. We have fed over 50 million meals and 
snacks, and we are still feeding in the Gulf Coast at about 
50,000 meals a day.
    We knew early on that there was a need for our financial 
assistance on a totally different scale. We didn't have 73,000 
families needing financial assistance, like we did last year in 
the sum of all four of those storms; we knew early on that we 
would have over 1 million families requiring that assistance. 
We had to build entirely new ways to do that.
    We had very long lines. We had a lot of busy signals at the 
call centers that we created for the storm, but in a matter of 
weeks, we gave over 1.2 million families an average of about 
$1,000 per family.
    Last fall's storms cost our organization about $130 
million. We project that our response to these storms will cost 
us over $2 billion, and we continue to raise money to pay those 
bills.
    About 220,000 Red Crossers have served so far. They slept 
in their trucks, they slept in the shelters, and they did good 
work. They volunteered because they care.
    However, there were things that we could have done better.
    After every major disaster, we conduct a top-to-bottom 
study with a critical eye, and our board is leading this study 
now. We intend to take the lessons we learned and work to get 
better.
    In my written testimony, I outlined some of our early areas 
of focus from the study. The response was bigger than the Red 
Cross. So, many organizations joined the effort, many new to 
the disaster work. We have a lot to be proud of, we have a lot 
to be thankful for, and we still have a lot to do.
    Thank you for allowing me to share with you today.
    [The prepared statement of Mr. Becker follows:]

Statement of Joseph C. Becker, Senior Vice President, Preparedness and 
                      Response, American Red Cross

    Chairman Ramstad, Congressman Lewis, and Members of the Committees, 
thank you for providing me the opportunity to provide testimony on 
behalf of the American Red Cross.
    By any measure, this was the most significant level of human need 
the Red Cross has ever faced in its 125-year history, and it was our 
most challenging operation, too. The organization's capacity to meet 
the needs of our citizens has never been tested in a magnitude such as 
that presented by Hurricane Katrina. In fact, it was nearly 20 times 
larger than anything we had ever faced before.
    I thank the Committee for holding this hearing today to address the 
ways the nonprofit sector responded to Hurricane Katrina. After each 
major disaster response is concluded, the American Red Cross carefully 
examines its response retroactively to determine what worked well. More 
importantly, we always try to identify areas where we could improve our 
response and operation in the future.
    There is much to be learned from this disaster--lessons that will 
help us improve our response to future disasters. However, I would like 
to state up front that given the remarkable demands that we faced, the 
entire nonprofit sector, supported by the incredible generosity of the 
American public, rose to the occasion and provided care and comfort to 
millions of people who had no place to turn. As the person responsible 
for directing the response on behalf of the Red Cross, I am extremely 
grateful to our sister organizations including the Salvation Army, the 
United Way, the Southern Baptists, Catholic Charities, the NAACP, the 
American Psychological Association, and myriad other voluntary 
agencies, large and small. The American public and our corporate donors 
were an integral element of our response, along with the more than 
200,000 Red Cross volunteers who have given their time and talent so 
tirelessly. We could not do the work that we perform without all of 
this support and the support of Congress, and it is with my gratitude 
that I present this testimony before the Committee today.

About the American Red Cross
    For more than 124 years, the mission of the American Red Cross has 
been to help Americans prevent, prepare for, and respond to 
emergencies. In 1905, Congress chartered the American Red Cross to 
provide a system of disaster response and to mitigate suffering caused 
by disaster. We continue to meet this mandate today. We have a long and 
proven track record of immediate response to major disasters, both 
natural and man made. In towns and cities across the United States, the 
American Red Cross has responded to more than 72,000 disasters in the 
past year, ranging from residential house fires to the devastating 
hurricanes that struck the Gulf Coast. At the same time, the Red Cross 
continues to aggressively prepare for the possibility of another 
terrorist attack on American soil, the threat of a pandemic flu and, of 
course, we share the unenviable task faced by all disaster response 
organizations of standing prepared to respond to novel and unexpected 
disasters that we may have never seen or imagined until the moment they 
strike.
    Governed by volunteers and supported by community donations, the 
Red Cross is a network of more than 800 chapters, eight regional 
service areas, and 35 Blood Services regions dedicated to saving lives. 
Comprising more than one million volunteers and more than 30,000 
employees, the Red Cross trained nearly 11 million people in lifesaving 
skills during the past calendar year alone and keeps U.S. military 
families connected worldwide. The Red Cross is the largest supplier of 
blood and blood products to more than 3,000 hospitals across the nation 
and also assists victims of international disasters and conflicts at 
locations worldwide.
    The Red Cross provides a unique community-based network to support 
all-hazard preparedness in your districts, to your constituents, each 
and every day. As an integral member of the first response community 
with expertise in meeting the human needs associated with disasters, we 
are integrated into state and local government agency disaster planning 
exercises and response efforts. We partner with local, state, and 
federal governments to provide emergency shelter, food, and health and 
mental health services as well as short-term financial assistance to 
address basic human needs.
    In addition, the Red Cross has the unique role of being the only 
nongovernmental organization assigned Primary Agency responsibilities 
under the National Response Plan (NRP). Upon activation of the NRP, the 
Red Cross serves as the Primary Agency under Emergency Support Function 
(ESF) #6, Mass Care (provision of food, shelter, emergency first aid, 
disaster welfare information, and bulk distribution of emergency relief 
items). The Red Cross also serves as a Support Agency to the Department 
of Health and Human Services for Public Health and Medical Services 
(ESF #8), providing blood in coordination with the American Association 
of Blood Banks (AABB) Inter-organizational Task Force on Domestic 
Disasters and Acts of Terrorism, mental health services, and disaster 
health services. In addition, we have undertaken an expanded function 
under the NRP within external affairs (ESF #15) to help disseminate 
accurate and timely information to those affected during an incident to 
help better protect themselves. Ultimately, our activities in the NRP 
focus on meeting the human needs associated with disasters.

Response to Hurricane Katrina
    For the American Red Cross, and for the country, Hurricane Katrina 
is a watershed moment in our history. Hurricane Katrina produced human 
needs exceeding those presented by all previous natural disasters in 
this country, including the Johnstown Flood in 1882, the San Francisco 
Earthquake in 1906, the Spanish Flu epidemic in 1918, Hurricanes 
Camille and Andrew, or manmade events such as the Oklahoma City 
Bombings in 1995 and the tragedy of September 11, 2001. The needs 
created by Hurricane Katrina exceeded even those posed by the four 
back-to-back hurricanes last year. Each of these are major incidents 
that tested the organization and served as a benchmark moving forward. 
Now, Katrina will do the same.
    The moment the levees gave way in New Orleans, we knew that this 
response and recovery operation would test our capacity as an 
organization. Yet even as the waters rose and more people fled, none of 
us could have envisioned the sheer scale of the catastrophe.
    In order for me to put this in perspective, I want to spend just a 
moment looking back on Hurricane Season 2004. The State of Florida was 
slammed with four back-to-back hurricanes. To date, it had been our 
largest response to a natural disaster. We provided 519,000 shelter 
nights, gave approximately 73,000 families financial assistance, and 
provided close to 16.5 million meals and snacks to victims and 
emergency workers. In the end, the organization spent roughly $130 
million.
    Yet, all this pales in comparison to our response efforts for 
Katrina and Rita. In response to these two storms, the Red Cross has 
provided 3.42 million overnight stays in nearly 1,100 shelters across 
27 states and the District of Columbia. We have given more than 1.2 
million families emergency financial assistance. The Red Cross, in 
coordination with the Southern Baptist Convention, has served more than 
27.4 million hot meals and 25.2 million snacks to hurricane survivors 
to date. The Red Cross will spend in excess of $2 billion in our 
response to Hurricanes Katrina and Rita.
    But while the challenges were immense, and the circumstances were 
difficult, the Red Cross persisted, and continues to persist, because 
of our tireless volunteers. Almost 220,000 trained Red Cross disaster 
services workers from all 50 states, the District of Columbia, Puerto 
Rico and the Virgin Islands have given their talents and time to 
respond to those in need because of Hurricanes Katrina and Rita. This 
may be the largest mobilization of Americans helping each other in our 
nation's history. It is because of their selfless work that we have 
managed to do the work that we do.
    Even before Hurricane Katrina made landfall, the American Red Cross 
was preparing for what proved to be the costliest storm in U.S. 
history. In addition to strongly urging coastal residents to take 
action by developing a family communication plan, making plans to 
evacuate, and preparing a disaster supply kit, the American Red Cross 
was also launching our largest mobilization effort in the 
organization's 124-year history.
    The American Red Cross mobilized on all fronts and moved before the 
storm hit. Local Red Cross chapters opened shelters for thousands of 
residents who heeded evacuation orders. Thousands of Red Cross staff 
and volunteers were pre-deployed to safe areas, waiting for the storm 
to pass so they could begin to respond to the needs following the 
threat. In addition, nearly the entire Red Cross fleet of emergency 
response vehicles (ERVs) was sent to the Gulf Coast before and just 
after landfall. We also pre-positioned mobile kitchens prepared to 
provide 500,000 meals a day, food and supplies, and necessary 
technology, and we rented 1,000 box trucks to feed and deliver supplies 
in communities. We knew this was going to be big.
    We set up shelters in Louisiana and surrounding states. As those 
affected were evacuated or fled to virtually every state, we mobilized 
our entire organization and extended our services across the nation. 
From California to Maine, our chapters sheltered, fed, counseled, and 
assisted the tens of thousands of evacuees relocated to distant places 
and worked with local communities to welcome them and meet their needs.
    And while we faced a number of challenges, our basic services were 
solid. As soon as the storm passed, we began to set up our feeding 
kitchens, opened additional shelters, and started to increase the 
services to provide immediate care for the survivors of Hurricane 
Katrina. With our partners, the Southern Baptists, we served 300,000 
meals on the third day of the response and peaked at 995,000 meals in a 
single day. The largest number of meals we had ever provided in a 
single day prior to this was 280,000, which was in response to the four 
hurricanes last year.

Partnerships
    With 824 chapters nationwide, the Red Cross has an infrastructure 
that allows us to respond quickly to disasters. Similar to former House 
Speaker Tip O'Neill's observation of politics, all disasters are local. 
It is at the community level that victims are sheltered, fed, provided 
with mental health counseling, and offered emergency financial 
assistance. However, even in small-scale disasters such as residential 
house fires, the American Red Cross does not respond alone. 
Partnerships are tantamount to our meeting our mission, and in chapters 
across the country, local partnerships help to ensure that those in 
need receive assistance.
    The importance of partnerships in disaster response cannot be 
overstated. Because of the scale and magnitude of this disaster, the 
American Red Cross early on called on all of its partners to provide 
assistance to those in need. The response to Hurricanes Katrina, Rita, 
and Wilma required collaboration at every level of government, and full 
engagement of the entire charitable sector, the faith community, and 
the American public.
    There has never been a response that has required as much 
coordination among the nonprofit sector. From the start, the Red Cross 
coordinated efforts with other nongovernmental organizations at all 
levels. At our National Headquarters, a group of national service 
providers worked together for days to plan service delivery strategy. 
Red Crossers were busy in county and state emergency operations centers 
working with our partner organizations to coordinate response, 
logistics, resources, and staff. And on the ground, our chapters had 
partnerships in place to ensure that the local communities were 
responding in a collaborative manner.
    We also partnered around fundraising activities. We knew this 
response was going to involve the entire charitable sector, including 
the faith community. While the Red Cross does not provide direct 
funding to other charities, we wanted to do our part to ensure that 
their messages were received as well. For example, during the first 
week in October, representatives from the Salvation Army and the United 
Way joined us for a day-long donor trip in Gulfport and Biloxi led by 
our Red Cross Chairman, Bonnie McElveen-Hunter. Also participating were 
representatives from several major foundations, some of whom had 
requested an opportunity to meet with our nonprofit partners.
    One of the significant lessons learned is that partnerships are 
much more effective when formed well in advance of a disaster. Because 
of the enormity of the crisis and speed required in response, it is 
difficult for organizations new to the response environment to be 
quickly assimilated into county or parish planning and operations in 
the midst of responding to a disaster. The Red Cross has a number of 
agreements in place with other organizations that delineate roles and 
responsibilities when disaster strikes. During Hurricane Katrina, those 
partnerships worked and worked well. And while we have received some 
criticism from other NGOs for not coordinating with their organizations 
after Katrina made landfall, we seek out their partnership going 
forward. We are grateful for the work that all organizations did to 
respond to the millions of people in need, and that is why we 
recommended that the Federal government provide reimbursement to groups 
that stepped forward to provide sheltering and feeding operations. 
There is no ownership here--local charities and the faith community 
performed vital and necessary work during this disaster.

Diverse Communities
    The American Red Cross historically deals with the most vulnerable 
citizens in our society. Issues of poverty, race, physical and mental 
disability, and cultural differences are not new to our organization. 
It is an unfortunate fact that in our society, disasters have the most 
profound impact on the most vulnerable residents in communities.
    In an effort to learn how we can serve more effectively, we have 
already undergone some evaluation regarding coordination and 
partnerships, particularly among organizations that represent 
communities of color and the disabled. While we have made tremendous 
efforts to reach out to minority and disabled communities for 
volunteers, staff, and donors, we are acutely aware that there is much 
work to be done.
    Congressional Black Caucus Chairman Mel Watt and other Members of 
the CBC were among the first group of lawmakers we met with following 
Katrina's landfall. We have worked with the Caucus in the past and knew 
how important they would be in keeping vital lines of communication 
open and guiding us as issues and challenges arose. The weekend 
following landfall, our President and CEO, Marty Evans, and Board of 
Governors member Gina Adams hosted a trip to Baton Rouge and Houston 
for Members of the Caucus to begin to challenge difficult issues. Our 
partnership with the CBC proved instrumental in easing tensions and 
addressing needs, and we thank them for their work and leadership 
through the entire response. We are also grateful to Reverend Jesse 
Jackson for his help in coordinating with the faith community. We met 
with Reverend Jackson, CBC leadership, and leaders in the faith 
community in Memphis to better coordinate efforts. Additionally, 
Congresswoman Sheila Jackson Lee was of tremendous help in coordinating 
sheltering efforts in Houston, where an estimated 250,000 hurricane 
survivors and evacuees were relocated.

Challenges and Criticisms
    Hurricane Katrina was a disaster of epic proportions and posed 
unprecedented challenges. The affected area compares to the size of 
Great Britain, devastating the lives of among the most vulnerable 
people in America. Not only were there geographical challenges, there 
were severe socio-economic challenges. In so many circumstances, we 
were providing care for those who needed assistance even before they 
were affected by Katrina.
    Although American Red Cross services were available throughout the 
affected area on an enormous scale, we fell short of being universally 
present everywhere there was a need. Nevertheless, we moved as rapidly 
as possible to provide services in those areas that we could not 
immediately reach or, in some cases, were unaware of.
    We knew this was not going to be a traditional response. During 
traditional responses, the American Red Cross provides direct services, 
often door-to-door, to disaster victims. Red Crossers are among the 
first on the scene, providing shelter, meals, and helping local victims 
that cannot be reached by their loved ones. Yet this storm, and the 
response to it, was not traditional.
    Given the number of people in need, our response was geared toward 
places that we knew we could get to immediately and places where we 
knew people were congregated. It was our goal to reach the greatest 
number of people with the most possible speed. Throughout this process, 
Red Crossers endeavored to work with local community-based 
organizations and faith based groups to reach the most people.
    One of the hard truths about Katrina is that our country was not 
prepared. Of equal concern moving forward is that even with the 
devastation wrought by Katrina, a recent report released by Professor 
Paul C. Light of New York University indicates that Americans still do 
not feel compelled to prepare for disaster. This is a vexing challenge 
for those of us in disaster services.
    While there were many successful partnerships, there were also 
significant voids that needed to be filled. A large number of 
spontaneous shelters sprang up. Most were churches that opened their 
doors to provide shelter for those in need. Early on, we had difficulty 
learning of and coordinating efforts with these wonderful groups.
    There were a number of questions regarding why we did not re-enter 
the City of New Orleans. The American Red Cross of Southeast Louisiana, 
located in the City of New Orleans, heeded the evacuation order called 
for by local authorities. The chapter relocated to the town of 
Covington, located on the north side of Lake Pontchartrain. Our service 
delivery in New Orleans differed from that provided to other affected 
areas in Alabama, Louisiana, and Mississippi. Under the Louisiana State 
Plan, if a Category 3 or higher storm is headed for Louisiana, 23 
parishes, including Orleans Parish, are to begin an evacuation inland. 
The inland parishes, in cooperation with state agencies and the 
American Red Cross, are to shelter evacuees from ``Risk Area 
Parishes,'' as there are no shelter sites that meet hurricane safety 
criteria within Orleans Parish. In fact, it has been the policy of the 
Red Cross that there are no safe areas south of the I-10/I-12 corridor 
for a large scale hurricane. The Louisiana Plan, which makes no 
reference to the Red Cross operating shelters within the city, 
enumerates eight distinct shelter types, plus what is described as the 
``Refuge of Last Resort.'' The Convention Center and the Superdome 
served as refuges of last resort. Under state plans, these facilities 
are to open when local authorities terminate an evacuation due to 
unsafe driving conditions. These facilities are not operated by the Red 
Cross. In practice, after the threat has passed, the Red Cross at times 
staffs shelters of last resort, providing services to people. We do not 
establish shelters in facilities that do not meet our criteria for 
safety during landfall.
    Consistent with state and local plans, and our practice in previous 
disasters, we were asked by state and federal officials not to enter 
New Orleans. While we were in constant communication with local and 
state authorities, it was not deemed safe for Red Cross personnel to 
re-enter the city of New Orleans. The Red Cross does not place our 
client evacuees, staff, volunteers, or resources in harm's way. It is 
our practice to heed evacuation orders and assist those in need of 
shelter outside of high-risk areas.
    Additionally, it was the goal of local and state officials to fully 
evacuate the city of New Orleans after the storm passed. We were 
instructed by authorities that, in addition to issues of safety, if the 
Red Cross provided services to survivors within New Orleans, it would 
discourage people from heeding evacuation orders. At the direction of 
public officials, we entered New Orleans in a coordinated fashion to 
provide services at the earliest possible time.
    This was a difficult scenario for the Red Cross. Eighty percent of 
our local Red Cross staff in the Southeast Louisiana Chapter lost their 
homes to Katrina, yet while they themselves were victims, they 
desperately wanted to provide support to their neighbors in need, and 
to this day they continue to do so. We are still engaged in active 
operations in the city.
    Another Herculean challenge was getting financial assistance as 
quickly as possible to an unprecedented number of people who left their 
homes with little or nothing and in many cases would have no homes to 
which they could return. As stated previously, the largest number of 
families to which the Red Cross had ever provided assistance was 
approximately 73,000--those served during the four back-to-back 
hurricanes in 2004. By contrast, demographic and census information 
from the area affected by Katrina led us to estimate that more than one 
million families, most of whom were bereft of all of their traditional 
social support systems, would need financial assistance.
    The challenge of raising enough money to provide assistance to an 
estimated one million families was, frankly, daunting. Initial disaster 
assessments and demographic information led us to estimate that, with 
average assistance of about $1,000 per family, we were facing financial 
assistance expenses of approximately $1 billion. We had to make the 
difficult determination whether we would--or could--provide this 
magnitude of financial assistance. Red Cross leadership, together with 
our Board of Governors, rapidly decided that the tremendous needs of 
the evacuees demanded that we act. Soon, it became clear that dollars 
were going out at a fast rate. We had to either suspend our emergency 
financial assistance or borrow funds. We chose to borrow the money--
over $300 million--with the confidence that the American public would 
see our efforts as worthy and support the work we were doing. This has 
proven to be the case.
    The mechanisms for getting the financial assistance to the people 
who needed it without delay posed an additional set of challenges. 
During traditional responses, trained American Red Cross volunteers and 
staff, conduct disaster damage assessments, meet with survivors to 
determine their needs and provide assistance accordingly. We often do 
home visits to confirm damage and determine necessary assistance. This 
type of detailed assessment would clearly be impossible for many months 
after Katrina and Rita. We had to choose between two options: we could 
attempt to verify damage house by house and thereby delay assistance to 
those who so urgently needed it, or we could utilize the best 
information available regarding damaged areas and speed the provision 
of our assistance. By choosing the latter option, we knew that we ran 
the risk of putting assistance in the hands of potentially unscrupulous 
individuals not affected by the hurricanes; we concluded that it was a 
reasonable business risk and mitigated the risks as possible. We 
considered the need to help the vast numbers of families in desperate 
and legitimate need without delay. Using satellite images and fly-over 
photographs, we determined specific ZIP codes where the devastation was 
obvious and began to disburse the maximum assistance to these families 
based on family size. It was our goal to get money in the hands of 
survivors as quickly as possible. The fact that fraudulent claims for 
assistance could occur was to be addressed with an aggressive ``no 
tolerance'' fraud enforcement policy which we discussed with federal 
and state law enforcement authorities.
    Another hurdle was the logistics of getting cash into the hands of 
so many people spread across so many states. Methods used in the past 
would not accommodate the unique aspects of this epic disaster. We set 
up an 800 number and call centers around the country and partnered with 
Western Union to provide immediate cash assistance. A critical moment 
came when we realized that it could take days and weeks to bring these 
systems up to a scale that could accommodate the number of families in 
need of assistance. That left us with another difficult choice: delay 
assistance to every disaster victim until we had the capacity to 
effectively serve them all, or proceed with the capacity we had, 
getting funds into the hands of thousands of families right away and 
working diligently to add to those numbers as quickly as we could scale 
up our systems. We chose to help those whom we could without delay, 
while striving to serve all who needed us. We sincerely regret that 
there were long lines and a lot of busy signals, but we believe that we 
made the right choice. In the six weeks following landfall, the Red 
Cross put over one billion donated dollars into the hands of families 
who desperately needed it without delay.

Lessons Learned
    Hurricane Katrina's raging winds and engulfing waters laid bare 
some hard truths. It is now a question of whether the American Red 
Cross, others in our sector, governments at all levels, and the 
American people will confront those truths and learn from them. Now, in 
the cold light of day and with a calmer atmosphere, we have a clearer 
picture of the impact of such an event on our society, the challenges 
inherent in a disaster of this magnitude, and the scope of need we must 
address. Over the course of the next several months we will continue 
our own top-to-bottom internal review of our practices and our response 
to Katrina, and we will continue to build upon our lessons learned. 
However, I want to share with you some big-picture items that are front 
and center.
    First, we need to convene community leaders to expand our reach to 
respond where needed. Despite tremendous efforts by all, the scale of 
this disaster left our response uneven in some places. To ensure more 
effective efforts in the future will require the input and assistance 
of all organizations locally in communities across the nation now. It 
will require the diligence of all community stakeholders, including 
nonprofits, faith-based groups, elected officials, diverse 
organizations, and individuals to partake in a full assessment of 
community needs to ensure that every person in every community will be 
provided for should we confront a disaster like this again.
    Second, preparedness--training, planning, and drilling--must become 
a way of life for every man, woman and child in this country. For 
communities, particularly those prone to disaster, training operations 
must take place and, particularly when there is a need, the government 
must provide adequate funding to ensure that such training and planning 
operations can be realized.
    Third, we must also dedicate our attention to some larger public 
policy questions. For example, how much should we in the nonprofit 
sector--and the government--invest in our infrastructure to be ready to 
respond to the next catastrophic event when current funds are barely 
adequate for ongoing needs? How much money should we invest on an 
annual basis in a core capacity that we may not use for 10 or 15 or 20 
years? Systems must be maintained and upgraded over time, and there is 
a cost for contingent capacity that is not used on a day-to-day basis. 
How much of this cost can nonprofits bear? Will donors understand that 
a return on this kind of investment might not be seen for years? Even 
if they do, how much of this should fall on the backs of the American 
people who support our response efforts?
    Finally, there is the biggest challenge of all: preparedness. If we 
in America ever thought we were prepared to face a major catastrophic 
event, we were wrong. We have been operating under the assumption that 
what we have done in the past--how we respond to smaller disasters--
would simply need to be scaled up if we faced a larger one. This is 
simply not the case.
    We need to do a better job engaging our nation's citizens in 
preparing for disasters big and small. And this is no small feat. As we 
look back on Hurricane Katrina, I hope that we will do a better job of 
ensuring that those who live in harm's way of disasters will better 
prepare their families, individually, for what may come their way. We 
need to focus our attention on all-hazards preparedness. There are 
simple steps that every family can take to be safer and to ensure that 
if separated from their loved ones, they can reconnect. We need to 
convince every individual and family to make the effort to keep 
critical documents, medicines, and items they would need immediately in 
an emergency ready, keeping in mind that, unlike Hurricane Katrina, 
disasters often provide no warning at all. The American Red Cross has a 
``Together We Prepare'' program that calls for families, schools, or 
businesses to do five things: (1) Make a Plan, (2) Build a Kit, (3) Get 
Trained, (4) Volunteer, and (5) Give Blood.
    Hurricanes Katrina and Rita are replete with stories of families 
trapped in attics who survived unimaginably harrowing ordeals because 
they had water or items on hand. But for each success story, there are 
also cases where families experienced trauma and loss. In many 
instances, the very fate of those separated from loved ones was 
completely unknown. With the existence of a simple emergency 
communication plan identifying a third party in a remote location for 
all members to call, the needless anxiety of knowing where their loved 
ones are could have been avoided by many who experienced this 
unspeakable anxiety. Preparedness plans work.

Conclusion
    I started my presentation today by talking about the tremendous 
work of the nonprofit sector, our organization, and our staff and 
volunteers in response to Hurricane Katrina, and I would like to 
conclude my testimony along those lines as well.
    The devastation caused by Hurricane Katrina was worse than any 
worst-case scenario the Red Cross, or the Federal government, ever 
prepared for. How can the Red Cross, or any organization, respond 
successfully on a scale that is at least 20 times greater than it ever 
faced before?
     I think the answer can be found in the compassion, generosity, and 
commitment of the American people. This is the one consistent resource 
upon which our organization relies, and the one that enables us to rise 
to the challenge when needed.
    Our mission is to help people--people who find themselves on the 
receiving end of nature's most indiscriminate and violent furies along 
with those impacted by the cruel and calculated actions of terrorists. 
Then there are the people who volunteer at the more than 800 Red Cross 
chapters across the country, those who give generously of their time, 
talents, blood, and money--including the 200,000 volunteers who put 
their own lives on hold for weeks this year to help the victims of the 
unusually severe hurricanes we have endured. There are the American 
people who time after time, disaster after disaster, sacrifice part of 
their financial security to provide for those who have lost their own.
    At the end of the day, the Red Cross and other charitable 
organizations, together with the tireless volunteers and donors who 
support these organizations, responded to the needs of their neighbors 
in never-before-seen ways. There were challenges, and there are voids 
that need to be filled and problems that need to be fixed. But the 
compassion and humanity shown by Americans around this country to open 
their arms and provide comfort to those in need is unparalleled.
    Mr. Chairman, Mr. Lewis, Members of the Committee, I am proud of 
the work of the American Red Cross--I am proud of the way Americans 
came to the aid of their neighbors in need. And while Katrina will go 
down as the largest natural disaster to hit our American soil to date, 
she could not break the will and compassion of the American public.
    Thank you again for providing me the opportunity to testify today. 
I would be happy to answer any questions you may have.

                                 <F-dash>

    Chairman RAMSTAD. Thank you, Mr. Becker. Major Hawks, 
please.

  STATEMENT OF MAJOR TODD HAWKS, PUBLIC AFFAIRS SECRETARY AND 
    ASSOCIATE NATIONAL COMMUNITY RELATIONS AND DEVELOPMENT 
              SECRETARY, SALVATION ARMY OF AMERICA

    Major HAWKS. Mr. Chairman, the Salvation Army is a part of 
the Universal Christian Church. Our mission, our fundamental 
purpose is to provide aid and comfort without discrimination to 
those in need. Services are delivered by 3,600 uniformed 
officers, 132,000 soldiers and adherents, 65,000 employees, and 
by about 3.5 million volunteers.
    Our workers have a firsthand knowledge of their individual 
communities, and they are on site when a disaster strikes. We 
have a decentralized infrastructure that allows us to respond 
to a disaster very quickly and on a large scale. In essence, 
the Salvation Army operations are driven at the local level and 
communicated upward. Indeed, the role of the national 
headquarters is to support local effort.
    Our disaster response services are a small part of our 
work. Each day of the year we are serving the poor, the hungry 
and the homeless, and the forgotten, people's lives who are in 
profound crisis. Our primary objective is to give people hope.
    The Salvation Army has been at the site of every major 
disaster in America for more than a century, and we have 
developed the following areas of expertise: mass feeding to 
survivors and emergency responders, sheltering survivors while 
attending to their emergency needs, providing social service 
assistance, both immediate and long term. Knowing that no 
single charitable organization is capable of providing the full 
range of disaster response services, the Salvation Army has 
entered into memorandums of understanding with both faith-based 
and secular organizations, including FEMA and the American Red 
Cross.
    Despite our sizable footprint, established role in 
responding to disasters, and the history of collaborating with 
other organizations, the Salvation Army is not mentioned in the 
National Response Plan. We are concerned about that. Since we 
are not mentioned in the plan, we may be precluded from having 
access to key local, State, and Federal officials.
    In Louisiana, for example, the Army was represented by an 
interagency volunteer and wasn't permitted to have a liaison 
officer in the State's Emergency Operation Center. As a result, 
we had to obtain critical information secondhand. In the 
immediate aftermath of Katrina, we were and still are focused 
on providing life-sustaining commodities. Within hours after 
the storm had passed, we moved 72 mobile feeding units into the 
affected areas. In some areas, we presented the first 
opportunities for survivors to obtain water and food.
    To date, the Army has deployed 178 mobile feeding units and 
served more than 12 million meals and snacks to survivors and 
first responders. We have also distributed more than 150 
cleaning kits, hygiene kits, and almost 200,000 boxes of 
groceries. Because of the overwhelming need, the Army opened 
225 shelters that house more than 31,000 people. As always, the 
Salvation Army provides emotional and spiritual comfort to 
disaster survivors and emergency workers.
    At some point the nature of our services will change from 
the immediate life-sustaining service to long-term recovery 
services. The Army employs case management to help people get 
their lives back to normal. We sit down with each family and we 
determine the social services they need. Some of these clients 
are referred by other organizations because they present 
particularly challenging problems and the Army is well equipped 
to help the most disenfranchised members of our society. At 
this time we are assisting more than 269,000 people through 
case management.
    The Salvation Army is also involved in the reconstruction 
of communities. Typically, we act in partnership with other 
organizations to achieve our reconstruction goals. For example, 
Biloxi, the Salvation Army is building a volunteer village for 
reconstruction teams.
    I want to make one final point about disaster services 
provided by the Army. We do not come into a community, help out 
for a few weeks, and then leave. We don't make exit plans 
because we live in those communities. Our presence is 
permanent. If Congress is inclined to make changes in the 
Federal Government's disaster response protocols, then the 
Salvation Army has identified four items for your 
consideration.
    First, the Salvation Army should be explicitly mentioned in 
the National Response Plan as a support agency.
    Secondly, if the Federal Government is going to rely upon 
NGOs to deliver disaster services, then standardized training 
is needed, especially for new entrants in the disaster services 
field. All NGOs must understand the government's emergency 
management systems and the language of those systems.
    Thirdly, people and corporations send unwanted items to 
disaster sites. Their motivation is laudable, but the arrival 
of unsolicited, in kind contributions is problematic. The 
Federal Government could help to channel the generosity of the 
American people through public education.
    Finally, any government policy that makes it more difficult 
for potential donors to contribute will impact our ability to 
deliver services. Therefore, we ask Congress to make it as easy 
as possible for donors to contribute to charitable 
organizations.
    Mr. Chairman, this concludes my testimony. I look forward 
to answering your questions.
    [The prepared statement of Major Hawks follows:]

 Statement of Major Todd Hawks, Public Affairs Secretary and Associate 
National Community Relations and Development Secretary, Salvation Army 
                               of America

    Good afternoon, Mr. Chairman.
The Salvation Army
    Mr. Chairman, The Salvation Army is a part of the Universal 
Christian Church. Our mission--our fundamental purpose--is to provide 
aid and comfort, without discrimination, to those in need.
    We are active across the country. Indeed, the Army has a presence 
in nearly every zipcode in the United States.
    Services are delivered by 3,600 uniformed officers, 132,000 
soldiers and adherents, 65,000 employees, and by the three-and-a-half 
million Americans who volunteer their time, energy, and compassion to 
those in need.
    More importantly, our people live and work in the communities that 
they serve. This is an important point when discussing The Salvation 
Army's disaster response activities, and I'd like to elaborate on it 
for a moment.
    Our officers, staff and volunteers have first-hand knowledge of 
their individual communities and they are on-site when a disaster 
strikes. Not only does the Army have people spread out across the 
country, we have buildings and equipment in those communities too. In 
short, Mr. Chairman, we have a decentralized infrastructure, and that 
decentralized infrastructure is the single most important factor in our 
ability to respond to a disaster very quickly and on a large scale.
    Given this organizational structure, it isn't surprising that The 
Salvation Army's operations are driven at the local level and 
communicated upward. We don't mobilize through directives issued at the 
National Headquarters. Indeed, the job of the National Headquarters is 
to make resources and contacts available to the local level.
    Despite today's focus on the Army's disaster response efforts, it 
should be noted that our disaster response services are a small part of 
our work. Each and every day of the year, we are serving the poor, the 
hungry, the homeless, the forgotten--people whose lives generally are 
in profound crisis. Our primary objective is to give people hope where 
all may seem lost. Last year, we delivered hope to some 34 million 
Americans through our core social services that include programs 
providing help to the drug addicted, the homeless, abused women, low 
income seniors and at-risk youth. Most of this work is performed beyond 
the spotlight of television cameras.
    Of course, we are also moved, by our faith, to provide for those 
who have been stripped of shelter and sustenance by a disaster. I would 
stress that these are ancillary services and the numbers bear out that 
fact. In comparison to the 34 million Americans who received help from 
our core social services programs last year, we assisted 4 million 
disaster victims during that time.
    Role in Disaster Response: The Salvation Army has been at the site 
of every major natural disaster in America for more than a century, and 
we have developed the following areas of expertise in disaster 
response:

    <bullet>  Mass feeding to survivors and emergency responders 
immediately after the disaster has occurred;
    <bullet>  Sheltering those affected while we tend to their 
spiritual and emotional needs in the immediate aftermath of the 
disaster; and then,
    <bullet>  The continuation of social service assistance to ensure 
that the survivors have the means necessary to move back into some 
semblance of the routine they knew before disaster struck.

    As you are well aware, The Salvation Army was not the only 
charitable organization to respond when Hurricane Katrina struck. This 
is not an unusual situation; there are several charitable 
organizations, including The Salvation Army, that routinely provide 
assistance to disaster victims. Each of these organizations is known 
among the disaster response community for having a particular set of 
skills or assets to bring to bear on a particular disaster.
    Let me be clear on this point: I do not know of any single 
charitable organization that, on its own, is capable of providing the 
full range of disaster response services that are usually required to 
put communities back on their feet. As a result, charitable 
organizations routinely coordinate their activities with one another as 
well as with official government emergency management agencies. The 
Salvation Army, for example, has entered into Memorandums of 
Understanding with both secular and faith-based organizations, 
including FEMA, the American Red Cross, and several other groups.
    Role in the National Response Plan: Despite our sizable footprint, 
established role in responding to disasters, and history of 
collaborating with other organizations, The Salvation Army is not 
mentioned in the National Response Plan. Omitting the Army at the 
national level has implications for disaster response coordination at 
the state and local levels.
    Many states and municipalities have tailored their emergency 
response plans after the National Response Plan, and because the Army 
was left out of the federal plan we now find that we are often without 
a seat at the table at the state and local level during disasters. In 
Louisiana, for example, the Army wasn't permitted to have a liaison 
officer in the state's Emergency Operations Center (EOC).
    As a result, we had to obtain critical information second-hand 
through Voluntary Organizations Active in a Disaster (VOAD)--if we 
received the information at all. This is an untenable situation. In 
order to deliver our disaster services effectively and efficiently, our 
local partner must always be the emergency management personnel, and 
that means inclusion in their disaster response plans.
    Another implication of the Army's lack of a seat in the EOC is that 
we did not have an opportunity to forge relationships with the other 
organizations present--relationships that might have produced a 
partnership to deliver disaster services more efficiently, 
expeditiously, or on a larger scale.
    With this general portrait of The Salvation Army in mind, I'd like 
to move on to review the specific services we offer in times of 
disaster.

Being Prepared
    Some disasters occur without any warning. We prepare for such 
disasters by educating and training our response personnel.
    First and foremost, we train under the Incident Command System. 
This is a management system designed specifically to help first 
responders manage a critical incident. We've adopted this system.
    In addition, the Army has entered into a Memorandum of 
Understanding with the International Critical Incident Stress 
Foundation, which is the leading trainer for first responders in stress 
management. The Foundation teaches relief workers how to help survivors 
deal with stress and how to manage their own stress while working in a 
disaster site.
    These two programs are the keystones of our training.
    In addition, The Salvation Army conducts additional disaster 
response training for our own staffs as well as those from other 
organizations. Earlier this year, for example, The Salvation Army 
conducted a week-long training conference for nonprofit organizations 
in which 750 people received training to prepare their organizations 
and communities to respond to a man-made or natural disaster.
    Sometimes we have an opportunity to make additional preparations. 
Weather events such as hurricanes typically give disaster response 
organizations a few days to prepare, and that is just what we do. In 
the case of Hurricane Katrina, we staged personnel and equipment in the 
states adjacent to the primary strike zone. Specifically, we:

    <bullet>  Loaded meals on 72 mobile canteens, each capable of 
providing 5,000 hot meals per day, and two 54-foot mobile kitchens, 
each capable of providing 20,000 hot meals per day. We intended to 
dispatch these mobile feeding units into those geographic areas 
determined by FEMA to be the hardest hit, and to dispatch additional 
units as needed.
    <bullet>  Mobilized 200 officers, employees, and volunteers to man 
these mobile kitchens.
    <bullet>  Prepared to dispatch portable shower units, trucks 
transformed into 1-stop shops called comfort stations, and emergency 
response command stations for officers to direct the response efforts.

Delivering Life-Sustaining Commodities
    In the immediate aftermath of Katrina, we were--and still are--
focused on providing life-sustaining commodities--namely food and 
water. To use the language of the emergency management community, we 
were operating in the ``response phase.''
    Mass Feeding: We moved our mobile feeding units into New Orleans, 
Biloxi, Gulfport, Mobile and numerous other affected communities within 
hours after the storm had passed. In some areas, we presented the first 
opportunity for survivors to obtain food and water.
    As the scope and scale of the damage became apparent, we deployed 
additional resources to the region:

    <bullet>  The number of mobile canteens rose from 72 to 178.
    <bullet>  The number of field kitchens deployed rose from 2 to 11. 
I should note that eight of the nine additional field kitchens belonged 
to the Southern Baptists and that they were deployed under a 
cooperative MOU between the Army and the Southern Baptists.

    Since Katrina struck, The Salvation Army has served more than 5 
million hot meals and more than 7 million sandwiches and snacks to 
survivors and first responders.
    We have also distributed more than 150,000 cleaning kits and almost 
200,000 boxes of groceries.
    Shelter: Although sheltering disaster victims is not our primary 
activity, The Salvation Army does provide shelter for storm victims. At 
the height of the initial response, the Army was operating 225 shelters 
which were housing more than 31,000 people. Since then, many of these 
people have moved on to temporary quarters. In some cases, the Army is 
helping with rent payments and other shelter-related needs.
    Emotional and Spiritual Care: The Salvation Army provides emotional 
and spiritual comfort to disaster victims and emergency workers coping 
with the stress of a disaster. This practices dates from the hurricane 
that devastated Galveston, Texas, a century ago. At the sites of the 
Oklahoma City bombing and the World Trade Center, one of the most 
critical missions of the Army was counseling firefighters, police, and 
morgue workers who were struggling with the enormity of the tragedies. 
We are providing this care now, to both those who have remained in the 
Gulf region and to those who have been moved to other communities 
across the country.

Ultimately Assisting with Long-Term Recovery
    At some point in the process of responding, the nature of our 
services will change from life-sustaining services to recovery 
services. Typically at this stage--we're now at Day #101--the Army is 
usually operating in what is known as a ``recovery phase.'' That means 
we're helping people put their lives back to normal.
    The Army employs case management to help people get their lives 
back to normal. We sit down with each family to determine what social 
services they need. Some of these clients will have been referred by 
other organizations because they present particularly challenging 
problems and the Army is well-equipped to help the most disenfranchised 
members of our society. At this time, we're assisting more than 269,000 
people through case management.
    These social services are the muscle, if you will, that allows the 
Army to make a lasting contribution to impacted communities.
    The Salvation Army is also involved in the reconstruction of 
communities. We are conscious of the need to rebuild a community's 
economic infrastructure, so that people can return to work. Typically, 
we act in partnership with other organizations to achieve our 
reconstruction goals. For example, if there is a need for new housing, 
then the Army might pay for the lumber.
    Mr. Chairman, I want to make one final point about the disaster 
services provided by the Army: we don't come into a community, help out 
for a few weeks, and then leave. We don't make exit plans because we 
live in those communities. Our presence is permanent.

Thoughts and Observations on Katrina Response
    Congress is obviously and rightly concerned about the quality of 
the preparations for and response to Hurricane Katrina.
    From our perspective, the services that were needed by Gulf Coast 
residents were no different than those provided to other victims of 
earlier hurricanes. The crucial differences between the response to 
Katrina and earlier hurricanes were the geographic scope of the 
disaster, the scale of the damage, and the multiple types of disasters 
triggered by a single event.
    Some special circumstances did arise in New Orleans. There, the 
conditions under which we delivered our services were somewhat 
different from those of other hurricanes in two respects.
    First, there was toxic material present and our relief workers had 
to take precautions to protect themselves. Moreover, this delayed the 
movement of personnel into the area by a few days.
    The second complication was civil unrest. The Salvation Army will 
draw a line in the sand with respect to service delivery when a 
situation is simply too dangerous.

How Congress Can Help
    If Congress is inclined to make changes in the Federal Government's 
disaster response protocols, then The Salvation Army has identified 
four items that we would like you to consider.

National Response Plan
    The Salvation Army should be explicitly mentioned in the National 
Response Plan as a support agency, similar to VOAD. Inclusion in the 
federal disaster response plan would clarify our role to state and 
local governments and, in our opinion, help the Army to more 
effectively deliver our services.

Training for NGOs
    If the Federal Government is going to rely upon tax exempt 
organizations and other NGOs to deliver disaster services, then 
standardized training is needed because all of the NGOs--especially the 
new entrants in the disaster services field--must understand the 
government's emergency management systems and the language of those 
systems.
    We believe that FEMA should take the lead role in providing this 
training. In fact, FEMA already provides some of this training through 
the National Emergency Training Center in Emmitsburg, Maryland.

Public Education
    Just as there are roles for government and charitable organizations 
in disaster response, there is also a role for people who are moved to 
help in some way.
    All too frequently, people and corporations will send unwanted 
items to a disaster site. Their motivation is laudable, but the arrival 
of unsolicited in-kind contributions at a disaster site is problematic. 
Volunteers have to be diverted from feeding and directly assisting 
victims to sort through truckloads of miscellaneous clothes and other 
un-needed items. Further, storage space in a disaster is scarce.
    Likewise, the unexpected arrival of unsolicited and untrained 
volunteers is also problematic.
    I don't want to sound cold, but the simple truth of the matter is 
that the best response is to send cash and stay out of the disaster 
zone, particularly when personal safety and health are at risk.
    The Federal Government could help to channel the generosity of the 
American people through public service announcements or by making 
prominent statements to that effect at the time of a disaster.

Tax Policy
    Donors make it possible for The Salvation Army to respond to a 
disaster, and they play an essential role in the delivery of services 
to those in need. To date, the Army has received $295 million for 
hurricane relief efforts in the affected areas and to assist the 
evacuees from coast to coast.
    Obviously, there is a direct correlation between the generosity of 
donors and the extent of the Army's ability to help people in crisis.
    Consequently, any government policy that makes it more difficult 
for potential donors to contribute will impact our ability to deliver 
services. Therefore, we ask that Congress make it as easy as possible 
for donors to contribute to charitable organizations.
    Mr. Chairman, this concludes my testimony and I look forward to 
your questions.

                                 <F-dash>

    Chairman RAMSTAD. Thank you, Major Hawks. Mr. Davies, 
please.

  STATEMENT OF JOHN G. DAVIES, PRESIDENT AND CHIEF EXECUTIVE 
              OFFICER, BATON ROUGE AREA FOUNDATION

    Mr. DAVIES. My name is John Davies. I'm the President and 
CEO of the Baton Rouge Area Foundation, a community foundation 
serving the capital region of Louisiana. Because of our size 
and location and prior activities, the Baton Rouge Area 
Foundation was positioned to be significantly responsive to the 
challenges brought about by the two hurricanes that devastated 
our State.
    It is important to understand that after the storm Baton 
Rouge became the center of activity regarding both the 
displaced population from south Louisiana and the 
reconstruction effort. The Foundation was in the midst of the 
relief effort. As a result, our staff arrived at several 
conclusions about our experience, and we would like to present 
those to you in the hopes that they might be instructive.
    The first is that the lack of coordination among large 
NGOs, local charities, local, State, Federal agencies was a 
huge impediment to service delivery. For the first 3 weeks 
there was no coherent way for relief organizations to 
coordinate their efforts to ensure complete service coverage 
and effective response.
    Second, within the independent sector, there was a yawning 
gap of communication between the large multinational NGOs and 
the local organizations. Logically, large charities who work on 
the international scene know how each other works and 
understand each other's role in disaster relief. Local 
organizations, at least in our case, were unfamiliar with 
disaster practices and were on a steep and costly learning 
curve. There was no significant awareness among local 
organizations of what the national organizations were doing, 
and vice versa.
    The Red Cross response felt to us like it was a first time 
event for the Red Cross. There was a wide range of competency 
and experience among Red Cross staff, and that affected the 
capacity of local charities and volunteers to quickly and 
properly plug into the Red Cross system. Further, several 
professionals from different international NGOs commented that 
the International Red Cross protocols and practices were 
different from those of the national Red Cross. This too led to 
confusion in the early stages of the relief.
    Fourth, there was a clear dichotomy between the two types 
of shelters: The Red Cross shelters, of which there were up to 
five in the greater Baton Rouge area during the storm, and the 
non-Red Cross shelter that grew to 70 in the area. The various 
designations of Red Cross shelters and non defines the lack of 
communication and collaboration between the two groups. The 
Foundation focused on supporting the latter, primarily faith-
based organizations in our greater community, that had very 
quickly responded to the human crises by opening their churches 
and buildings to become shelters. In our estimation, the faith-
based shelters were hugely important to our community's 
capacity to absorb the volume of displaced people that it did.
    Fifth, the 211 charitable resource phone call line is 
critical in these situations. The Foundation was inundated by 
generous people from all over the country who wanted to 
contribute important gifts in-kind: the use of private jets, 
the use of complete fleets of trucks, helicopters, offers of 
free hotel rooms, offers of free housing and apartments, et 
cetera. For the first 2 weeks after the storm, there was no 
effective 211 system. It had been overwhelmed, and it took us 
time, way too much time, to get it up to capacity to handle the 
volume of calls and to connect the resources from generous 
people to those in need.
    The Foundation hopes that lessons are learned from the 
experiences of Katrina so that we do not have to relive the 
scenarios in other disasters, and we are grateful to the 
Subcommittee on Oversight for holding the hearings so that we 
can gather information that may reduce the anguish, pain, and 
suffering of those who are affected by crises in the future.
    [The prepared statement of Mr. Davies follows:]

  Statement of John G. Davies, President and Chief Executive Officer, 
          Baton Rouge Area Foundation, Baton Rouge, Louisiana

    Ladies and Gentlemen, my name is John Davies and I am the President 
and CEO of the Baton Rouge Area Foundation, a community foundation 
serving the capital region of Louisiana. Louisiana has five community 
foundations that serve the state. The three community foundations that 
responded most directly to Hurricanes Katrina and Rita, were the 
Community Foundation of Acadiana in Lafayette, the Greater New Orleans 
Foundation, and us. The Baton Rouge Area Foundation, the largest of the 
community foundations in Louisiana, has approximately 25 full time 
employees and almost $400 million in assets. The Greater New Orleans 
Foundation is the second largest community foundation in the state with 
approximately $110 million in assets and seven employees. The other 
three foundations have less than $50 million each in assets and small 
staffs.
    Because of our size, location, and prior activities, the Baton 
Rouge Area Foundation was positioned to be significantly responsive to 
the challenges brought about by the two hurricanes that devastated our 
state. We immediately launched two Katrina Funds, one to address the 
challenges faced by the displaced population from south Louisiana 
living in the greater Baton Rouge area. The second fund, which we 
launched as a proxy for the Greater New Orleans Foundation, was 
intended to help rebuild the civic structures of the greater New 
Orleans area. We launched the second fund rather than our colleagues in 
New Orleans because they were displaced themselves. Two of the seven 
employees of the Greater New Orleans Foundation lost everything except 
for what they wore as they left the city. All of them had to seek other 
housing arrangements, in many cases with difficult logistics.
    It is important to understand that after the storm, Baton Rouge 
became the center of activity regarding both the displaced population 
from south Louisiana and the reconstruction effort. Most critical civic 
offices from New Orleans such as the Chamber, the Community Foundation 
and United Way moved into temporary offices in Baton Rouge, and many 
businesses from that region did the same. Baton Rouge developed as a 
central meeting site to discuss both the immediate response to victims 
and the longer term reconstruction issues. The Baton Rouge Area 
Foundation became one of those locations. For several months, we housed 
the International Rescue Committee, the Governor's Louisiana Family 
Recovery Corporation, the Greater New Orleans Foundation and Greater 
New Orleans, Inc.
    The funds that we launched under Foundations For Recovery.org, a 
website that contains significant information about our fundraising 
success and the disposition of the funds that we have raised, has 
reached almost $27 million from all 50 states, the Virgin Islands, and 
26 foreign countries. Of that amount over $12 million has been 
contributed to the Hurricane Katrina Displaced Residents Fund and $4.6 
has been contributed to the Hurricane Katrina New Orleans Recovery 
Fund.
    Remembering that south Louisiana had evacuated into Baton Rouge and 
across the country, with Baton Rouge serving as the center of activity, 
the Baton Rouge Area Foundation was in the midst of all the relief 
efforts. We arrived at several conclusions about our experience, and we 
present those in hopes that they might be instructive for future 
responses to disasters.

    1.  The lack of coordination among large Non-Governmental 
Organizations (NGO's), local charities, local, state and federal 
agencies was a huge impediment to service delivery. For the first three 
weeks post-Katrina, there was no coherent way for the relief 
organizations to coordinate their efforts to ensure complete service 
coverage and effective response.
    2.  Within the independent sector there was a significant gap of 
communication between the large, multinational NGO's and local 
organizations. Logically, large charities who work on the international 
scene know each other and understand each other's role in disaster 
relief. Local organizations, at least in our case, were unfamiliar with 
disaster practices and were on a steep and costly learning curve. There 
was no significant awareness among the local organizations of what the 
national organizations were doing and vice versa.
    3.  The Red Cross response, though critical to whatever success we 
have had in responding to the challenges of the displaced residents, 
felt to us like it was a first time event for the Red Cross. There was 
widely varying degrees of competency and experience among Red Cross 
staff, and that affected the capacity of local charities whose service 
could have been most helpful to quickly and properly plug into the Red 
Cross system. Further, several professionals from different 
international NGO's commented that the International Red Cross 
protocols and practices were different from those of the National Red 
Cross. This, too, led to some confusion in the early stages of the 
relief effort.
    4.  Again, in the area of communications, there was a clear 
dichotomy between two types of shelters: the Red Cross shelters, of 
which there were up to five in the greater Baton Rouge area during the 
storm, and the non-Red Cross shelters that grew up to seventy in the 
area. The very designation of Red Cross and non-Red Cross shelters 
defines the lack of communication and collaboration between the two 
groups. The Foundation focused heavily on supporting the faith-based 
organizations in our greater community who had very quickly responded 
to the human crises by opening their churches and buildings to become 
shelters. In our estimation, the faith-based shelters were hugely 
important to our community's capacity to absorb the volume of displaced 
people that it did.
    5.  The 211 charitable services call line is immensely important in 
these situations. The Foundation was inundated by immensely generous 
people from all over the country who wanted to contribute important 
gifts in-kind--the use of private jets, the use of complete fleets of 
trucks, helicopters, offers of free hotel rooms, offers of free housing 
and apartments, etcetera. For the first two weeks after the storm, 
there was no effective 211 system. It had been overwhelmed, and it took 
us time--too much time--to get it up to the capacity to handle the 
volume of calls and to connect the resources from generous people to 
those in need. It seems reasonable that communities should focus time 
and energy on ensuring that their 211 system has the capacity to serve 
them in times of crisis.

    The Baton Rouge Area Foundation made a few correct and important 
assessments early. The day after the storm, we analogized our situation 
with Banda Aceh and not 9/11. That led us to invite the International 
Rescue Committee to come to Baton Rouge for the first domestic 
deployment in their history. In their first day onsite, which was 
during the first week post-Katrina, they told us that the major issues 
we would face would be the coordination of service resources and the 
management of information. Almost a month later, in chaos, we finally 
developed systems to deal with the coordination of resources--but it 
took us a precious month. The staff of the Baton Rouge Area Foundation 
hopes that lessons are learned from the experiences of Katrina so that 
we do not relive these scenarios in other disasters. There must be 
better ways to quickly develop systems into which service providers can 
plug in so that their valuable services can be put to work right away. 
Additionally, there must be a centralized communication system that 
allows both the victims of the crisis and the service providers a 
reasonably current and reliable status report of relief efforts.
    The Foundation is grateful to the Subcommittee on Oversight for 
holding this hearing so that we can gather information that may reduce 
the anguish, pain and suffering of others who are affected by crises in 
the future.

                                 <F-dash>

    Chairman RAMSTAD. I want to thank all four members of this 
panel for your very helpful testimony. I would like to ask of 
you, Mr. Becker, and let me first say I think it is nothing 
short of miraculous that the Red Cross has already distributed 
$1.3 billion in financial assistance to Katrina evacuees. 
Believe me, as a former board member of my local American Red 
Cross chapter in Minnesota, I appreciate all the good work that 
the Red Cross does, and certainly we are not here to point 
fingers, but to work with you in a collaborative way and the 
other organizations represented on the panels here today to do 
things better and to correct some mistakes that have been made.
    Obviously, in a disaster, an epic disaster of these 
proportions, nobody could totally and accurately make all 
contingency plans, and we understand that. Again, we appreciate 
your cooperation. We are trying to figure out how we can avoid 
some of the mistakes that were made, how we can cut down on 
waste and fraud like we are trying to do as Members of Congress 
every day with respect to the Federal Government.
    I know the Red Cross is under pressure in a disaster like 
this, under immense pressure, to get cash out to people who 
need it. As I said already, you have distributed $1.3 billion 
in cash. At the same time, it is discouraging to donors to read 
about cases where there is fraud or waste, money going to 
people who really are not victimized, who have minimal or 
little damage.
    I cited in my opening statement the experience in Hinds 
County, Mississippi, in Jackson, Mississippi, which was written 
up in The New York Times, where initially all residents of the 
county were receiving cash assistance. At midcourse, I 
understand, the Red Cross corrected the policy or changed the 
policy, so that damage assessments were required before the 
residents of that county could receive cash.
    First of all, I understand, in a hurricane like that there 
are not too many insurance adjusters or others around to make 
those kinds of assessments, before getting cash assistance, 
which is usually imminently needed and desperately needed.
    How is, if at all, the Red Cross changing its policy 
consistent with what happened in Hinds County, Mississippi?
    Mr. BECKER. Our policy has always been that we give 
financial assistance to families who have verified disaster-
caused needs, major damage or destroyed homes, in essence. Our 
constant challenge in the earliest days of Katrina was wanting 
to get that assistance in victims' hands as quickly as we 
could, based on what data we had. So, initially, we had some 
counties that we knew were obviously totally destroyed, and 
then beyond that we waited--we constantly refined that data as 
our assessment teams were able to.
    We leaned on FEMA's data with their overhead satellite 
imagery, and what we did was constantly changed the zip codes 
that we knew everybody in those zip codes had damage, then we 
had other zip codes that no, I think we need a home visit here. 
In a traditional disaster we go street to street, house to 
house with our volunteers. In a disaster the size of Great 
Britain, which street do you go down first? So, we relied on 
macro data in those earliest weeks, and then as our on-the-
ground data assessment came back in, and we had that data, 
particularly in Hinds County, we were able then to refine the 
data and change our zip code list of who we were giving 
assistance to.
    We felt like we had a system that yes, if you wanted to in 
some ways defraud the system, we might not catch it in the 
earliest days, but when the data was entered we would 
eventually find out who you were, and we have had a large fraud 
team focused on how many people got assistance who double-
dipped on us, went to more than one place, or how many people 
defrauded the system.
    I can quantify that for you at this point. Out of the 1.2 
million or so families that we gave assistance to we have 
identified about 4,000 families that we are now going back and 
working with. So far, we have recovered over $1 million from 
people who have given us the money back. We have had wonderful 
cooperation with the Federal Bureau of Investigation (FBI) and 
with local prosecutors who have lowered the dollar threshold 
that we would prosecute to allow us to prosecute people who 
defrauded the Red Cross and the people that gave us the money 
to give out.
    Chairman RAMSTAD. You mentioned the number of families, Mr. 
Becker. Of the $1.3 billion in cash assistance that has been 
handed out, can you quantify how much in your judgment went to 
fraudulent claims?
    Mr. BECKER. About 4,000 families, at about an average of 
$1,000 per family.
    Chairman RAMSTAD. Four thousand families at about $1,000 a 
family.
    Well, again, I thank you, Mr. Becker.
    Mr. Davies, I want to ask you a question, if I may. You 
made quite an indictment in your testimony and in your remarks 
today. You say that for 3 weeks after Hurricane Katrina there 
was no coherent way for relief organizations to coordinate 
their efforts. Who in your judgment is responsible for this 
amazing failure?
    Mr. DAVIES. I am not sure. The situation was so 
overwhelming that it would have been terribly difficult. The 
frustration of this situation is that we had invited the 
International Rescue Committee to come to Baton Rouge, and they 
deployed for the first time in their history within the United 
States. They normally serve overseas. They worked in Banda 
Aceh. We invited them to come to Baton Rouge precisely because 
they had done some point relief work in Banda Aceh and they 
understood the whole issue of displaced people and relocation, 
which we saw coming. When they arrived within 5 days after the 
storm, the head of their team of 11 told us in a briefing that 
the greatest issue we were going to have was to coordinate all 
of the resources that were there to benefit the people, and we 
knew that then, and we still couldn't get it pulled together 
until 3 weeks later at a fairly large meeting in our office 
where, finally, the State determined to develop a central 
coordination center called the Family Recovery Corps, and that 
was intended to be the central place through which services 
would be provided to the displaced people.
    Chairman RAMSTAD. We all know that FEMA's inadequate 
response initially has been well documented. We know also the 
relationship on the ground. Do the charities key, if I may, key 
off FEMA, and because of FEMA's inadequate response did this 
affect the response of the charities on the ground?
    Mr. DAVIES. It may have been a contributing factor. I think 
the enormity of the situation, we had so many international 
groups who had come to Louisiana for the first time; we had 
obviously the Red Cross and Salvation Army, we had World 
Vision, Mercy Corps, Save the Children, International Rescue; 
we had many, many groups who had never worked in Louisiana 
before, didn't know our organizations, didn't know the 
structure of our government. They also didn't understand--we 
didn't understand them and their roles.
    I think the nature of relief work at this point, at the 
shelter point is chaotic, but the chaos should not have been at 
the level it was.
    Chairman RAMSTAD. I want to ask finally Major Hawks a 
question. Thank you, Mr. Davies.
    Major Hawks, I was surprised to learn in the context of 
preparing for this hearing that the Salvation Army is not named 
in the National Response Plan. It was more than a surprise, I 
was shocked. Therefore, the Salvation Army was excluded from 
bodies in which it could have helped coordinate the response to 
Katrina.
    Has the Salvation Army applied to become a support agency 
in the National Response Plan, or do you see that as being 
desirous and consistent with your goals and your mission?
    Major HAWKS. Yes, Mr. Chairman. The Salvation Army has 
expressed an interest in being a support agency, and the reason 
that that is important to the Salvation Army is in part because 
the State as well as the county and the parishes all adopt 
their local emergency management plans using the Federal plan 
as the model. So, if we are not listed, as you have indicated, 
then often we are not included. We are included in the VOAD 
grouping.
    Chairman RAMSTAD. Again, I want to thank you and all of the 
officers, members, volunteers of the Salvation Army for all the 
good that you did with respect to the hurricanes and for all 
the good you do every day in our country.
    The Chair would now recognize the distinguished Ranking 
Member, Mr. Lewis.
    Mr. LEWIS. Thank you very much, Mr. Chairman. Mr. Chairman, 
I want to join you in thanking members of the panel, and thank 
the representatives of these organizations and groups for doing 
the necessary work and the good work for so many years. Some of 
us really appreciate, all of us as a people, as a Nation are 
very grateful to you for your work, for your service. I often 
think, what would it be like if we didn't have organizations 
like the Red Cross, the Salvation Army, local community 
foundations.
    Just recently in my own city in Atlanta, we had a bad 
apartment fire in the heart of the inner city, and it was the 
Red Cross that responded to help people, and I am sure the 
Salvation Army no doubt was involved also. The Salvation Army 
in Atlanta has done great work for many years in helping with 
the homeless population and meeting the ongoing needs of 
people. For one, I am very grateful, and I appreciate your 
great work.
    Ms. Fagnoni, I wish you would expand on the statement in 
your testimony where in areas where the American Red Cross did 
not provide service, the Salvation Army and smaller 
organizations, often local churches, were able to meet many of 
the charitable needs in hard-to-reach communities.
    It just sounds like everyone, everybody was just doing the 
best they could. What happened, it was unbelievable, it was 
unreal. So, could you just expand? Did we learn anything? Did 
the organizations, did the groups learn anything from 9/11 to 
plan better?
    Ms. FAGNONI. To answer the last part of your question 
first, Mr. Lewis.
    Mr. LEWIS. Was anything put in place?
    Ms. FAGNONI. Sure. What we see as the most direct response 
to some of the lessons learned that we and others identified 
from 9/11 was this effort to have the CAN, which is a web-based 
system. It is designed to help keep track of both people and 
services. One thing that happened after September 11th is that 
survivors had to keep telling their stories over and over again 
to different organizations. With the CAN once an individual 
gives information, then signs a waiver, then the other 
charities that participate in the network and have signed a 
privacy waiver can access the information and know something 
about the individual. This will enable organizations to 
identify services that have been provided to an individual, so 
that there are not gaps or duplication of services.
    So, that is probably the most concrete development that has 
occurred since 9/11. Further, you have asked about gaps in 
services, and I am sure the Red Cross can explain that due to 
some of their policies, they did not place shelters in areas 
where people happened to still be. In response, particularly in 
places like Mississippi, local organizations, often churches 
stepped in. I think the Salvation Army will also tell you that 
due to their roaming approach to service delivery, it may be 
easier for them to move into some areas and fill in where 
others might not be.
    I think there is still an open question as to the overall 
coordination, but there is no question that people were trying 
to fill in where they saw a need. The GAO has a broad set of 
studies going on. Today, I am discussing the piece that deals 
with charities, but we are also looking overall at the National 
Response Plan, how effectively it has been implemented in this 
situation, and what changes, if any, might need to be made. Of 
course, charities are a very important, but very small piece in 
that whole picture. Even within the emergency support function 
where the Red Cross has a lead role, they share the lead with 
FEMA. So, even in that situation, there is a Federal presence.
    So, yes, I think there were some lessons learned after 
September 11th, but clearly, there will be new lessons learned 
from this situation. The fact is, with Katrina as with other 
disasters, it is not over. Situations are continuing to happen 
and we will continue to monitor and look at how things are 
going and what improvements might be needed.
    Mr. LEWIS. Mr. Chairman, I notice my time has run out. If I 
could just ask Mr. Becker a question.
    Chairman RAMSTAD. Sure.
    Mr. LEWIS. Mr. Becker, could you expand on your comments 
about how your sister organizations, the Salvation Army, 
Southern Baptist, Catholic Church, National Association for the 
Advancement of Colored People (NAACP), the American 
Psychological Association were critical to the success of the 
Red Cross mission and goal? Sort of follow up on your statement 
about the significant lessons learned. Is the partnership much 
more effective well in advance of a crisis?
    Mr. BECKER. I think there is a distinction between the Red 
Cross and our primary role in the National Response Plan and 
the Red Cross as a service provider. The role that we take in 
the National Response Plan has to do with how does the Federal 
Government resource States. What we do in our National Response 
Plan role is work at FEMA's resourcing center to receive 
requests from States and process those to the right Federal 
organization to resource the State. That is what we do as the 
Emergency Support Function (ESF) 6 primary agency. That is a 
very different assignment than what the Red Cross does as a 
service provider. What the Red Cross does as a service provider 
is work with the Salvation Army, Catholic Charities, many 
partners to make sure the work gets done.
    The quarterback in a disaster is the parish or county 
emergency manager, and what we are doing in the earliest days 
of a disaster is making sure that we are coordinating on a 
local basis: Where do you have a kitchen? Where do we have a 
kitchen? What church do we know of is feeding? The worst thing 
we could do is set a kitchen down right next to a Salvation 
Army kitchen or next to a church kitchen. So, we are trying to 
coordinate that, and at the county or parish level that is 
where that coordination happens.
    Our role as primary in ESF 6 does not mean that we are 
responsible for the Red Cross meeting all of the service 
delivery needs for meeting shelter and clothing distribution, 
welfare inquiry; it is the coordinating role in resourcing 
States and then we work in partnership with other organizations 
to actually deliver the service.
    Mr. LEWIS. Thank you very much.
    Chairman RAMSTAD. Mr. Beauprez, please.
    Mr. BEAUPREZ. Thank you, Mr. Chairman.
    Mr. Becker, let's stay on that point for a little bit. 
Communications seem to be an enormous problem. We heard in Mr. 
McCrery's testimony, we have heard it from several of you, that 
communication was extremely difficult, maybe to be polite. Yet, 
in your testimony, I don't see much discussion about how we fix 
that. So, why don't you expand, if you have ideas. You have 
been through what I am guessing you admit was not a stellar 
performance by the Red Cross as well as many other agencies. 
How do we address that? How do we get over it?
    Mr. BECKER. To clarify the question, communication among 
the nonprofits in the response?
    Mr. BEAUPREZ. Communications throughout. I am likening this 
to a battle zone. There is always going to be variables that 
happen in the field of battle. It is critically important that 
someone take charge, someone develops the strategy, and someone 
passes the orders for execution throughout the ranks. That 
seems like there was--it seems like, from what I understand 
from the testimony already today, that there was an enormous 
breakdown in that chain of command communication if in fact the 
chain of command even exists.
    Mr. BECKER. There are several aspects to that. I would say 
the first one is, what are the local relationships among all of 
the nonprofits that can bring value during a disaster? Not just 
the large national organizations, but anybody. The local food 
pantry, the local crisis center, anybody who can bring value. 
When we formed the CAN, it was done by the large national 
disaster organizations and the United Way, but the intent was 
that we would offer that to a community, and it is not just the 
technology, it is not just entering cases so that we can all 
see what we have done for the Smith family. The better benefit 
is that we all sit down in that community long before a 
disaster happens to carve out those rules a little bit more 
clearly.
    The way a disaster sequences, in the earliest days of a 
disaster, what we are focused on is the lifesaving needs, the 
shelter and the food. There is a fairly small number of 
players, if you will, in that, the Salvation Army and the 
American Red Cross, and in a very large disaster such as this, 
the faith community would respond.
    As the disaster runs out, and people start focusing on 
questions like ``where am I going to live'' and ``how am I 
going to recover,'' that is where the whole group of nonprofits 
comes together. We have all been in the community long before 
the disaster hit, and we are going to be in the community long 
after the disaster is off the front page of the news. How do we 
work together to do that? If we wait until the middle of a 
disaster to exchange business cards with each other, we are off 
to a bad start.
    The value of the CAN would be that we sit down ahead of 
time and form those relationships. We as a group had received 
funding to preposition that network in six pilot communities 
around the country, and we had just started to roll that out. 
We received the funding in the spring. We did it based on 
threats and, interestingly, New Orleans was one of those six 
pilot communities that we chose. So, we were off to a little 
bit better of a start in the New Orleans area. We now have CAN 
in over 500 communities around the country. I think long-term 
it is not the technology, it is the relationships among the 
leaders of the nonprofits to carve those roles out and clarify 
those expectations in advance.
    Mr. BEAUPREZ. I accept that, but what confuses me I guess 
is that this seemed to escape everyone before this disaster 
happened. I accept the premise you just laid out, that progress 
maybe is being made, but in the time I have got remaining, I 
guess I will ask the same question in a slightly different 
manner to you than I asked to my colleague, Mr. McCrery. 
Whether we want to point a finger at FEMA, local government, 
State government, whether we want to point a finger at the 
collection of NGOs, the collective assumption here is we did 
not do very well and a whole lot of people suffered mightily as 
a result.
    Thinking of the National Response Plan, is it broken so 
badly it cannot be fixed? If your answer is no, we can fix it, 
how soon can we fix it?
    Mr. BECKER. Our organizational view is that the National 
Response Plan needs to be seriously reexamined. There are 
public policy issues in that as well. At its core, with the 
National Response Plan, all it does is outline how the Federal 
Government is going to resource a State, when you really get 
down to it, and it is predicated on when a county has a 
disaster or a parish that is bigger than it can handle it will 
turn to the State. When a State has something bigger than it 
can handle, it will turn to the National Response Plan 
structure for that.
    All disasters are local, though. They are all local, and 
where we have to grow, when the parish or county has its 
disaster plan, we craft ahead of time: this is where the Red 
Cross shelters are going to be, these are the other shelters 
that might open in the community. That is dictated typically in 
a plan. If the question is asked, what if it is bigger than 
that, the answer on the local level is then we turn to the 
State or we turn to the Feds.
    I think what we need to reexamine on a local level is, no, 
what if it is bigger than that, what are the local resources; 
bring the faith community into that planning process, bring the 
other nonprofits into the planning process, because the 
response has to be people from the community first. So, yes, 
the National Response Plan needs to be reexamined, but I think 
that is too easy for us at the local level to say, oh, that is 
the problem. Our organizations at the local level need to think 
about what if it is bigger than we can handle? Before we turn 
to the State, who else in this community can bring value? That 
needs to happen as well.
    Mr. BEAUPREZ. Thank you, Mr. Chairman.
    Chairman RAMSTAD. The Chair now recognizes the gentleman 
from North Dakota, Mr. Pomeroy.
    Mr. POMEROY. Thank you, Mr. Chairman.
    In 1997, the City of Grand Forks, a city of about 50,000, 
suffered a catastrophic flood and the city was evacuated, and 
we were literally years in recovery. That was the worst thing 
we ever thought could happen until Hurricane Katrina and we saw 
that things can get a magnitude worse. We are still very 
grateful for the roles played by both the Red Cross and the 
Salvation Army, and our own emergency response and then 
recovery periods.
    I am troubled, however, by anecdotal reports that things on 
the ground did not go as one might have hoped or expected. I am 
wondering about key lessons that have been learned as we try to 
address these issues.
    In talking about coordination, in Grand Forks we literally 
built a one-stop shop under the auspices--and this is now more 
than the recovery phase--under the auspices of the United Way, 
who had utter coordination between all nonprofits and charities 
and churches working on the program. Is there some 
institutional, multi-organizational coordinating entity that 
you will be further constructing and improving in light of what 
you have learned?
    Mr. Becker and Major Hawks.
    Mr. BECKER. On a Federal level, FEMA has awarded a very 
significant grant to the national VOAD and the United Methodist 
Committee on Relief (UMCOR), to do the casework for the people 
going forward. While that is being built, and what is typical 
in a disaster, each community or each county forms what 
generically you would call an unmet needs Committee. You see 
these all over Florida from last year's storms and you are 
seeing these form in the Mississippi Gulf Coast. That would be 
the local political leaders, the nonprofit leaders, the faith 
community, business leaders coming together to say how are we 
going to meet the longer term needs of these people. That is 
where CAN was designed to work. CAN was designed to, when these 
people all come together, how do they share that data? Various 
leaders step forward in communities to take that convening 
role. I don't think that can be dictated by a Federal grant.
    Mr. POMEROY. That is the recovery phase, though. I am 
wondering if we can't have an entity that is probably located, 
I don't know, in Washington or somewhere that exists between 
disasters and has very well-established, multi-participants, 
and so we have a coordinating capacity preestablished for 
something like this. I think quite clearly there was 
coordination on the ground during the relief phase of this 
organization but did not meet what we I think expect and hope 
for. I am wondering if you are building something that will 
make--that will leave us institutionally improved going 
forward.
    Mr. BECKER. I would agree that that would be one of the key 
learnings going forward, not so much for the recovery phase, 
which is what the learning from 9/11 was, how do you deal with 
the people in the recovery phase; but in the emergency response 
phase, those earliest weeks, we presumed that coordination 
happens at the local level, because the key players, the county 
emergency manager, I would agree we need that Federal level as 
well.
    Mr. POMEROY. Major, do you have insights on that?
    Major HAWKS. I think the model that is in place nationally, 
statewide as well as locally, relates to the VOAD structure, 
where all of us as nonprofit organizations are a part of that 
group. There is a national group, there is a State group, there 
are county groups, there are local groups, and I am thinking 
that those are the groups that need to be strengthened now and 
they need to continue to communicate right on up to the time of 
the disaster and throughout the disaster.
    Now, there are a number of unmet needs groups that have 
come from the Katrina efforts, and they all have different 
names. Depending on the communities they have all been given 
different names. The Salvation Army, the American Red Cross and 
other organizations, faith-based organizations, are all plugged 
into those Committees across the coast and involved in the 
recovery efforts.
    Mr. POMEROY. I had a Red Cross--I had a volunteer scheduled 
to go down there and work, work with the Red Cross, and I left 
my personal cell phone number to call if she had any problems. 
She didn't call from down there, but she called literally 
before she had gotten to her apartment or house back in Fargo 
to tell me of her concern relative to lack of oversight 
management and lack of fund-tracking as the client assistance 
cards were dispersed, and this has come up in some of the 
questions raised here, but I literally had a constituent call 
and tell me that there would be lines in front of the table and 
one individual claiming on behalf of a family in one line and, 
two lines down, there was another individual claiming on behalf 
of the same family, and this North Dakota volunteer said, well, 
there is not much we can do about that.
    Was sufficient information captured at the time of 
disbursements, so that the FBI investigation in duplication of 
benefits inappropriately can now have a chance to work?
    Mr. BECKER. Where we had power and infrastructure, that 
data was captured. Where we didn't have infrastructure and we 
were handing out intake forms and entering the data in a remote 
location, there was a period of time before that data got put 
in. That was the comment that I made earlier where you might be 
able to in essence double-dip on us, but we would know who you 
were eventually. There is a team, independent of my team, that 
has been working on that since then, and that is what we did 
quantify to be about 4,000 families that stood in line at one 
table and then went to another table or, in some cases, stood 
in line in a community and then went to another community.
    Mr. POMEROY. This individual was in Baton Rouge. I think 
you had power throughout there, right?
    Mr. BECKER. In Baton Rouge we did, but to also get the 
assistance out more quickly, we had a lot of organizations and 
places that we turned into intake centers and, actually, in 
Baton Rouge was the centralized data processing facility. What 
we were balancing there was the speed of getting the assistance 
to people and the data, and if we had to err we were going to 
err on the side of getting the assistance in people's hands, 
feeling like if we had to we would come back and knock on their 
door later to talk about the fact that they had gotten two 
checks from the Red Cross. The 4,000 number might grow, but it 
is about three-tenths of 1 percent fraud, out of 1.2 million 
cases. That is how many we have so far. It might go up a little 
bit more, but anecdotally, that was keeping me up at night, and 
it was organizationally for us a risk that we took, but we 
agreed to err on the side of speed. This is the immediate 
emergency assistance before FEMA can get you your big check, or 
this is just to get you that next set of clothes or what you 
immediately need. Getting it 5 weeks later, 10 weeks later 
doesn't help, and our emphasis was on speed at that point and 
mitigating as best we could the risk along the way.
    Chairman RAMSTAD. The Chair now recognizes the 
distinguished Chairman of the Subcommittee on Social Security 
and thanks him again for participating again in today's 
hearing.
    Mr. MCCRERY. Thank you, Mr. Chairman. I will be brief.
    Mr. Becker I think hit the nail on the head when he said, 
this is not so much a failure of individuals, it is a failure 
of lack of appropriate planning, lack of adequate planning. For 
example, given the situation in the Baton Rouge area, which is 
very similar to ours in my congressional district where the Red 
Cross simply was not prepared or able to take care of all of 
the evacuees who were flooding into our areas. So, we called on 
the local Office of Emergency Preparedness (OEP) directors to 
call all their friends and their acquaintances, not just 
churches. You keep using the faith-based. Well, yes, a lot of 
the churches help, but a lot of these people were just called 
on the phone by the OEP director to say, help. What do you have 
that you can bring me? Well, I have a generator or I have this 
or that. Those were people responding. The problem was, there 
was not any planning for that, at least that I could identify. 
Maybe there was on paper somewhere, but the OEP director didn't 
seem to know it and the Red Cross didn't know it, and FEMA sure 
didn't know it.
    So, I think that is right. We have to--and whatever 
organizations choose to participate, we have to get a 
comprehensive plan to prepare us for these kinds of 
contingencies in some kind of mass disaster.
    For example, I think Red Cross, Salvation Army, United Way, 
the major charitable organizations in every community, every 
community has some vestige of one or more of those in their 
communities, in their counties or their parishes; why not get 
with the OEP director in each parish and some representative of 
the charitable organizations and plan ahead of time. This is 
the first shelter to open in my parish at the local civic 
center, and it can have up to 500 people here. If that is not 
enough, then we will have spot B as a shelter that can handle 
50 people. If that is not enough, we are going to have to send 
them north to the next parish, or all the way to Shreveport to 
the Red Cross shelter, which has a thousand or 1,200 or 1,500 
people in it. There didn't seem to be a plan in place like that 
and, unfortunately the Red Cross, when asked, would just say 
sorry, we can't help; we have our own problems. I am sure they 
did, but then you would ask FEMA and FEMA--well, you couldn't 
even get FEMA, basically. Communications were terrible, Mr. 
Chairman. You couldn't get through to Baton Rouge. All the 
lines were blocked. Yes, they had electricity, but they had no 
phones because everything was so busy you couldn't get through. 
It was just chaos.
    So, somebody, whether it is FEMA or the lead organization 
in the National Response Plan, somebody I think has to sit down 
with these OEP directors who are by and large volunteers 
themselves; they are not paid, they have another job, so they 
just volunteer in their parish or their community, their county 
to do that. Somebody has to take them to lunch, spend a buck, 
have the FEMA spend enough to buy this poor guy a lunch and go 
over with him just basic stuff. If we have a disaster, this is 
what we got to do. I don't know. There has to be a better way, 
because people simply were not aware of the plan if there was a 
plan, and the shelters just popped up, thank goodness.
    Finally, I got tired of trying to get the Red Cross to help 
and trying to get FEMA to help, Mr. Chairman, and I and my 
staff said we are going to do this ourselves. We went community 
by community, enlisting the sheriffs and the mayors and the OEP 
directors and said, we are going to handle this. We are just 
going to get the food, get the--we don't have any cots, we 
can't find any cots, but we will get mattresses and sheets and 
pillows and clothes, and we did. We just handled it. There 
should have been a better plan in place.
    So, thank you for your comments, all of you.
    Chairman RAMSTAD. Thank you, Mr. McCrery. The Ranking 
Member has just one brief follow-up question of this panel.
    Mr. LEWIS. Mr. Chairman, thank you very much. I want to ask 
Major Hawks, your primary mission in America is a better place 
because of it, is to give people hope where all may seem lost. 
Now, the Red Cross has been criticized some here today. Do you 
have any positive comments you would like to make? I know you 
have done great work in Atlanta. We have about 40,000 people in 
the metropolitan Atlanta area from the affected States. What 
are you doing now to help people that are coming?
    Major HAWKS. You mean with the evacuees across the country?
    Mr. LEWIS. Right. In places like Atlanta or Houston or 
Dallas or some other place?
    Major HAWKS. Right now we are actually in the response and 
the recovery mode. I have never been in a disaster before where 
we spend 4 months in a response mode, where we have our roving 
canteen all across the Gulf Coast and at the same time in other 
communities we are doing case management with evacuees trying 
to get people back into homes and back into places with some 
semblance of normalcy.
    So, in over 30 States, the Salvation Army is working with 
the evacuees from around the country to try to get them back 
into their homes, and, at the same time, in the affected areas 
we are still working in the response phase.
    Mr. LEWIS. Do you consider yourself different from the Red 
Cross?
    Major HAWKS. Well, initially, in the response phase we 
emphasize providing food. Our roving canteens that I mentioned, 
the 72 canteens that were initially staged to come in, they 
were staged in adjacent States, they were staged in the 
northern parts of the Gulf States, and then there were almost 
200 more or 200 total brought into the area. That is what we do 
really well during the time of response. Those canteens can 
provide up to 5,000 meals per unit, and we have memorandum of 
understandings with the Southern Baptists and other 
organizations that will just, really just elevate our ability 
to prepare food, but it goes beyond that. As the disaster moves 
forward, so do our services.
    Mr. LEWIS. Thank you, Mr. Chairman.
    Thank you, sir.
    Chairman RAMSTAD. Thank you, Mr. Lewis. The Chair would 
again thank all four members on this panel for your testimony. 
I want to thank you for all of the food that your organizations 
provided with respect to these epic disasters Rita and Katrina. 
Finally, the Chair would thank you for agreeing to work with us 
in a collaborative way to address the shortcomings. Again, 
thank you.
    Now, we call the third panel for today's hearing. Marcie 
Roth, Executive Director of the National Spinal Cord Injury 
Association; Yavonka Archaga, Executive Director, Resources For 
Independent Living (RIL); Daniel Borochoff, President of the 
American Institute of Philanthropy (AIP); and John G. Wyatt, 
City Marshal and Homeland Security Director for Bossier City, 
Louisiana.
    We can go as we traditionally do from your right to left, 
the Chair's left to right, so we will begin with you, Mr. 
Borochoff, please.

STATEMENT OF DANIEL BOROCHOFF, PRESIDENT, AMERICAN INSTITUTE OF 
                          PHILANTHROPY

    Mr. BOROCHOFF. Thank you, Mr. Chairman, thank you to the 
Committee for inviting me here. I also was invited to testify 
after 9/11, and there are a lot of lessons that fortunately the 
charities have learned from all of this.
    I am Daniel Borochoff with the AIP and Charitywatch.org, 
and we are a charity watchdog group. Since 1993 we have been 
America's most independent watchdog of accountability, 
financial governance, and promotional practices of charities. 
Our letter grade ratings, A-plus to F, of nonprofit 
organizations financial performance are published in the 
Charity Rating Guide & Watchdog Report and are utilized by 
thousands of conscientious donors across the Nation.
    Americans responded quickly and generously with over $2.5 
billion of charitable aid for victims of Hurricanes Katrina and 
Rita. The AIP is pleased to report that the Red Cross has 
improved its fundraising performance in the aftermath of the 
recent hurricanes. Though it does need to be clear about its 
financial position, it has taken to heart the many important 
lessons after 9/11.
    The Red Cross continues to be a financially efficient 
organization. It receives an A-minus grade from the AIP. It is 
able to spend 90 percent of its total expenses on programs and 
has a cost of $22 to raise $100. It is going to be a lot less 
for the current fiscal year period because of all of the 
hundreds of millions they have raised in this disaster. The Red 
Cross, unlike 9/11, has honored donor intentions by not trying 
to raise money for one disaster and then using it for another 
disaster or program. Certainly, in this case, with the 
magnitude of the disaster, they cannot be accused of raising 
too much money, because even $1 billion, when you divide it by 
a million families, it is only $1,000 per family, so it is not 
a 9/11 situation at all.
    We actually feel that the Red Cross may have gone overboard 
when it declared that it would not use money given for one 
disaster, to another disaster, for example to help Rita victims 
with Katrina funds. Being in this case that we have so many 
overlapping victims, and that the areas were devastated within 
weeks of each other, and is the same type of disaster, I don't 
feel that the American public would mind if the larger amount 
of money given for Katrina, since that got more coverage and 
that was focused in New Orleans, if some of that money was made 
available to Rita. I think the Red Cross is putting themselves 
in a difficult situation there, and it would be a shame if the 
Red Cross does not have the funding to treat similar victims 
equally.
    The Red Cross did improve its accountability by announcing 
September 9, only a few weeks after Katrina hit, its $2.2 
billion goal for providing emergency aid. They were producing 
daily statistics on how many people they were helping, how many 
meals they served. It would be more helpful if they were 
actually giving cumulative totals, if they would give you how 
much they were helping right at that time, so that people would 
have an idea of how many people currently needed help, and also 
if they would say how much money they were spending, not just 
the total number of meals or shelter stays.
    We talked about the CAN, and AIP is greatly disappointed 
that the charities were not able to get it together to 
implement a shared database. This is something after 9/11 that 
I had written about. I emphasized that we have to have this if 
we have another major disaster, and here we are 4 years later 
and we still don't have it. It wasn't functional. It is so 
important, because the information needs to be shared among the 
charities to prevent double-dipping and allow for a more 
equitable distribution of aid.
    Based on our inquiries at the AIP, some unnamed charities 
are not agreeing to sign on to the planned database. The AIP 
believes that CAN needs to disclose which charities are 
unwilling or unable to participate so that pressure from 
watchdogs and donors can help gain their participation. This is 
something important.
    Another concern that we have is that the Red Cross is the 
ultimate brand for charities; it is the Coca-Cola of charities. 
On September 23, they were able to raise 75 percent of all the 
money raised. This fell back to 65 percent come October 6. The 
Salvation Army had only raised about 18 percent of the total at 
$295 million. When we have a major scale disaster, everybody 
should not just automatically give money to the Red Cross. One 
of the beautiful things about our sector is we have many 
different groups that can help in many different ways, 
particularly the local community groups that were able to get 
to places and help particular groups, the minorities, the 
Vietnamese and so forth, that were not able to receive aid, and 
we think that the Red Cross should reimburse some of these 
community groups that have incurred costs to help people the 
Red Cross couldn't get to. So, if we have another disaster and 
we need community groups to help people, they are going to know 
there is a chance they are going to get some of that money back 
and they will be more willing to put out money to help these 
people.
    I have concerns about the Bush-Clinton Katrina Fund that 
our former Presidents have put together. They are probably the 
third largest fundraiser. They have raised about $110 million. 
They have been very quick at raising money, but slow in 
deciding what to do with it. Not until December 7, over 3 
months after Katrina, did it apply for tax-exempt status with 
the Internal Revenue Service (IRS) and announce how it will 
distribute the bulk of the funds. They are going to give $40 
million to the States. It is not clear exactly how the States, 
Louisiana, Mississippi, and Alabama, are going to spend it; $30 
million to colleges and then $20 million to faith-based 
partnerships. It is fine if they want to raise money for faith-
based groups, but they need to tell the public so the public 
knows that is what it is for, because not everybody wants to 
give to faith-based groups.
    Also, they haven't announced, since December 7th, who is 
going to be on their full governing board. This is something 
that donors need to know before they make a contribution. They 
need to know who is going to be on the board. It is a shame 
that they wouldn't tell the public that.
    The Red Cross, even outside of a disaster, uses terms to 
describe its Disaster Response Fund. They use terms such as 
empty, running on fumes, dangerously low. I have a problem with 
this because it doesn't reflect the complete financial position 
of the Red Cross.
    Here is a group with $2.2 billion net assets saying they 
have no money in their disaster fund. It doesn't mean that they 
don't have any other money available to use toward a disaster. 
It is not responsible for them to say they have no money for a 
disaster, because this implies that if there is another 
disaster they would not be prepared for it.
    Fortunately they do have money that is available for the 
next disaster. So, what they need to do and all charities need 
to do is, say what their true financial position is, or how 
much money they have available. It doesn't matter if it is 
board-designated, because the board can always undesignate it 
if they have to.
    So, charities should also consider whether such claims 
undermine our international standing as a strong and powerful 
nation by creating a false appearance of weakness and 
vulnerability on our home front. How are the people in Iraq 
going to feel if our main disaster group in the United States 
says they don't have enough money to take care of people in an 
emergency?
    The Red Cross brought up earlier about the three-tenths of 
a percent of money lost; but the Red Cross has also lost some 
money through workers and volunteers stealing. That is 
something that should be brought up.
    Chairman RAMSTAD. The Chair would, in fairness to the other 
members of the panel, remind the witness of the 5-minute time 
rule, which is a rule of the Subcommittee. So, if you could 
wrap up.
    Mr. BOROCHOFF. One quick thing. I am calling for all of the 
charities to offer a 6-month report as the Red Cross did after 
the tsunami disaster. Because of the financial reporting rules, 
it may not be until June 15th, 2007, before the Red Cross is 
required and other charities are required to publicly disclose 
their Katrina spending. Also multi-agency evaluations should be 
produced that will help make charities and donors more aware of 
victims who have been neglected or received poor services so 
more services can be directed toward them.
    [The prepared statement of Mr. Borochoff follows:]

    Statement of Daniel Borochoff, President, American Institute of 
                    Philanthropy, Chicago, Illinois

    The American Institute of Philanthropy and Charitywatch.org is a 
nonprofit charity watchdog and information resource dedicated to 
helping its members and the general public make wise giving decisions. 
Since 1993 we have been America's most independent watchdog of the 
accountability, financial, governance and promotional practices of 
charities. Our letter grade (A+ to F) ratings of nonprofit 
organizations' financial performance as published in the Charity Rating 
Guide & Watchdog Report are utilized by thousands of conscientious 
donors across the nation. During this recent crisis, the December 2004 
Asian tsunami and the September 11th terrorist attack nearly every 
major U.S. media outlet has covered AIP's advice, analyses and 
concerns.
    Americans have responded quickly and generously with over $2.5 
billion of charitable aid for victims of Hurricanes Katrina and Rita. 
The American Institute of Philanthropy is pleased to report that the 
American Red Cross has improved its fundraising performance in the 
aftermath of the recent hurricanes. Though it needs to be clearer about 
its financial position, it has taken to heart many important lessons 
from 9/11. The Red Cross continues to be a financially efficient 
organization and receives an ``A-'' grade from AIP for spending 91 
percent of its total expenses on program services and having a cost of 
$22 to raise $100. In contrast to September 11, the Red Cross honored 
donor intentions by not trying to raise money for one disaster and use 
it for another disaster or other programs. Due to the immensity of this 
disaster, the Red Cross cannot be accused of raising too much money for 
hurricane victims; even $1 billion, when spread among one million needy 
families, only amounts to $1 thousand per family.
    In AIP's opinion the Red Cross may even have gone overboard when it 
declared that it would not use towards Rita any money given to help 
with Katrina. These hurricanes had many overlapping victims and areas 
that were devastated within weeks of each other. AIP believes it would 
be fair and reasonable for the Red Cross to spend money for both 
crises, whether or not it was raised in specific response to Katrina or 
Rita. It is our view that most donors to the Red Cross wish to help the 
recent hurricane victims of the U.S. Gulf Coast, regardless of which 
hurricane struck them. It will be a shame if the Red Cross does not 
have the funding to treat similar victims of each disaster equally.
    The Red Cross also improved its accountability by announcing on 
September 19th, only a few weeks after Katrina hit, its $2.2 billion 
goal for providing emergency financial aid and other assistance to one 
million families. They also have given regular updates of basic 
statistics on the total number of evacuees to whom they have provided 
services, how much money they have raised, and how much money they have 
spent in total in the most expensive relief effort in its 124-year 
history. It would be even more helpful to donors that want to track the 
use of their dollars, if the Red Cross also regularly accounted for the 
amount spent on each type of service provided, e.g. meals, overnight 
shelter stays, mental and health contacts. The Red Cross could also do 
a better job in their updates by reporting how many people they are 
currently sheltering, feeding or offering other services to, in 
addition to how many people that they have helped in total. This 
information would give donors a better understanding of how many people 
currently are in need of Red Cross assistance.
    Unlike after September 11, 2001 when the Red Cross resisted 
participating in a shared database, in this crisis they took the lead 
in forming a new database system called CAN, or Coordinated Assistance 
Network. Unfortunately, the part of the database that was to track the 
aid each victim received from the other charities was still being 
tested when Katrina and Rita struck, according to Red Cross officials. 
The database was operational for keeping track of people's shelter 
days.
    AIP is greatly disappointed that the charities were not able to 
implement a shared database nearly four years after the experience of 
9/11 made its importance obvious. Charities need to share information 
on specific victims to prevent double dipping and allow for a more 
equitable distribution of aid. AIP strongly encourages charities to 
expedite the implementation of a shared database in preparation for the 
next disaster. Based on our inquiries, AIP understands that some 
unnamed charities are not agreeing to sign on to the planned database. 
AIP believes that CAN needs to disclose which charities are unwilling 
or unable to participate so that pressure from watchdogs and donors can 
help gain their participation.
    By September 23, the Red Cross had raised $827 million or about 75% 
of the total raised by all charities for Katrina and Rita aid according 
to a tally by the Chronicle of Philanthropy. In recognition of the need 
for more of America's charitable resources to help with this widespread 
crisis, AIP encouraged donors to also support the efforts of many other 
important charities offering innovative approaches to providing aid. We 
emphasized that while the Red Cross is the major charity for providing 
emergency, front-line services in a disaster, other charities are 
better suited to provide intermediate and longer-term assistance to 
help victims get back on their feet. AIP's message must have gotten out 
because by October 6, the Red Cross's contributions of $1.1 billion had 
fallen to 65% of the $1.7 billion raised by all the charities, 
according to figures provided by The Chronicle of Philanthropy.
    By the beginning of December, the Salvation Army had raised $295 
million, which was the second most raised by any group, yet only 18% of 
the $1.67 billion that the Red Cross had raised. Unlike the Red Cross 
which plans on using over 90% of its $2.2 billion Katrina/Rita disaster 
budget for short-term emergency needs, the Salvation Army estimates 
using about two-thirds of the disaster money that it has currently 
raised for longer term needs, possibly through August 2007.
    The Bush-Clinton Katrina Fund, which may have collected the third 
most at $110 million, has been quick at raising money but slow in 
deciding what to do with it. Not until December 7, over three months 
after Katrina hit the Gulf, did it apply for tax-exempt status with the 
IRS and announce how it will distribute the bulk of its donations. The 
former Presidents' Fund said that it will give $40 million to 
charitable funds formed by the governors of Louisiana, Mississippi and 
Alabama, $30 million for colleges and schools in the three states, and 
$20 million for a faith-based partnership, which will decide how to 
distribute it. It is surprising that it took so long to allocate these 
funds since most went to grantee organizations that are serving as 
intermediaries in deciding which organizations or people will be the 
final recipients of these donations. Also, as of December 7, the former 
Presidents' Fund has not publicly announced on its Internet site or in 
its press releases who will serve on its full governing board. Donors 
need to know this to make an informed giving decision.
    The hurricanes caused millions of people to flee and resulted in 
the largest relocation in our nation since the Civil War. It was 
beneficial that many U.S. based international relief and development 
charities recognized the need for America to utilize as much of our 
charitable resources as possible to help the evacuees. For many of 
these groups with experience aiding poverty-stricken people after 
large-scale disasters in Africa, Asia and South America, it was the 
first time that they had ever provided assistance in a domestic 
disaster. Some of AIP's top-rated international charities that have 
provided assistance to hurricane victims are Samaritan's Purse, 
AmeriCares, Mercy Corps, World Vision and Oxfam-America.
    Because of the enormous scope of this crisis the Red Cross had 
difficulty reaching some of the far-flung rural areas hit by the 
hurricanes. Fortunately, many community groups and churches stepped in 
to provide aid. AIP believes that it would be a good idea for the Red 
Cross to reimburse the documented expenses of these financially 
stretched aid groups, who do not have the ability to raise large sums 
of money outside of their communities.
    ``Empty,'' ``running on fumes,'' ``dangerously low'' are all terms 
that the Red Cross used during its 2004 fiscal year to describe the 
state of its Disaster Relief Fund. These are certainly not the terms 
that you would expect a nonprofit to be using when, according to its 
fiscal 2004 audited financial statements, it had total net assets of 
$2.2 billion. The Red Cross does not make clear in disaster fundraising 
pleas its true financial position or the amount of discretionary money 
it has available to spend on disasters.
    An analysis of the Red Cross' fiscal 2004 audit, the most recent 
available, shows that the Red Cross likely has far more money available 
for disasters than the $709,000 that it reports in its Disaster Relief 
Fund. The Red Cross reports having $1.36 billion in unrestricted net 
assets, which includes $1.08 billion designated for various purposes by 
its Board of Governors. It is important to understand that funds 
designated by a nonprofit board can be undesignated and made available 
the very next day. The funds that the Red Cross clearly can not apply 
to the recent Gulf disaster are $429 million in permanently restricted 
funds and $274 million in purpose restricted funds, identified in its 
2004 audit. Unlike funds designated by an external third party, funds 
designated by the board as an endowment can be spent by a nonprofit. 
Based on our analysis of the Red Cross' fiscal 2004 finances, AIP 
estimates that it has over $700 million that it could direct to a 
future disaster without using any money earmarked by its board for 
``biomedical services,'' ``retirement health benefits,'' ``replacement 
and improvement of buildings or equipment,'' and ``other purposes.''
    It would be wrong for the Red Cross as our nation's most important 
front-line emergency aid organization to suggest to the American public 
that it has very little available to spend for a disaster when it 
actually has available money outside of its disaster fund. It makes the 
organization appear unprepared to deal with future disasters that may 
occur before more money is raised. Charities should also consider 
whether such claims undermine our international standing as a strong 
and powerful nation by creating a false appearance of weakness or 
vulnerability on the home front.
    As in 9/11 and the Tsunami disasters, scammers jumped on the 
fundraising bandwagon. Thousands of questionable web sites purporting 
to raise money for hurricane victims were quickly thrown up on the 
Internet. Some scammers capitalized on the public's zeal to help by 
calling or emailing potential donors for their credit card information 
under the guise of fundraising for a legitimate charity. One 
particularly outrageous scam involved a Florida man without a pilot's 
license who was arrested for allegedly raising $40,000 so that he could 
purportedly continue airlifting supplies and rescuing hurricane 
victims, according to The Miami Herald. He even bragged about fake 
exploits on the Internet, including how he tipped his plane's wings in 
a salute to President Bush when he saw Air Force One flying over 
Louisiana, and rescued a 7-month-old child who needed a transplant.
    There have been many arrests and reports of aid recipients who 
falsely claimed to be hurricane victims. This is likely to happen 
because people fleeing a disaster often do not have much in the way of 
identification or paperwork to demonstrate that they are actual 
victims. The charities are in a difficult position because they must 
balance the need to get aid out quickly to legitimate victims with the 
responsibility of not wasting charitable resources on fakers or double 
dippers. Donors should realize that in a crisis situation, charities 
will not be able to stop a lot of people with false claims without 
making the bona fide victims suffer long delays for assistance. Most 
scammers will not be caught until after a charity has turned over a 
suspect's information to a law enforcement agency to research its 
truthfulness. Unfortunately, by then the money will likely be long 
gone.
    The recent news media reports of Red Cross workers in California 
and Texas being arrested on charges of stealing money intended for 
disaster victims is very disturbing. Criminals are more likely to 
target charities, particularly ones operating in a disaster or other 
chaotic situation, if they perceive that the many good-hearted and 
mission-driven people working in these organizations are not focusing 
enough attention on internal controls and other security measures. AIP 
encourages all nonprofits to be vigilant about safeguarding the 
public's donated dollars.
    AIP strongly encourages each disaster charity to issue by spring of 
2006, a 6-month report of the funds raised and spent and future plans 
in response to the Gulf hurricanes. These reports will enable donors to 
better monitor the use of their charitable contributions. The American 
Red Cross is to be commended for issuing such a report six months after 
the December 2004 tsunami. Under current IRS annual disclosure rules, 
charities are not required to submit a tax form until 5\1/2\-months 
after the end of their fiscal year and are almost automatically granted 
two 3-month extensions by the IRS. This means that charities with a 
June 30 fiscal year end, such as the Red Cross, may not be required to 
disclose how much they received and spent in response to Katrina until 
June 15, 2007.
    AIP also encourages charities to participate in multi-agency 
evaluations, such as those conducted by the Tsunami Evaluation 
Coalition for CARE International, World Vision International and other 
disaster aid groups. This will help charities improve their planning, 
coordination and communication. It will also make charities and donors 
more aware of victims that have been neglected or received poor service 
so that more resources can be directed to them.

                                 <F-dash>

    Chairman RAMSTAD. Thank you for your testimony. Ms. Roth, 
please.

 STATEMENT OF MARCIE ROTH, EXECUTIVE DIRECTOR, NATIONAL SPINAL 
                    CORD INJURY ASSOCIATION

    Ms. ROTH. Good afternoon, Chairman Ramstad, Mr. Lewis, 
Committee Members. Thank you for the opportunity to testify 
today. My name is Marcie Roth, I am the Executive Director and 
CEO of the National Spinal Cord Injury Association, the 
Nation's oldest and largest civilian organization serving the 
needs of people with spinal cord injuries and diseases.
    In our disaster relief efforts, we have been working on 
behalf of all people with disabilities, estimated at 25 to 30 
percent of those affected.
    On September 13th, 2001, I first became involved in 
addressing the urgent needs of New Yorkers with disabilities 
who had survived the terrorist attacks 2 days earlier. I was 
shocked when I discovered how ill prepared the disaster relief 
agencies were. In the past 4 years I have participated in 
efforts to better prepare for another emergency.
    On the morning of August 29th, I was asked to help Benilda 
Caixeta, who was quadriplegic. She had been trying to evacuate 
from her New Orleans home for 3 days. Even calls to 911 had 
been fruitless. I stayed on the phone with her for most of the 
day trying to reassure her. Suddenly she told me, with panic in 
her voice, the water is rushing in, and then we were 
disconnected. I learned 5 days later that she had been found 
dead floating next to her wheelchair.
    I am here today to say some other difficult things. After 
sharing some positive stories, I will focus on the most beloved 
organizations of all, the American Red Cross. It is hard to 
criticize the Red Cross. They do many good things, but they 
have frequently failed to meet the needs of people with 
disabilities while simultaneously diverting resources from 
organizations addressing those unmet needs.
    Not only has this hurt people with disabilities and the 
organizations that serve them, but it has also added an untold 
burden on taxpayers through costs associated with preventable 
secondary complications. Sadly, the needs of people with 
disabilities have been overlooked by the general public and the 
media.
    Joe Shapiro, an NPR reporter, was one of the few to report 
about people with disabilities. Thanks to a very generous 
donation from Robert and Ita Klein, who established the Brian 
McCloskey Hurricane Katrina Survivors with Disabilities Fund, 
National Spinal Cord Injury Association is able to provide some 
direct assistance. The Disability Funders Network is 
distributing $5,000 grants to meet unserved needs, and the 
Muslim Public Affairs Council stepped in to get donated medical 
equipment and supplies distributed when none of the relief 
organizations would provide funds for this.
    Several of the international wheelchair distribution 
organizations also stepped in. Thanks to the Salvation Army, 
funds were made available to assist some hurricane survivors 
who had been dumped into nursing homes. While everyone else 
argued about who was responsible, the Salvation Army provided 
funds to help survivors regain their independence.
    In contrast, many Gulf Coast residents with disabilities 
were excluded from Red Cross shelters and relief assistance 
services. Some were separated form caregivers and service 
animals and then sent to nursing homes when they couldn't 
maintain their independence.
    People with disabilities were forced to remain on buses 
while everyone else was invited into certain shelters. Then 
they were driven for sometimes hundreds of miles before being 
taken in. When disability experts showed up at shelters to 
offer assistance they were frequently turned away.
    One Red Cross official told me, we aren't supposed to help 
these people, the local health departments do that. We cannot 
hardly deal with the intact people. One woman was sent to a 
special needs shelter so overcrowded that she slept in her 
wheelchair for weeks. Ultimately this landed her in a hospital 
and then a nursing home.
    After waiting all day in line residents of one Red Cross 
shelter were told to travel to another town to register. 
Without accessible transportation though, those with mobility 
disabilities were unable to make the trip. We tried to get 
experts into the shelters to assist people who couldn't hear 
announcements over loudspeakers, couldn't read signs and forms, 
people who needed medication, people who didn't understand how 
to get food and water, and people who couldn't stand in line 
because they had lost their wheelchair or couldn't handle the 
heat.
    For weeks, one man had to drive to a hospital every time he 
wanted to go to the bathroom because the bathroom at the 
shelter was not wheelchair accessible. Most people told me that 
they had not received any financial assistance from the Red 
Cross. A few received $360. While thousands are in need of 
funds to cover basic necessities, $66 million in foreign 
donations were distributed by FEMA to nonprofit organizations, 
but these can only be used to hire staff, to train volunteers, 
and to provide case management.
    We can't even get to the tables where rebuilding decisions 
are being made by powerful housing nonprofit organizations, and 
this will result in discrimination, limited options and 
institutionalization. For all of the planning that has gone on, 
it seems that the needs of people with disabilities will remain 
unmet when the next disaster strikes.
    However, with your help, not only can people with 
disabilities begin to trust that their needs will be better met 
in future disasters, taxpayers, generous donors, and the 
general public can rest assured that we are maximizing limited 
resources and minimizing unnecessary waste.
    Thanks to you, Chairman Ramstad, the needs of people with 
disabilities and the hope of visionary leadership have not been 
lost. I know you will invite your colleagues to join you in 
prioritizing the needs of hurricane survivors with disabilities 
as next steps are taken.
    In summary, let me recommend that offices on disability 
need to be established within Red Cross, the U.S. Department of 
Homeland Security, FEMA, and in each of the Federal members of 
the Interagency Coordinating Council on Emergency Preparedness 
and People With Disabilities. They must all be staffed by 
disability experts and given authority to act.
    Congress needs to appoint an independent task force to 
focus on the disaster management needs of people with 
disabilities. Our Office on Disability at the U.S. Department 
of Health and Human Services needs more resources and more 
authority. Please don't compromise the hard won civil rights of 
people with disabilities so easily dismissed in a time of 
emergency.
    It is in Benilda's memory and with great appreciation 
toward those who have worked tirelessly over the past 15 weeks 
in the Gulf States, in Washington, in cyberspace, and around 
the country that I close with the following proverb. The best 
time to plant a tree was 20 years ago. The second best time is 
now. Thank you.
    [The prepared statement of Ms. Roth follows:]

  Statement of Marcie Roth, Executive Director, National Spinal Cord 
                 Injury Association, Bethesda, Maryland

    Good afternoon, Chairman Ramstad, Ranking Member Lewis, and 
distinguished committee members. Thank you for inviting me to testify 
on issues regarding the response by nonprofit organizations to the 
needs of Hurricane Katrina survivors.
    My name is Marcie Roth and I am the Executive Director and CEO of 
the National Spinal Cord Injury Association (NSCIA). NSCIA is the 
nation's oldest and largest civilian organization serving the needs of 
people with spinal cord injuries and spinal cord diseases since 1948.
    I am here representing NSCIA, but I want to be very clear that in 
our disaster relief efforts we have been working on behalf of ALL 
people with disabilities, including those with sensory and intellectual 
disabilities and those with mental illness and other psychiatric 
disabilities.
    And, although we are focusing on efforts to assist Americans with 
disabilities in disasters, we are also wholly committed to working with 
others who are addressing the needs of ALL people with disabilities in 
disasters in other parts of the world.
    I want to thank my colleagues in the private sector and those 
representing government, who have given those of us who are experts on 
the additional needs of people with disabilities before, during and 
after a disaster the opportunity to work alongside you over the past 
fifteen weeks as we have shared our knowledge, resources and a deep 
commitment to meeting the critical needs of as many hurricane survivors 
with disabilities as we possibly could. I am grateful to those 
individuals who have joined us around the clock, for many weeks, in a 
shared commitment to do what no one else was doing, despite their legal 
and moral obligations, to meet the additional needs of hurricane 
survivors with disabilities.
    On September 13, 2001, I first became involved in navigating 
between the Federal systems and the private sector in an effort to 
address the very urgent disaster related needs of people with 
disabilities who had survived the terrorist attacks in New York City 
two days earlier. I quickly learned that a lifetime of knowledge of the 
additional needs of people with disabilities was being called into 
action as I found myself in the breach, navigating between the very 
real needs of very real people and the limited public and private 
systems poorly designed to address those needs.
    I was shocked when I discovered how ill prepared the major disaster 
relief agencies were, and I became actively involved in efforts to 
assist those relief agencies and communities across the U.S. to better 
plan for the additional needs of people with disabilities. In the 
months and years after those terrible days, I also participated in 
efforts to assist people with disabilities to prepare for another 
emergency. I saw the creation of the U.S. Department of Homeland 
Security, the relocation of FEMA and the National Disaster Medical 
System, and many printed and Internet published materials on 
preparedness for people with disabilities, workshops and conferences on 
the topic, and many other visible signs that indicated to me that high 
level planning for the next national disaster was in good hands. I did 
my part, made recommendations when the needs of people with 
disabilities were being overlooked and voiced my concerns when it 
seemed that plans were unrealistic. Even when the ideas of disability 
and disaster experts were being met with a surprising amount of 
resistance and exclusion, I trusted that even though I couldn't always 
see it, we were ``ready.'' Just like most Americans, I assumed that the 
Red Cross and the other major relief organizations were building on 
something far more durable than sand when they published guides and 
booklets and held meetings and workshops on emergency preparedness for 
people with disabilities.
    And then, in the last week of August, I joined much of America as 
we watched with more than a little alarm as Hurricane Katrina took a 
bite out of FL and then made its way into the Gulf.
    On the morning of August 29th, I received a call that I will never 
forget and once I tell you about it, I hope you will never forget it 
either. My friend and colleague, former appointee to the Social 
Security Administration, Susan Daniels called me to enlist my help 
because her sister-in-law, Benilda Caixetta, a New Orleans resident who 
was quadriplegic, paralyzed from the shoulders down, had been 
unsuccessfully trying to evacuate to the Superdome for two days. 
Despite repeated requests to be evacuated, in her power wheelchair, 
which is a vital tool for mobility and independence, the paratransit 
system that serves the transportation needs of people with disabilities 
never showed up. Even calls to 911 had been fruitless. She was still in 
her home, she had not been able to evacuate, despite her very best 
efforts. In my naivete I thought a few phone calls to the ``right'' 
people would help, and I was sure I knew who to call. I was wrong. 
After many calls to the ``right'' people, it was clear that Benny, was 
NOT being evacuated.
    I stayed on the phone with Benny for most of the day, assuring her 
that I was doing all I could to make sure help would be coming as soon 
as possible. She kept telling me she had been calling for a ride to the 
Superdome for three days, but, despite promises, no one came. The very 
same paratransit system that people with disabilities can't rely on in 
good weather was what was being relied on in the evacuation. It's no 
surprise that it failed.
    I was on the phone with her that afternoon when she told me, with 
panic in her voice, ``the water is rushing in'' and then her phone went 
dead.
    We learned five days later that she had been found in her 
apartment, dead, floating next to her wheelchair.
    Sometimes things like this can't be prevented. Despite the 
magnitude of the catastrophe, this was not one of those times. Benilda 
did not have to drown.
    I am here today to say some other difficult things, and while there 
are many organizations worth comment, I will focus almost exclusively 
today on one of the biggest, best funded and most beloved nonprofit 
organizations of all, the American Red Cross. It feels almost 
blasphemous to criticize the Red Cross, almost like criticizing one's 
own grandparents. But, for hundreds of thousands of people with 
disabilities, the Red Cross has frequently failed to meet the greatest 
needs while simultaneously diverting donations and other resources from 
small organizations left to address a myriad of often complex unmet 
needs. Not only has this hurt people with disabilities and the 
organizations that serve them, but it has also added an untold burden 
on every taxpayer in this country, through costs associated with 
preventable secondary complications in disaster survivors, unnecessary 
hospitalization and institutionalization and failure to maximize 
limited resources to meet needs.
    Over the past 100+ days, while the rest of America and the world 
watched on TV, millions of Gulf region residents desperately tried to 
survive not only the weather, but the many human failures to follow. 
For 25-30% of those people, the additional challenges of disability, 
poor planning and low expectations made the unimaginable crisis much, 
much more dangerous.
    As the parent of two children with significant disabilities and as 
the legal guardian for an Iraqi child who was spinal cord injured in an 
accidental U.S. artillery bombing two years ago, I am acutely aware 
every day of the unmet needs of 56 million Americans with disabilities 
and hundreds of millions of people with disabilities worldwide. I am 
also acutely aware of just how rare it is that the unmet needs of 
people with disabilities are ever considered by the people who have the 
most power and the best resources to maximize positive outcomes for a 
minority population that encompasses a sizable portion of the general 
population of the United States. According to the U.S. Census of 2000, 
people with disabilities represent 19.3 percent of the 257.2 million 
people ages 5 and older in the civilian non-institutionalized 
population. Another 2.2 million Americans are institutionalized in 
nursing homes and long-term care facilities. And, it is necessary to 
point out that these are all people with disabilities. People don't go 
to nursing homes because they are old; they go to nursing homes when 
their community fails to meet their additional needs.
    Some areas of our country have an especially high percentage of 
people with disabilities. As it happens, the areas most severely 
impacted by the hurricanes were also areas with especially high 
percentages of people with disabilities living in their communities.
    According to the 2000 Census:

    <bullet>  In Biloxi, Mississippi, 10,700 people (25% of the 
residents) are classified as people with disabilities.
    <bullet>  In Mobile, Alabama, 43,000 people (24% of the residents) 
are people with disabilities.
    <bullet>  In the New Orleans metropolitan area, 250,000 residents 
(21.3%) described themselves as disabled.

    Because people with disabilities are . . .

    <bullet>  disproportionately below the poverty line,
    <bullet>  often less mobile than the general population,
    <bullet>  disproportionately more dependent on outside assistance, 
and
    <bullet>  often misjudged as less capable

    . . . this population felt the impact of Hurricane Katrina quite 
severely.
    For most of my career, since the 1970's, I have worked primarily 
for nonprofit organizations. For most of this time, serving people with 
disabilities, we have struggled to meet complicated needs with 
extremely inadequate resources. As the executive director of a 
nonprofit organization for the last four years, I am sure I have often 
fallen short. Due to the magnitude of need, the shockingly limited 
resources made available to invest in the needs of people with 
disabilities and the never changing bigotry of low expectations 
regarding the value and contributions of Americans with disabilities, I 
anticipate that the needs of my constituency will remain under-met for 
the foreseeable future. And, as long as Congress fails to ensure the 
enforcement of laws to educate children with disabilities, fails to 
address the institutional bias in Medicaid, fails to pass Money Follows 
the Person, MiCASSA, the Christopher Reeve Act and the Family 
Opportunity Act, fails to fund adequate housing, mental health parity, 
access to quality health care, equipment and services and considers 
legislation that will limit the human and civil rights of one in five 
Americans, no real progress will be made in maximizing limited 
Medicaid, Medicare, private insurance and other resources. This is both 
wrong and it is foolish public policy.
    There are many fine examples of nonprofits who have actively sought 
to meet needs by using limited resources that were intended to serve 
people who are in the greatest need even when the weather is fine. Some 
organizations, like mine have been very fortunate to have come to the 
attention of true heroes who quietly find a way to make a real 
difference. Thanks to a very generous donation from Robert and Ita 
Klein, who recently established the Brian Joseph McCloskey Hurricane 
Katrina Survivors with Disabilities Fund, my organization, the National 
Spinal Cord Injury Association, is able to replace wheelchairs, 
hospital beds, household goods, repair homes, and pay rent and 
mortgages for as many people with disabilities as our fund will stretch 
to serve. The Kleins' company, Safeguard Properties, Inc. has been 
playing a significant role in disaster and housing related services, 
and they wanted to make a generous donation to meet an otherwise 
entirely unmet need. Their recognition of the unmet needs of hurricane 
survivors with disabilities is a shining exception to the fairly bleak 
picture. Yet another is the Disability Funders Network which raised 
over $100,000 that it is distributing to small nonprofits in $5,000 
grants to meet unserved needs. Many disability organizations have had 
to tap their own limited resources to meet the needs of constituents 
who have lost everything. When we were desperate to send replacement 
equipment like wheelchairs and hospital beds to people who had to have 
them to preserve their health and we couldn't get the Red Cross or any 
of the other large relief organizations to provide funds for drivers, 
trucks and insurance, we were very fortunate to find an unlikely ally. 
The Muslim Public Affairs Council stepped in with funding to help 
Portlight Strategies to get trucks full of donated durable medical 
equipment and supplies on the road and into the hands of those who had 
lost theirs.
    As wonderful as these stories are, with not more than a few 
exceptions, the needs of people with disabilities, and their stories 
have been almost entirely overlooked by the general public. Even house 
pets have fared far better! I would be remiss if I didn't thank Joe 
Shapiro, a wonderful reporter with National Public Radio who was one of 
the very, very few to report about people with disabilities. And, 
another shining example of high quality nonprofits would be the 
formerly all volunteer Disaster Medical Assistance Teams, a part of the 
crown jewel known as the National Disaster Medical Systems.
    Most organizations like mine exist in the shadow of high profile 
nonprofits like the American Red Cross. In the days after the 
hurricanes, the American Red Cross has received a reported $1.68 
billion dollars in donations while Gulf Coast residents with 
disabilities have hardly benefited because many were excluded from 
their shelters and relief assistance services.
    Sadly, we have attempted to help the Red Cross and other disaster 
relief leaders to see that they have been in a key position to address 
this inequity since 2001, but instead, people with disabilities are 
still turned away from the Red Cross and other charity-run shelters.
    As well as the disability community has come together to try to 
take care of ``our own,'' we have been excluded from the larger relief 
community, sometimes told that we would just be ``in the way'' and 
``make things worse.'' We were told to leave the relief efforts to 
those who ``know what they are doing.'' At the same time, we received 
report after report about the Red Cross shelters turning people with 
disabilities away or separating them from caregivers and service 
animals, then sending them to nursing homes when they couldn't maintain 
their independence.
    We had many reports of people with disabilities arriving on busses 
from New Orleans and being forced to remain on the bus while everyone 
else was invited in. Then they were driven from shelter to shelter for 
sometimes hundreds of miles before being taken in.
    When disability experts showed up at the shelters to offer their 
assistance, they were frequently turned away, and we've been told that 
this was because they hadn't completed the ``required training.'' This 
was an interesting disconnect from another conversation I had.
    When I inquired about the sheltering needs of people with 
disabilities, once I was finally able to reach a National Red Cross 
Operations official, she told me ``we aren't supposed to help those 
people, the local health departments do that. We can't hardly deal with 
the ``intact'' people (this term is considered highly offensive to 
people with disabilities). Don't you understand that we're taking 
volunteers off the street to run these shelters?''
    I am told that just last week, a Red Cross official told meeting 
attendees at an AARP meeting that the Red Cross does not serve people 
with disabilities. I would have dismissed that comment entirely as mere 
gossip if I hadn't had a similar conversation.
    There are many stories, but a few stand out as especially 
egregious.
    One woman in Alabama, a college graduate who survived a spinal cord 
injury 10 years ago but was living independently until the hurricane 
struck told me she went to the Red Cross shelter as soon as it became 
clear that her home was about to flood, but she was turned away. She 
was directed to a ``special needs shelter'' but that shelter was so 
overcrowded with people who all needed additional help that she ended 
up sleeping in her wheelchair for days on end. This caused a serious 
skin condition to develop, landing her in a hospital and then a nursing 
home. Despite the $1.68 billion raised by Red Cross, she never received 
any assistance from them.
    In one town, also in Alabama, after waiting all day in line for 
assistance, residents of the Red Cross shelter were told that the only 
way to register for assistance was to leave the Red Cross shelter and 
travel to another town. But there was no accessible transportation 
offered so those with mobility disabilities were unable to seek 
assistance.
    Jason and his mom, displaced from New Orleans to Dallas, sent us 
the following email three weeks after the hurricane:

          ``To Whom It May Concern:
          Presently, Jason (SCI, 11 years post) and I are homeless and 
        living in a Salvation Army Shelter due to Hurricane Katrina. We 
        had to leave our home, and all of Jason's medical equipment 
        (i.e. his hospital bed, electric wheelchair, hoyer lift, etc.). 
        Since I am in a public place using one of the laptops that they 
        have made available to us, I will not be able to write a long 
        letter explaining all of our business. But I am writing now 
        because we need some financial help.
          Because we don't live in one of the shelter sites, we are out 
        of the loop of things that are going on. We have not been able 
        to secure clothes or any basic funding. FEMA is taking a long 
        time to help and we are missing out on everything because we're 
        not able to get around. Jason is using an old manual wheelchair 
        and I have to push him everywhere. This has been a strain on me 
        also.
          If you can help us, please contact us. Any help we can get 
        would be appreciated. We are desperate, so I'm grasping at any 
        and all past contacts. Normally, I would never find myself in 
        this sort of begging position. But this has been anything but 
        normal. People's lives were totally shattered. Families were 
        torn apart. Please help us.''

    Jason ended up in the hospital for weeks as a result of the lack of 
medical equipment and supplies.
    We worked around the clock for weeks to try to get disability 
experts into the shelters to assess the needs of people who couldn't 
hear the announcements over loudspeakers, or see the signage that 
directed them to assistance, people who were losing critical stability 
because they didn't have access to medication to treat their mental 
illness, people whose eyes and kidneys and hearts were being attacked 
because they didn't have insulin, people who didn't understand what 
they needed to do to get food and water because of an intellectual 
disability and people who couldn't stand in line for seven hours, or 
even seven minutes because they had lost their wheelchair during the 
evacuation. People housed in alternative settings were excluded from 
the myriad of relief programs at the shelters and unable to gain equal 
access to resources vital to survival and prevention of secondary 
complications.
    People without their wheelchairs, walkers and canes couldn't stand 
in line. In the heat, many people were unable to wait for hours to be 
assisted and so those with the direst needs often had the least 
assistance.
    Some people, who need additional supports to maintain their 
independence, were forced to go to special needs shelters while family, 
other caregivers and even service animals were denied access to offer 
assistance. Once independence was compromised, people were 
institutionalized. I am told that many, many of these people have still 
not been located!
    One man in east Texas told us about having to drive from a shelter 
to the local hospital for weeks, every time he had to go to the 
bathroom because the bathroom at the shelter was not wheelchair 
accessible.
    In a recent report by the National Organization on Disability: 
``The most underserved group [in shelters] were those who were deaf or 
hard of hearing.''

          Less than 30% of shelters had access to American Sign 
        Language interpreters.
          80% did not have TTYs.
          60% did not have TVs with open caption capability.
          Only 56% had areas were oral announcements were posted. 
        ``This meant that people who are deaf or hard of hearing had no 
        access to the vital flow of information.''

              (Report on SNAKE Project, Oct. 2005.)

    There are no estimates of the numbers of people with disabilities 
who were turned away from the shelters, those who were sent to nursing 
homes and institutions and those who were able to evacuate to locations 
other than shelters, sometimes further isolating them from the vital 
services they needed to protect their independence and their health.
    Recently, when I asked people how much financial assistance they 
received from the Red Cross, 70% told me they had not received any 
assistance and of those who had, most reported receiving $360. The 
highest amount received was reported by one man who received $680.
    And while thousands remain homeless and in need of financial 
assistance to cover mortgage payments, rent, utilities and basic 
necessities, just recently, I learned that $66,000 in foreign donations 
have been given by FEMA to the United Methodist Committee on Relief 
(UMCOR) and the National Voluntary Organizations Active in Disaster 
(NVOAD).
    The case management program, promises to ``assist disaster 
survivors with unmet needs'' but none of the $66M can be used to meet 
those unmet needs, rather the $66M will be used to hire paid staff who 
will hire volunteers to provide ``case management'' to 100,000 
hurricane survivors. No efforts seem to have been made to reach out to 
disability service provider experts to participate in this project, and 
in fact, the website for the project and the instructions for 
responding to the RFP are not accessible, even though accessibility is 
required. Even the telephone is a problem for many as it is a New York 
number and there is no 800 or TTY line. I have to wonder if the $66M 
would have been better allocated to pay rent and child care so people 
can get back to work and get on with their lives instead of meeting 
with more volunteers. And, for people with disabilities, I wonder how 
skilled volunteers will be at navigating complicated systems that 
regularly confound experts. I have to wonder if this plan will decrease 
or increase unnecessary institutionalization!
    Along with everyone else, I have learned over the past three and a 
half months that for all of the planning that has gone on, people with 
disabilities are not in good hands and without immediate and bold 
steps, their needs will remain entirely unmet just as soon as the next 
disaster strikes. I wish that generic systems were capable of holding 
the very specific and often complex needs of people with disabilities 
in the foreground as they make quick and sweeping decisions, but in a 
country that still thinks nursing home placement trumps community based 
care for people with disabilities on a sunny day, it is obvious that we 
can't rely on generic decisionmakers to make smart decisions about the 
needs of people with disabilities in the midst of disaster.
    We have learned that just as we can't expect well-intentioned 
medical and public service personnel to adequately address the complex 
needs of people with disabilities in day-to-day situations, without a 
deep and thorough understanding of the tenets of independent living and 
self-determination or absolute clarity about the human and civil rights 
of people with disabilities, we also can't expect these dedicated 
community members to understand the complexities of meeting the 
additional needs of people in the midst of disaster.
    However, with some smart investments, not only can people with 
disabilities begin to trust that their needs will be better met in 
future disasters, taxpayers, generous donors and the general public can 
rest assured that we are maximizing limited resources and minimizing 
unnecessary waste.
    In fact, amidst all of the projections of huge additional costs to 
meet the real needs of our citizenry in a disaster, there is clearly an 
opportunity for visionary policymakers to SAVE tax dollars while 
maximizing limited resources, now, who could possibly argue against 
that! Thanks to you Chairman Ramstad, the needs of people with 
disabilities, and the hope of visionary leadership hasn't been lost. I 
know you will invite your colleagues to join you in prioritizing the 
needs of hurricane survivors with disabilities as next steps are taken.

Recommendations to the Red Cross
     1.  Issue additional guidance to shelters regarding their legal 
and ethical obligation to serve people with disabilities.
     2.  Establish an Office on Disability, and staff it with 
disability experts known to the disability community as strong leaders 
with a track record of meeting the additional needs of people with 
disabilities in a disaster. Give that Office direct access to the CEO 
of Red Cross, power and adequate funds, support staff and other 
resources.
     3.  The in-take forms used for people coming into shelters must be 
revised so that disability-specific information is collected.
     4.  Training and leadership is urgently needed to provide guidance 
to Red Cross employees and volunteers regarding their obligations to 
serve people with disabilities.
     5.  Actively pursue partnerships with disability related 
organizations.
     6.  Every shelter must have at least one volunteer on duty at all 
times who is knowledgeable about identifying individuals with 
disabilities when they arrive at the shelter, helping to identify that 
individual's needs and then helping with or directing those individuals 
to appropriate assistance.
     7.  People with disabilities must be carefully tracked, and so 
must their equipment. When they leave a shelter, there must be 
information kept on file about where they were sent.
     8.  Nursing homes and institutions must be alternatives of last 
resort and never used for more than temporary shelter for previously 
independent people, and those receiving their supports and services in 
the community.
     9.  In the future, why not put all shelter services in the same 
building, rather than separating people with additional needs from 
their family and limiting natual supports that may mean the difference 
between dependence and independence.
    10.  The American Red Cross needs to increase its capacity to use 
technology at all levels.

    The very same housing crisis that has kept hundreds of thousands of 
people across the U.S. in restrictive living environments is now 
putting previously independent and self-sufficient disaster survivors 
in hospitals and nursing homes for lack of appropriate housing that 
allows them to use a bathroom and sleep in a bed. We are still working 
to get to the tables where key decisions are being made about temporary 
and permanent housing. We have been trying to get to those tables with 
powerful housing nonprofit organizations who have access to substantial 
funds for rebuilding. We are trying to talk about universal design, 
accessibility and visitability. We've been attempting this since it 
first became apparent that housing would be a critical need. Yet, even 
today, housing decisions are being made that will result in 
discrimination, further limited options and institutionalization of 
people who could and should be in our communities and in our workforce.
Additional Requests:
    Please encourage the appropriate Committees in both the House and 
Senate to hold additional oversight hearings on topics within their 
jurisdiction. For example, Medicaid would be an important topic for an 
oversight hearing.
    Many nonprofit organizations that already operate without adequate 
resources have had to use their limited funds to address the needs of 
disaster survivors with disabilities as well as their usual 
constituency. Supplemental funds need to be given to these groups to 
support their continued viability to serve our communities now and in 
the future. These organizations, independent living centers, local 
chapters of national organizations, protection and advocacy systems, 
etc. are at the heart of the solution. We know this; let's make sure we 
support what IS working.
    PLEASE do not allow ANYONE to convince you to compromise the hard-
won civil rights of people with disabilities. Our rights remain fragile 
even today, and these rights are easily overlooked or dismissed in a 
time of emergency. This is illegal but if that isn't enough it's also 
costly. Be good stewards of tax and donor dollars! Just say no to 
limiting or violating the civil rights of people with disabilities!
    Hurricane survivors are afraid that the rest of us are getting 
``Katrina Fatigue.'' I encourage you to join me in assuring our fellow 
citizens that while THEY are entitled to Katrina Fatigue, they can 
count on the rest of us to stay focused and keep things moving forward.
    It is in Benilda's memory and with deep appreciation towards those 
who have worked tirelessly over the past fifteen weeks in the Gulf 
States, in Washington, in cyberspace and around the country that I will 
close with the following Chinese proverb:
    The best time to plant a tree was 20 years ago. The second best 
time is now.
    Thank you for the opportunity to speak to you today.

                                 <F-dash>

    Chairman RAMSTAD. Thank you very much, Ms. Roth. We 
appreciate your testimony. Ms. Archaga.

STATEMENT OF YAVONKA ARCHAGA, EXECUTIVE DIRECTOR, RESOURCES FOR 
                       INDEPENDENT LIVING

    Ms. ARCHAGA. Chairman Ramstad, Ranking Member Lewis, and 
Representative McCrery and all other Members present, thank you 
for giving me the opportunity to testify here today on this 
vital issue.
    Resources for Independent Living is the center that I 
represent. I am the Executive Director. This center has been in 
operation for over 15 years. We provide an array of services to 
individuals with disabilities.
    Those services include the four core services: Information 
referral, advocacy, peer support and independent living skills 
training. In addition RIL is one of the largest personal care 
attendant services organizations in the southeast region of 
Louisiana.
    I will discuss the services we provide outside of our 
normal scope of operation due to the catastrophe and the 
devastation of Hurricane Katrina. It became so apparent to us 
days after landfall that our center's services were transformed 
by the overwhelming unmet needs identified by individuals with 
disabilities. Although the shelters provided housing and food 
for individuals with disabilities, we had to step in and fill 
in the gaps.
    RIL delivered durable medical equipment and transported 
consumers to sites where they could receive other social 
services such as food stamps, Social Security disbursements, 
unemployment information and benefits. In addition we also 
provided clothing, adaptive accessible equipment, food 
packages, and so forth, to consumers within the shelter.
    Our center identified the immediate needs of the consumers 
and we responded. Our jobs were made more challenging, 
gentlemen, by the lack of accessibility in the shelter. It is 
disconcerting that decades after Section 504 was passed, access 
to shelters, which in many cases are operated by organizations 
that are recipients of Federal funding, remains at best 
problematic.
    Accessibility is not only defined in the ability to 
physically get into a building, but also by the ability to meet 
the basic living needs of persons with limited mobility in 
preparation for people with disabilities in the event of a 
disaster.
    According to the National Council on Disability, of the 
484,000 residents in New Orleans before Hurricane Katrina, 23 
percent of those individuals were people with disabilities. 
Charities such as the Red Cross need to find a way to obtain 
expertise about the needs of persons with disabilities and must 
develop and implement disaster response plans specific to 
addressing the needs of the disabled community.
    In order to respond in a way that meets the needs of 
persons with disabilities, the Red Cross needs to rethink its 
operating principles. Increasingly the disabled community 
operates based on an independent living philosophy that 
promotes maximizing independence and maximizing an individual's 
control over their own lives and support networks in settings 
that are as close to fully integrated as possible.
    Furthermore, the Red Cross and other charities needs to 
embrace this element of independent living philosophy. Many 
persons with disability have pets and working dogs, caregivers 
and assistive technology. Charities must develop procedures to 
provide reasonable accommodations and work with the disability 
community to ensure that volunteers are well versed in these 
policies.
    Problems in service gaps encountered by people with 
disabilities in shelters operated by charities, including the 
Red Cross:
    The Red Cross shelters were not equipped with interpreters. 
They were not equipped with materials in alternative formats. 
They did not have durable medical equipment and accessible 
communication equipment and specifics on dietary needs of 
consumers.
    Consumers were isolated and not offered services specific 
to their needs. Staff and volunteers did not have the skills, 
training and knowledge to work with the disabled community. The 
staff and/or volunteers did not perform basic needs assessments 
to determine the types of disabilities individuals had to 
determine if the consumers had adequate medication on hand or 
to determine if consumers were on a restricted diet.
    Individuals were often denied entry into shelters if they 
had a service animal or significant adaptive equipment or were 
separated from their families and caregivers in the process of 
obtaining shelter and placed into institutions or recommended 
to go to institution.
    Problems that my organizations experienced:
    Representative McCrery, I understand what you were going 
through because I was on the ground as well. It was very, very 
difficult, gentlemen, for us to get in, and then also to 
respond with short notice. Planning is very vital, and we need 
to be at the table with everyone, and we need to know, because 
the second wave that is coming, gentlemen, is the next 
hurricane season. We have to be prepared. We have to be ready. 
All of us have to be on the same page.
    Referrals of consumers by FEMA to our organization:
    It is interesting that our organization was a referral base 
for FEMA, and we took the calls for individuals with 
disabilities. We had a loss of power. Our office was hit from 
the hurricane as well, but we had to do what we had to do to 
respond to the community. We don't have the resources that an 
organization like the Salvation Army or the Red Cross may have, 
but we did the best that we could do in light of what was 
needed.
    In conclusion, we know that the Red Cross and other 
charities are operated with the best intentions who want to do 
the right thing. However, substantial reform is needed in the 
way that these agencies deliver their services and operate 
their shelters to ensure that persons with disabilities already 
caught up in the tragic circumstances of a natural disaster, 
such as a Hurricane Katrina, don't have the tragedy compounded 
by avoidable human error in the aftermath.
    Persons with disabilities make up nearly one-fifth of the 
Nation's population, and charities need to be responsive to the 
needs of those who they are charged to serve, beginning with 
the compliance of Section 504.
    [The prepared statement of Ms. Archaga follows:]

    Statement of Yavonka Archaga, Executive Director, Resources for 
               Independent Living, Baton Rouge, Louisiana

Introduction
    Chairman Ramstad, Ranking Member Lewis, and all other members 
present, thank you for giving me this opportunity to testify here today 
on this vital issue.
    Resources for Independent Living, Inc. (RIL) is a Center for 
Independent Living, which has been serving the Greater New Orleans and 
Baton Rouge areas for over 15 years. RIL offers an array of quality, 
consumer-controlled services to individuals with disabilities to assist 
them with living independently. These include the four core services of 
information and referral, advocacy, peer support and independent living 
skills training. In addition, RIL operates one of the largest personal 
care attendant services in the southeast region of Louisiana.
    Once the devastation of Hurricane Katrina became so apparent within 
days after its landfall, our Center's services were transformed by the 
overwhelming unmet needs identified by individuals with disabilities. 
Although the shelters provided housing and food for individuals with 
disabilities, RIL had to fill in the ``gaps.'' RIL delivered durable 
medical equipment and transported consumers to sites where they could 
receive other social services such as food stamps, SSI disbursements, 
unemployment information, etc. In addition, RIL provided consumers with 
clothing, adaptive/accessible equipment, food packages, etc. Our Center 
identified the immediate needs of the consumers and responded. Since 
addressing gaps in services and supports that limit individuals' 
ability to live independently and empowering these individuals with the 
resources they required to make informed decisions on matters of vital 
importance, is consistent with the independent living philosophy, we 
worked days and nights, weekdays and weekends to make certain that 
their needs were met to the maximum extent possible.
    Our jobs were made even more challenging by the lack of 
accessibility in the shelters. It is disconcerting that decades after 
Section 504 was passed, access at shelters, which are in many cases 
operated by organizations that are recipients of federal funding, 
remains, at best problematic. Accessibility is not only defined by the 
ability to physically get into and out of a building, but also by the 
ability to meet the basic living needs of persons with limited 
mobility--such as having accessible restroom and dining facilities. In 
many cases, shelters were not physically accessible to persons with 
disabilities. And in many more cases the shelters were unable to make 
their programs accessible to persons with disabilities or to meet basic 
living needs of persons with disabilities. Given the demographics that 
I will point out below, these failures reflect a systemic problem, 
which cries out for change.

Preparation for People with Disabilities in the Event of a Disaster
    In preparing for disasters, charities such as the Red Cross must 
consider the special needs of the disabled community as a central part 
of the planning process. Since persons with disabilities make up a 
large percentage of the population both in my region and across the 
nation, this must be factored into the planning and preparation 
process, BEFORE the next disaster--rather than after.
    According to the National Council on Disability, of the 484,000 
residents of New Orleans before Hurricane Katrina, 23.2 percent of the 
population or 102,122 are people with disabilities. This means that 
there are 102,122 people with disabilities 5 years of age and older who 
live in New Orleans. About 10 percent (or 12,000) of them are people 
ages 5 to 20 years old; 61 percent (or 63,000) of them are aged 21 to 
64 years old; and 29 percent (or 27,000) of the people are 65 years of 
age and older. The statistics are as compelling in other parts of the 
region hit by Katrina and Rita. In Biloxi, Mississippi, a city of 
around 50,000 residents, 26 percent of the population has disabilities. 
This means that there are 10,700 people with disabilities 5 years of 
age and older who live in Biloxi. In Mobile, Alabama, a city of 198,915 
people, 24 percent of the residents are people with disabilities. This 
means that there are 43,000 people with disabilities 5 years of age and 
older who live in Mobile.
    Among the 102,122 people with disabilities living in New Orleans 
are residents who are blind, people who are deaf, people who use 
wheelchairs, canes, walkers, crutches, people with service animals, and 
people with mental health needs. At least half of the people with 
disabilities in New Orleans who are of working age are not employed. 
Many of the people rely on a variety of government programs such as 
Supplemental Security Income and Medicaid to help them meet their daily 
service and support needs.
    Charities such as the Red Cross need to find a way to obtain 
expertise about the needs of persons with disabilities, and must 
develop and implement disaster response plans specific to addressing 
the needs of the disabled community. These plans must include 
individual needs assessments, and identification of resources, such as 
those who are knowledgeable in meeting the needs of the disability 
community, surrounding the disaster area to ensure a more immediate 
response to requests being made. Charities must work with federal, 
state and local emergency management officials to ensure that shelters 
are sited in accessible locations (consistent with the obligations of 
recipients of federal funding under Section 504 of the Rehabilitation 
Act of 1973), have readily available interpreters, are prepared to 
provide essential communications in alternative formats, and provide 
accessible transportation, durable medical goods, medical equipment, 
and accessible communication equipment to those who need them. These 
items are vital to assisting the disabled community in responding to a 
disaster.
    In order to respond in a way that meets the needs of persons with 
disabilities, the Red Cross needs to rethink its operating principles. 
Increasingly, the disabled community operates based on an independent 
living philosophy that promotes maximizing individuals' control over 
their own lives and support networks in settings that are as close to 
fully integrated as possible. A balkanized system of Red Cross shelters 
and ``special needs'' shelters makes no sense in most cases. 
Furthermore, the Red Cross and other charities need to embrace elements 
of the independent living philosophy. If they do not have the capacity 
to assist consumers in locating case management and provider agencies, 
doctors, family members and friends, then they need to develop 
databases of these resources and contract those responsibilities out to 
those who are experienced in the field.
    Finally, many persons with disabilities have pets or working dogs, 
caregivers or assistive technology. Charities must develop procedures 
to provide reasonable accommodations and work with the disability 
community to ensure that volunteers are well versed in these policies.

Problems and Service Gaps Encountered by People with Disabilities in 
        Shelters Operated by Charities Including the Red Cross
    The Red Cross shelters were not equipped at all with interpreters, 
materials in alternative formats, durable medical equipment, and 
accessible communication equipment or dietary items. Consumers were 
isolated and not offered services specific to their needs. Staff and 
volunteers did not have the skills, training and knowledge to work with 
the disabled community. The staff and/or volunteers did not perform 
basic needs assessments to determine the types of disabilities 
individuals had; to determine if the consumers had adequate medication 
on-hand; or to determine if the consumer was on a restricted diet. 
Individuals were often denied entry to shelters if they had service 
animals or significant adaptive equipment, or were separated from their 
family or caregivers in the process of obtaining shelter.
    Consumers were ``delivered'' to the shelters by buses from the 
affected areas. Once the consumers were ``checked in'' they were 
informed that they would receive information from social service state 
agencies. As my staff visited the shelters, they did not get to see 
anyone at the shelters except the staff and volunteers for many days 
after the storm. Once my staff reached the consumers in the shelters, 
they continuously expressed their frustration regarding the lack of 
assistance they were receiving and their inability to contact and 
communicate with state and federal agencies designated to assist them. 
Sometimes persons with disabilities were separated from caregivers, 
loved ones, essential durable medical equipment/assistive technology, 
and/or service animals. Finally, individuals with disabilities were 
often moved from shelters into institutional settings without paperwork 
noting where they were going, and without any way of applying for FEMA 
assistance or other benefits for which they may have been eligible. 
Even now, CMS only has a vague idea of where persons with disabilities 
who have been institutionalized in the aftermath of Katrina were sent. 
As a consequence, we still have been unable to locate many of those 
persons with disabilities who were consumers of our CIL before 
Hurricane Katrina hit. This is inexcusable and should never be repeated 
again.

Problems Resources for Independent Living Encountered in Accessing 
        Shelters
    Our Center was denied access to the Red Cross shelters. We held a 
staff meeting and decided that it was vital for us to get inside the 
facilities, thus we set out to convince the Red Cross staff that we 
were social service employees with skills, training and knowledge 
regarding the disabled community that they lacked. After many days of 
rejection and many days of persistence we were finally allowed inside. 
Once inside we were stunned to see the lack of services being offered 
to the persons with disabilities. We began conducting basic assessments 
of needs and begin delivering goods to the shelters for consumers.

Ongoing Problems and Need for a New Approach to Emergency Management 
        for Persons with Disabilities by Charities Including the Red 
        Cross
    Although the Red Cross is more visible than they were immediately 
following the storm, many inconsistencies in the service delivery 
remain. Consumers with disabilities are still waiting for services. 
Following the storm, the Red Cross would advertise locations but once 
we would go to the location it would be closed for various reasons. 
Consumers are not clear as to the role of the Red Cross. Consumers 
expected the Red Cross to make assessments of their need. Once the 
needs were identified the consumers expected the Red Cross to fulfill 
their requests. This did not occur.
    Also, the Red Cross needs to break down their mindset of ``separate 
but equal'' services to persons with disabilities which leads to the 
division of shelters into standard and special needs shelters. The 
special needs shelters are operated by primarily faith-based local 
charities, which despite the best of intentions often suffer from the 
same ignorance of the needs of persons with disabilities and the same 
lack of knowledge about the independent living philosophy and resources 
for persons with disabilities in their communities as the Red Cross. 
Having two sets of shelters, neither of which are staffed by people 
knowledgeable in meeting the needs of persons with disabilities defies 
common sense and undermines accountability.
    One set of integrated services responsive to the needs of persons 
with disabilities makes far more sense. The Red Cross has sometimes 
argued that the special needs shelters are necessary because they need 
to focus on mass care. But the reality remains that during Katrina, 
many people with disabilities wound up in the general population 
shelters because they have invisible disabilities such as diabetes and 
other chronic conditions, mental health considerations, etc. that are 
not readily identifiable. Regardless of the degree of effort by the Red 
Cross, persons with disabilities will keep winding up in the general 
needs shelters in future disasters. The Red Cross would be well served 
to adjust to this reality and rethink its service delivery structure 
accordingly.

Referral of Consumers by FEMA to Resources for Independent Living
    Our New Orleans location, which hosts our main computer server, was 
damaged by the storm. As a result of the equipment failure, our Baton 
Rouge office did not have data or voice communications for about a 
month. We communicated through our cell phones, a mode of 
communication, which was severely limited due to storm damage to the 
cell phone towers. Once we got our phone system to work we began 
getting numerous calls from disabled consumers who stated they have 
been referred to our Center by FEMA.
    Centers for independent living do their utmost to assist each 
individual in need in order to remain or become independent in the 
community. Despite limited resources and the above-mentioned 
circumstances we remain committed to doing as much as we can.
    We did our best to respond to each caller but we are not equipped 
to service as large of a population with as numerous requests as we 
were getting. Our usual personnel complement and budget were inadequate 
to the need that was referred in our direction and we lacked access to 
financial resources due to our data communication problems.
    Needless to say, we worked many nights and weekends with limited 
resources and supports. As of today, we are still receiving referrals 
from FEMA. It is unfortunate that we are placed in a position to 
respond without receiving the funds to adequately perform the tasks 
expected. The Red Cross and other nonprofits receive funding to meet 
the needs of 100% of the population. Yet we have heard the Red Cross 
state that it is not their responsibility to meet the needs of persons 
with disabilities--over 23% of the population. Either the Red Cross and 
other entities need to restructure their service delivery in a manner 
that makes us partners in the process (for example, by contracting with 
centers for independent living in emergency situations) or Congress and 
FEMA need to explore ways of ensuring that organizations such as ours 
that are called upon to meet these needs in the aftermath of a disaster 
have funding and resources that match existing needs.

Conclusion
    We know that the Red Cross and other charities are operated by 
individuals with the best of intentions, who want to do the right 
thing. However, substantial reform is needed in the way that these 
agencies deliver their services and operate their shelters to ensure 
that persons with disabilities already caught up in the tragic 
circumstances of a natural disaster such as Hurricane Katrina do not 
have that tragedy compounded by avoidable human error in the aftermath. 
Persons with disabilities make up nearly one-fifth of the nation's 
population and charities need to be responsive to the needs of those 
whom they are charged to serve--beginning with compliance with Section 
504 of the Rehabilitation Act. It is vital for charities to get to know 
the major players in the disability community. Charities must develop 
ongoing relationships with Independent Living Centers, Advocacy 
Centers, and Social Service agencies to assist them in effectively 
providing services to consumers. Charities need to learn about concepts 
such as the independent living philosophy and consumer control and 
either integrate these concepts into their own service delivery models 
or contract with those familiar with these models to address the 
specialized needs of persons with disabilities.
    I look forward to answering any questions that you may have.

                                 <F-dash>

    Chairman RAMSTAD. Thank you, Ms. Archaga. Mr. Wyatt, 
please.

    STATEMENT OF JOHNNY G. WYATT, CITY MARSHAL AND HOMELAND 
           SECURITY DIRECTOR, BOSSIER CITY, LOUISIANA

    Mr. WYATT. I am Johnny Wyatt, Bossier City Marshal. I have 
been marshal for 15 years. I have been Homeland Security 
Director 6 months. Of that 6 months, half of it has been under 
fire.
    I would like to speak to you from my heart. I feel very 
fortunate to sit at this table with great colleagues. I have 
heard a lot of the testimony through the whole Committee today. 
There are some things that I would like to tell you up front I 
did wrong.
    Everybody kept talking about what went right. Well, it 
didn't go right all the time. I ran a shelter that had 270,000 
square feet. The largest contingency at night I had was a 
little over 1,400. I don't know how many thousands went through 
the shelter.
    My biggest problem is in preparing to come here and doing 
interviews with the Red Cross, OEP, the mayor's staff and 
everybody that was involved in our shelter. Some things came to 
light that I would like to share with you.
    One, I was pretty shocked to believe that the Red Cross 
informed me that the reason it took them 7 days to start 
feeding the people at Centurytel was they were allowing the 
faith-based community to do what they could.
    When I asked the question, are you telling me the idea of 
Red Cross is to let all of the charitable people do the best 
they can and when we exhaust that then you step forward, it was 
devastating to me, which meant when Red Cross closed their last 
shelter I still have people in hotel rooms, I still have all of 
the people who came forward and helped us at the beginning, who 
have depleted their funds now.
    Now, according to statistics, those shelters are closed and 
those needs are not met. I was shocked to know when they told 
me, oh, we could have started feeding them the first day. 
Really? No one was there. We called on the churches, who fed 
them for 7 days. We got cots from Red Cross only to find out 
that General Motors bought them.
    The point I am trying to make is we ran into some 
logistical problems running the shelter. I had never run a 
shelter. I can tell you when I took over the shelter I thought 
it was the worst assignment I could ever have had. Ten days 
later, I would have paid anything to be the shelter manager. It 
was unbelievably a great lesson in humility and gratification.
    There were some fallacies. I saw them, like you talked 
about. I had a blind man's dog taken away from him. I stopped 
that. Broke every Federal rule there ever was. Okay. The man 
finally gave up the dog because the dog was as scared as he was 
in a room with 500 people.
    Okay. The Gideons weren't allowed to bring Bibles in. I 
stopped that. They came in.
    They did not like the idea of us having Catholic services. 
We did; we had mass; we had a Protestant service; we had 
Alcoholics Anonymous (AA); we had Narcotics Anonymous (NA) 
meetings. We did what that community needed. We had 1,400 of 
our neighbors from the south, scared, hungry and lonely. That 
is what we had.
    It was real hard working with these people when you were 
doing everything you could 24/7, and then to find out after the 
fact that things broke down. Now, the truth of the matter is, 
Congressman McCrery--and I know that the Congressman wouldn't 
want me just bragging on him--but in our area in the northwest 
corner, all of the leaders worked very well together through 
OEP. We rewrote the book. The book had not been revisited since 
1998. We threw it away. We started fresh.
    The only person we could get to, to get communications 
statewide for us was Congressman McCrery's office. If it had 
not been for him we would have really been in trouble. Some of 
the things that bother us, as they were talking about here, is 
when you have a national organization, such as the Red Cross or 
anyone else, you have got to be able to be flexible enough to 
adapt to the people's needs, such as when the Philadelphia 
House was stopped from coming in to help the HIV patients. That 
is insane.
    Those type of things we corrected as we found them, but the 
problem is, when you come back and say we had a full triage at 
our place, we had doctors on scene, we could have all kind of 
medical help. They told me, oh, we could have provided it too. 
I said, why didn't you provide medical help? Well, you did not 
need it. In fact, when they called and said we have medical 
help available to you, I turned it down. I said, I can't 
believe you turned it down. They said, yes, you already had 
that provided. I said so let me see if I understand.
    I take away from all of my hospitals and all of my 
emergency rooms and all of my space, and I am doing it, we are 
handling it, and you could have stepped up and relieved some of 
that? Your answer is, we need to involve the community more. 
Well, the community was involved. I will have to tell you, we 
made a lot of mistakes.
    I can tell you I have learned from it. I heard a lot of 
questions asked today, and I am going to close very quickly 
with this. We are in the process of constructing a 50-by-150 
foot structure that will house 3- to 400 cots, bedding, 
clothing, water, food, everything necessary for 3 to 5 days, 
because in Bossier, we know one thing. We are not going to get 
any help for 3 to 5 days. If we don't own it, we don't get it.
    I bought the first six wheelchairs for Centurytel. Before 
Centurytel closed somebody gave us 50. I only needed 10. So, it 
is a matter of organizing and putting a leader in charge. I 
believe you have to come up with whoever the first person is to 
step up and say I am in charge, right or wrong it all goes 
through me, and that way everybody can coordinate those 
activities. You know where to get the wheelchair.
    The very blind man that was there, I had to mail him his 
cane 10 days later. I put him on an airplane to his brother, 
but I got the stick to him for the blind man 10 days late. Now 
that is crazy.
    I had an autistic child in a room with 500 people sleeping. 
Do you know what that poor child's sensory overload was? We 
would take her aside into a restroom where she could touch 
animals and feel safe. I had a Down's Syndrome man that I 
couldn't place in a nursing home because the caretaking mother 
who was 75 and his brother, which was 4 years older, did not 
qualify.
    So, we finally found residents. So, what I am saying to you 
is, our pleas here are not to lay blame. Our pleas here are for 
you to take an action, Mr. Chairman, representing our 
government that says, this person is in charge, and we are all 
going to work with this person. If you don't work with him, 
there are going to be penalties because we cannot afford to 
ever have a tragedy like this happen again.
    [The prepared statement of Mr. Wyatt follows:]

   Statement of Johnny G. Wyatt, City Marshal and Homeland Security 
                   Director, Bossier City, Louisiana

    On Saturday September 3, 2005, at 8:30 a.m., I became the Incident 
Commander for the Centurytel Center Shelter by request of Mayor Lo 
Walker.
    The Centurytel Center is an oval building similar to the Superdome 
in New Orleans, LA. The arena will hold some 15,000 seated. During the 
crisis, our largest count revealed that we had just over 1,400 
neighbors, children included, from the south sleeping in our shelter.
    We initially started providing security check-in, medical triage, 
shower/restroom, clothes, and food. This would be accomplished the 
first day with the help of the First Baptist Church, which provided 
food, cots and clothes, and Willis Knighton Hospital, which provided 
full triage with medical staff, not the Red Cross or any other 
organization.
    The Office of Emergency Preparedness and the Red Cross were 
contacted and asked for volunteers to help the staff of police 
officers, firemen, and Deputy Marshals that had taken over all the 
responsibilities of the shelter until we could be approved as a Red 
Cross shelter.
    Volunteers from the area and local churches immediately started 
working with the firemen to set up cots with bedding, while others 
opened up the kitchen to start preparing and serving food from the 
local churches. We operated 7 days utilizing the food services of the 
local churches before the Red Cross secured a contract to begin 
supplying food to the neighbors in the shelter.
    Because of the prior working relationships with local Sheriffs, 
Chiefs of Police, Fire Chiefs, Mayors, hospitals and churches, we were 
able to obtain any and all of our needs within the first 72 hours while 
we were operating on our own. We established communication with Patrick 
Jackson, Head of the National Guard for the local area who was 
stationed in Baton Rouge, who helped coordinate transfers from his area 
to ours. D.C. Macham, of the Bossier Parish School Board, was called 
upon to start registering children in local schools. McDonald's, Wal-
Mart, Porter's Cleaners, Bass Pro Shop, and other merchants opened 
their stores and hearts with donations for every request that we had.
    When the Red Cross finally approved CenturyTel as a shelter, I was 
placed in contact with American Red Cross representatives Mike Cantrell 
and Jeanne Jennings from California. There were many problems from the 
very beginning, which ranged from volunteers being turned away, to the 
extreme incident of a volunteer who tried to commit suicide in the 
parking lot. At this point the Red Cross leaders were more trouble than 
the little help they brought us. In many ways I felt as though their 
numerous ``rules'' kept us from doing the right thing.
    I had to override some of their rules, such as when I learned that 
they would not allow the Gideons into the building to distribute Bibles 
to those wanting one. I also informed the Red Cross that we had a room 
outside of the arena in which we were going to hold both Catholic and 
Protestant worship services, as well as Alcoholic Anonymous meetings, 
and any other service that I thought might help to serve the poor souls 
that were our neighbors from the south. I also had a confrontation with 
the Red Cross when they took a seeing eye dog away from a blind man in 
a wheelchair. When I asked why, they informed me they had to have the 
dog tested by the Blind Association. My response was not good, for in 
the middle of all the chaos in trying to house all these people, the 
idea of not trying to help a blind man was unbelievable (a letter from 
Mr. Littlejohn, the blind man mentioned above, is also enclosed).
    The inability of the Red Cross to coordinate efforts from other 
organizations such as Adult Protection, New Horizons, The Arc and 
Evergreen was also a hindrance. The Philadelphia Foundation was also 
turned away when offering to assist with any HIV victims. This led to 
the final confrontation with Jeanne Jennings while I was on the phone 
with Mr. Richard Wright from Congressman McCrery's office and she 
demanded that I stop and talk to her first. At that point I advised one 
of my deputies to remove her from the building and if she tried to 
return to arrest her for remaining after forbidden. Within 24 hours, a 
Mr. Paul Unger met with me as the new Red Cross shelter manager for 
CenturyTel. He was a joy to work with. What I did not know until he had 
been with me for almost a week was that he was not with the Red Cross 
nationally, but was actually a volunteer from another shelter who had 
been assigned to cleaning restrooms. He approached the shelter 
management and advised that he had a management background and asked if 
there was some way he could better serve. Paul was told to report to 
CenturyTel as the Red Cross Shelter manager as the prior manager had 
been asked to leave.
    In addition to the churches and groups mentioned above, another 
volunteer organization that did outstanding volunteer work here was the 
Salvation Army. Every time I asked for help their response was when and 
where, never whether they could or not. I personally watched Steve, the 
head of the local Salvation Army, pick up a homeless drunk, place him 
in his car, and take him back to the shelter. The Bossier Relief Fund 
was established by several church members and local citizens who gave 
money to be used for bus tickets, long distance calls and other items 
that would help connect our visitors with members of their extended 
families who could offer them immediate help. New Horizons worked with 
the mentally challenged as did the Association of the Blind to help 
those in need.
    As mentioned above, Paul Unger arrived as a volunteer who 
eventually became the Centurytel Shelter manager. Within days of his 
arrival, Paul had become ``Mr. Red Cross'' and did an outstanding job. 
I will close with a quote from Mr. Unger. ``I do not look for praise, I 
emotionally cannot handle any more. God has blessed me with an 
opportunity to use my skills and help others. It has been the most 
fulfilling weeks of my life. My workers and guests have also graced me 
with more compliments and hugs than I could ever count. That part is 
done. I hope to be able to share my experience with others in order to 
explain what skills are desperately needed to make the system work in a 
time of disaster. Also to allow others to recognize the contributions 
of the many churches who helped in so many ways. Without them, we might 
as well just drop rations from the sky. They, along with community 
volunteers, administered the Red Cross resources to the people. They 
turned food into meals, they turned shelters into homes, and they 
provided friendship when friends could not be found.''
    I am here to answer any questions, and let it be known that my 
being allowed to manage the largest shelter in Bossier City was the 
greatest lesson in humility and gratitude than anyone could be given. I 
gladly await the opportunity to answer any questions. Thank you for 
your time.

SUGGESTIONS FOR IMPROVING RESPONSE TIME:
    1.  Allow the approval for a new Red Cross site to be less 
cumbersome.
    2.  The ability to supply/increase necessary goods such as, but not 
limited to, cots, bedding, food, water, clothing. While supplies are 
not always readily available, the ability to have sources to call upon 
within a 250-mile radius would allow the necessary supply/replenishment 
within 24 hours.
    3.  Have one person as the go to person for all services for a 
particular agency. This person would require depth of knowledge of all 
resources available.

                                 <F-dash>

    Chairman RAMSTAD. Thank you, Mr. Wyatt. It is obvious to 
the Chair that the good people of Bossier City, Louisiana, are 
well served by their Homeland Security Director. Thank you for 
your very compelling testimony.
    I want to ask a couple of questions. Ms. Roth, I know in 
working with you in other venues, I know as Co-Chair of the 
bipartisan Disabilities Caucus, for example, we held a hearing 
on some of these problems, and I know you have been involved 
since September 11th, since the terrorist attacks of September 
11th, you have been involved in helping prepare disaster relief 
agencies meet the needs of people with disabilities.
    I think everybody was shocked to hear some of the horror 
stories that happened to people with disabilities who were 
hurricane victims, who were evacuees. Was the problem the lack 
of a plan in place for charities to meet the needs of people 
with disabilities, or was the plan just not followed?
    Ms. ROTH. I think the problem is very simply lack of 
leadership outside of the disability community and lack of 
access within the disability community. There has been a 
tremendous amount of planning. The disability community has 
done a wonderful job of planning for the disaster-related needs 
of people with disabilities.
    We have been excluded again and again from the general 
relief agencies. We have been excluded from the opportunity to 
give our expertise, to give our knowledge to those folks. That 
is why we are calling for offices on disability in any place we 
can.
    As I think you said so eloquently, if somebody steps up and 
says, I am in charge, everybody else darn well better start 
listening to them. Disability experts can take charge. We are 
happy to take charge. We understand other people don't quite 
get it, but we need to be in a position to be able to step up.
    Chairman RAMSTAD. Well, hopefully one of the results of 
today's hearing will be to include people with disabilities and 
your organizations, those of you who represent people with 
disabilities, in all of the planning for natural disasters and 
other emergency situations, because there must be better 
preparedness and delivery of services to the disabled community 
and you need to be part of that planning. I hope all of the 
organizations, be they nongovernmental or governmental, get 
that message.
    I also want to ask Ms. Archaga a brief question. Thank you 
as well for all that your organization does to provide for 
people with disabilities, to allow them to enjoy the dignity of 
independent living, which is so essential to all of us. I just 
want to ask, one of the purposes of this hearing, as I said at 
the outset, was to ensure that people with disabilities and 
other underserved groups are not neglected when the next large 
disaster strikes.
    What recommendations would you make to charities to ensure 
better preparedness and delivery of services to the disabled? 
What specific recommendations would you make?
    Ms. ARCHAGA. That we definitely have to be at the table, at 
the planning, development, and most importantly implementation. 
I think the crucial part is that we need to be there when the 
storm is named. We need to be at the table directing where 
individuals should go and putting our consumers' interests at 
heart as well.
    Chairman RAMSTAD. Prior, if I may ask both of you 
representatives from organizations concerning people with 
disabilities, had either of your organizations been consulted 
prior to Katrina or Rita as to emergency preparedness for 
people with disabilities? For example, how essential access to 
these shelters is, access to the bathrooms within the shelters, 
and other basic questions that affect so directly people with 
disabilities? Had either of your organizations been contacted 
or consulted?
    Ms. ROTH. My organization has tried to force its way in 
wherever we can, but we very rarely have been invited. Even now 
we are very rarely invited to the table, almost never invited 
to the table unless we sort of force our way in and say, hey, 
we have something we can offer you. We would like to think that 
those days are coming to an end and we will be invited, 
welcomed to the table right from the start.
    Ms. ARCHAGA. Sir, we were not invited. Most importantly, I 
would like for you guys to understand that when we went to the 
shelters to get in and identified ourselves we were denied 
access. We had to get very creative to get in, because we knew 
it was vital to get in. Once we got in and the volunteers and 
the staff members understood what we were doing, then we were 
welcomed back continuously.
    Chairman RAMSTAD. Did the people at the shelter, the 
officials in charge, have a handle, did they have a directory 
of people with disabilities living in the shelter?
    Ms. ARCHAGA. No, sir. They really did not have much. One of 
the problems that we had was that they did not capture 
information in the first 2 or 3 weeks. So, when we would go 
back for our consumer, they weren't there and we did not know 
where they went. So, that is very frustrating for us, because 
we know what their needs were, and we knew that we needed to 
get to them. So, there was no information. We were even told 
that we cannot come in. It is confidential information. We 
understand confidential information, but we only wanted to get 
in just to assess their needs and to meet their needs.
    Chairman RAMSTAD. Well, and this invitation goes to all 
four members of the panel and everybody in this country. If 
there are Federal regulations, and, Mr. Wyatt, you cited and 
alluded to some that were just nonsensical in terms of this 
disaster situation and the problems you encountered. Make us 
aware of them. Submit those, if you will, so that we can 
address them here in the Congress.
    Mr. Wyatt.
    Mr. WYATT. One thing that was brought up earlier, and I 
think would be a good start is when we started registering 
people for Red Cross, we had no system to do so. We took my 
probation department's computer system, and designed it, 
changed it up, and worked, but we could not use that to hand it 
to anybody to download.
    So, we literally printed out thousands of sheets of paper 
and handed it to the Red Cross, who was going to have to redo 
that in another computer. So, in the organizational 
structuring, following a person once they have hit a shelter is 
critical for their maintenance and supplies.
    One of the things that was fearful for us was when FEMA 
decided that they were going to give everybody $2,000. When I 
heard that in the first meeting, I had just come off a 24-hour 
shift and I was not in the best of shape, and I just wanted to 
know who was going to buy the spray paint to put a big V on 
their chest for victim, because if you took 1,000 people and 
gave each of them $2,000 in my building it was going to be 
chaos.
    Chairman RAMSTAD. Well, again, thank you, Mr. Wyatt. Again, 
the Chair would just reiterate, we aren't here as Monday 
morning quarterbacks, more exactly Tuesday afternoon 
quarterbacks, to point fingers. We are here to make sure we 
identify the problems and that we all work together in a 
collaborative way so that when the next disaster strikes we 
don't have a recurrence of these problems, they don't keep 
resurfacing and victimizing people over and over again.
    Certainly any emergency plans or preparedness, any 
emergency preparedness warrants the participation of the 
National Spinal Cord Injury Association on behalf of people 
with disabilities, warrants the inclusion of RIL, your 
organization, Ms. Archaga, the National Multiple Sclerosis 
Society, and the Disabled Veterans, on and on with the 
respective organizations representing people with disabilities.
    So, I hope this is the last time you are excluded from 
planning, because the people of America, people with 
disabilities in this country deserve better.
    The Chair would now recognize the distinguished Ranking 
Member for questions.
    Mr. LEWIS. Thank you very much, Mr. Chairman, and I 
appreciate your very meaningful questions and statement, 
really.
    I guess I should have asked representatives from the Red 
Cross and the Salvation Army, but the two of you from 
Louisiana, you have been there on the ground. You have been 
there. You have seen it, and I know you have unbelievable 
stories to tell and you have been very moving.
    How was the decision made when a group of people came in 
and people was placed on planes and buses? I have heard people 
say, well, they said we are going someplace. We ended up in 
Atlanta or Minnesota or end up in the State of Washington. Did 
they put people with disabilities on planes and buses and take 
them out of their State? Do you have any knowledge? How was it 
done? Did somebody in the Red Cross make that decision, or the 
Salvation Army? How was it made? Some people didn't know they 
were going some place until they landed, apparently.
    Mr. WYATT. Right. One of the biggest problems we had was we 
would get a call. There would be three buses coming from 
Lafayette. We would never know when they left, who was on them, 
what care they needed, and when they were going to arrive. 
After a day or two of the frustration of having that, we would 
stop them when they would call and say there is a bus coming, 
saying stop. Is there anyone on that bus with a cell phone? 
Give them our number so we can talk to them to find out what 
they need in the way of care, whether they were ambulatory, did 
they need to go to special needs hospitals, which we had 
available.
    Usually though, you are absolutely right, Congressmen. They 
would show up unannounced. I got two buses brought to me by the 
Black Panthers, in the middle of the afternoon, that had been 
abandoned, two buses that the bus drivers actually ran away. 
Somebody called Houston, Texas and got some Black Panthers. 
They brought them to us, and they were great neighbors. They 
brought them to us. They helped us get them checked in, and 
they took the buses back to the police department.
    So, we got them from everywhere. There was no coordination 
of that. The best we could hope for is the OEP tried their best 
to coordinate through Baton Rouge. The problem is, we worked 
well in a region together, but communication-wise, getting a 
State organization to manage us was not available.
    That is what we were needing. We were needing somebody to 
step up to the leadership role and say we are going to look 
over FEMA. We are going to look over Red Cross. We are going to 
look over Salvation Army, and we are going to guide these 
things to you. We never knew.
    So, we had to keep doctors around the clock, because we did 
not know what was walking in the back door, where it would have 
been a lot better to be able to place them on call and then 
call them back in 30 minutes. You are absolutely right. Great 
question.
    Ms. ARCHAGA. Congressman Lewis, in regard to our consumers, 
prior to Hurricane Katrina, we went on--post the storm, we went 
on this scavenger hunt, looking for our consumers. We had no 
idea where they were. Once we finally made contact, and our 
toll free number was up and running, they made contact with us. 
We were told that we were sent to Memphis, we were sent to 
Arkansas, we were sent to Alabama. Why? How? I don't know. We 
went over to the Red Cross shelter. We were at the shelter, and 
they told us, okay, here is a bus. You have to go. Once they 
left the Superdome, this is the shelter that they took them to. 
It was not a decision. They had no idea where they were going.
    They had no idea they were going to be in Denver, they had 
no idea where they were going to be. What we have done, 
speaking of our policies, is continue to serve them. We could 
not stop serving them. So, we continued to serve them in 
Louisiana, although they were in other States, until that 
transition occurred. So, we never stopped our services.
    Ms. ROTH. May I add? I knew that in Chicago there was a 
very surprising situation in which a man with a spinal cord 
injury arrived at the airport in Chicago. No plans had been 
made for him. Nobody knew he was coming. He was about to be 
sent to a nursing home, when folks at the Center for 
Independent Living in Chicago, Access Living, somebody gave 
them a heads up about the situation. They stepped in. One of 
the staff members came, picked up the guy. He moved into their 
house, and they were able to save him from being placed in a 
nursing home. There were stories like this across the country.
    Also, I want to add in response to the issues about the 
law, it is very important that at the same time that we are 
having these discussions there is a piece of pending 
legislation that has been introduced several times that would 
require 90-day notification if someone were going to sue under 
the Americans with Disabilities Act (P.L. 101-336).
    It is really important to us to point out that this is a 
classic example. If people first had to give notice of a need 
for accessibility, 90 days would be a horrible burden for 
anyone. Making sure that all accessibility is assured is really 
the priority in this. Really the Americans with Disabilities 
Act is our most important civil rights law that needs to be 
implemented and enforced.
    Mr. LEWIS. Thank you, Mr. Chairman.
    Chairman RAMSTAD. Thank you, Mr. Lewis. Chairman McCrery.
    Mr. MCCRERY. Mr. Chairman, I have no questions. I want to 
thank the panel for their testimony. I would second your 
suggestion that the citizens of Bossier City are indeed well 
served by Mr. Wyatt, both in his official capacity as Marshal 
and in his voluntary capacity as Emergency Preparedness 
Director.
    Chairman RAMSTAD. Thank you, Mr. McCrery. Thank you to all 
four members of this panel for your very helpful testimony. We 
look forward to working with you and your organizations. The 
Chair also would like to thank the members of the audience for 
your interest and for being here today.
    Seeing no further business before the Subcommittee, the 
hearing is adjourned.
    [Whereupon, at 5:40 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

               Statement of American Arts Alliance, Inc.

    Mr. Chairman and distinguished members of the committee, the 
American Arts Alliance is grateful for this opportunity to submit 
testimony on behalf of our member organizations--American Symphony 
Orchestra League, Association of Performing Arts Presenters, Dance/USA, 
OPERA America and Theatre Communications Group--and the audiences they 
serve.

The arts play a disproportionately large role in the economy of the 
        areas affected by Hurricane Katrina.
    Culture is the second largest industry in Louisiana and tourism is 
the fifth largest employment sector in Mississippi. Arts and culture 
accounted for 7.6 percent (7.6%) of Louisiana's employment--more than 
144,000 jobs across the state, 57,000 of them in New Orleans alone.
    As with other sectors of the economy, the destruction of physical 
property and resources to community cultural and artistic institutions 
is immense. Tens of thousands of artists, arts administrators, and 
educators have been dislocated, left without the space or equipment 
needed to work. Facilities such as theaters, museums, galleries, 
concert halls, and studios are severely damaged or destroyed. Many 
surviving venues are being used to house evacuees.

Performing arts organizations are serving the affected communities and 
        displaced families.
    Recovery goes beyond providing mere material necessities. Displaced 
arts educators and artists have been key participants in creating 
recovery programs especially for displaced children and families. 
Performing arts organizations in host cities such as Houston have 
offered free admission to displaced Katrina families. Arts 
organizations whose own venues are unusable have taken the show on the 
road performing at the shelters and temporary housing. Artists from 
across the country have held benefit performances to raise money for 
the victims of the hurricane. In a gesture of solidarity, New Yorkers 
who suffered in 9/11 held a dance benefit, ``Ballet to Ballroom'' in 
October at Southern Methodist University in Dallas, Texas. All proceeds 
from the performance and the silent auction that followed it went to 
the Mayor's Disaster Relief Fund to benefit displaced persons in 
Dallas. And arts organizations in communities across the U.S. have 
offered temporary employment to displaced artists.

New Orleans Ballet Association
    Among the hundreds of thousands affected by Hurricane Katrina were 
the students, faculty and staff of the New Orleans Ballet Association 
(NOBA), an award-winning community school and Creative Communities site 
providing free arts instruction to 1,200 inner-city children at three 
schools and 14 after-school sites. Creative Communities is an arts 
education, youth development and community building strategy that 
partners community schools of the arts with their local housing 
authorities to provide youth in public housing communities with high 
quality, sequential arts instruction. As with much of the rest of New 
Orleans, NOBA is now faced with rebuilding from the ground up. All but 
two of the schools and after-school centers with which NOBA works were 
completely flooded. 100% of NOBA's students have been displaced, as 
have the school's staff and faculty.
    In November, NOBA held free dance classes at three satellite 
locations--Lafayette, Baton Rouge, and Metairie. Displaced New Orleans 
artists taught children displaced by the hurricane and children in the 
host communities. NOBA also partnered with two Baton Rouge based dance 
companies--Baton Rouge Ballet Theatre and Of Moving Colors--to raise 
money to support local teaching artists and to give them performance 
opportunities.
    In January, NOBA will resume offering free dance classes in Orleans 
Parish at the one New Orleans Recreation Department center that is 
operating at Tulane University. The free program started in Metairie 
will continue in the spring. The Creative Communities free dance 
program in the public housing developments of New Orleans is expected 
to resume summer 2006.

Southern Rep
    The Southern Rep is a nonprofit professional theatre in New 
Orleans. The theatre was broken into by looters during the storm and 
the building in which the theatre is housed, The Shops at Canal Place, 
suffered major damage. They estimate that 25% of their audience has 
lost their homes. Southern Rep's office and rehearsal space is being 
used by the Small Business Association's Disaster Relief Program.
    Southern Rep had to cancel the first four shows of its season but 
hopes to reopen by the end of February. In April, they plan to co-
produce THE SUNKEN LIVING ROOM, one of the two world-premieres that 
were scheduled for the year, with New Theatre in Miami, Florida. They 
plan to reopen the theatre in May with a production of KIMBERLY AKIMBO 
and THE LAST MADAM. They also plan to start offering acting classes 
again in the summer. All of this will be done with a drastically 
reduced staff of one full-time and two part time employees down from a 
staff of 50 before Katrina.

The Gulf Coast Symphony Orchestra
    Despite the loss of instruments and homes, the musicians and staff 
of the Gulf Coast Symphony Orchestra, located in Biloxi, continue to 
bring quality music to the people of the Mississippi Gulf Coast. The 
Orchestra's venue, the Biloxi Saenger Theater is located just one block 
from the edge of the tidal surge. On November 19th, the Orchestra held 
its first concert since the hurricanes destroyed the entrance to the 
theatre. Displaced musicians and patrons used a back street approach 
through heavily damaged areas to perform in and attend one of the first 
cultural events to occur on the Mississippi Gulf Coast following the 
hurricanes. Virtually every seat in the house was taken as 78 musicians 
performed, and nearly everyone on both sides of the stage lights had 
been directly affected by the hurricanes; from minor damage to 
completely losing everything. While the Symphony Orchestra plans to 
hold a January performance, it will likely be forced to cancel the 
remainder of the concert season, due to a drastic drop-off in 
donations. Nevertheless, the Orchestra regards itself as an integral 
part of the recovery and rebuilding effort, providing healing for the 
minds and spirits of musicians and audience members, and is currently 
hoping to recover in time for the 2006-07 season.
    The Gulf Coast Symphony Youth Orchestra is struggling to find its 
scattered student musicians and secure undamaged rehearsal space. The 
Youth Orchestra will not be back to full strength for the next few 
years.

The Columbia Theatre/FANFARE
    Southeastern Louisiana University's Columbia Theatre for the 
Performing Arts is located 50 miles from New Orleans in Hammond, 
Louisiana and was among the hundreds of thousands affected on August 
29th when Katrina and its damaging winds hit. Despite the damage, 
Columbia Theatre forged ahead with its month-long arts festival, 
FANFARE, in October. Determined to keep its doors open, this theatre 
served as a coping mechanism for the community. Hundreds came to hear 
the music, see the dance and share with each other the sense of 
community so desperately needed.
    With no phone service or mail and no hotel rooms for the guest 
artists, the determined Columbia Theatre purchased beds and asked its 
Board members to buy pillows and blankets. For the entire month of 
October FANFARE operated a hotel within the theatre's auxiliary spaces, 
with a men's dorm downstairs in the conference center and a women's 
dorm upstairs in the dance studio. The theatre purchased a bigger hot 
water heater for its three showers. In addition to making beds, doing 
laundry, preparing food (most caterers were unavailable), FANFARE 
presented approximately 55 events. Artists who slept backstage included 
the Harlem Gospel Choir (New York City, NY), Toxic Audio (Orlando, FL), 
Capitol Steps (Washington, DC), Odyssey Dance Theatre (Salt Lake City, 
UT) and Aquila Theatre Company (New York City, NY).

Cultural tourism is a major force in these local economies and tourism 
        will not rebound until arts and culture rebound.
    A vital performing arts community is necessary for the recovery of 
the Gulf Coast region. Unfortunately, performing arts organizations are 
not eligible for two forms of vital emergency relief. Under current 
Federal Emergency Management Agency (FEMA) policy, performing arts 
facilities are not eligible to receive FEMA relief as a private 
nonprofit facility. All nonprofit organizations are not eligible for 
economic injury loans from the Small Business Administration that help 
with operations costs. The U.S. Small Business Administration can make 
federally subsidized physical disaster loans to nonprofit organizations 
to repair or replace disaster-damaged property not covered by 
insurance, but economic injury loans appear to be only available to 
for-profits businesses.

Conclusion
    Performing arts organizations are a vital component of community 
life, allowing citizens to appreciate our nation's culture and heritage 
through excellent artistic programming. The arts illuminate the human 
condition, our history, contemporary issues and our future. Arts 
organizations in the Gulf Coast region have a strong commitment to 
serving their communities, and are dedicated to being a part of the 
rebuilding efforts. There is a misconception that federal resources are 
available for the nonprofit performing arts in the hurricane-affected 
regions. For the nonprofit performing arts to return to the Gulf Coast 
region in a robust way, communities will need access to significant, 
ongoing support from all sectors.

                                 <F-dash>
      Statement of Audrey Alvarado, National Council of Nonprofit 
                              Associations

Introduction
    The National Council of Nonprofit Associations (NCNA), the 
Louisiana Association of Nonprofit Organizations (LANO), and the 
Mississippi Center for Nonprofits (MCN) respectfully submit this 
testimony to the Subcommittee on Oversight of the House Committee on 
Ways and Means.
    The National Council of Nonprofit Associations (NCNA) is the 
network of state and regional nonprofit associations serving over 
22,000 members in 46 states and the District of Columbia. NCNA links 
local organizations to a national audience through state associations 
and helps small- and mid-sized nonprofits:

    <bullet>  Manage and lead more effectively;
    <bullet>  Collaborate and exchange solutions;
    <bullet>  Save money through group buying opportunities;
    <bullet>  Engage in critical policy issues affecting the sector; 
and,
    <bullet>  Achieve greater impact in their communities.

    LANO is a statewide network of over 800 nonprofits, foundations and 
individuals dedicated to improving the nonprofit sector to provide 
quality services to Louisiana citizens. While much of the attention in 
the hurricane recovery has focused on the damage to the state's 
physical infrastructure and business enterprises, the damage to the 
infrastructure of private, nonprofit institutions has been at least as 
great and perhaps even more devastating. These institutions care for 
the poor, enrich cultural life, extend educational opportunities, 
develop communities, and train the unemployed--all functions that are 
especially critical to the recovery effort that is now underway. LANO 
is working with the Urban Institute to survey all Health and Human 
Service providers in the affected area. The data gathered will provide 
a clearer picture of the status of the nonprofit sector and the needs 
of the community.
    MCN is the only nonprofit management center in Mississippi that 
serves over 6,000 community and faith-based nonprofit agencies. In the 
past four months, it has become clear that the nonprofit and faith-
based communities have become the heroes in recovery efforts, 
continuing to do their mission work despite no electricity, food, water 
or, often, shelter for their own staff and volunteers. In response to 
Katrina's devastation, MCN has organized meetings, conducted 
assessments and launched a childcare recovery initiative that has led 
to the opening of a Gulf Coast office of the Center. Additionally, MCN 
is in constant contact with its organizations who were most affected by 
Katrina in order to inform the public, funders, leaders and others 
regarding the state of these groups as their needs change.
    NCNA represents and serves small- and mid-sized nonprofits with 
budgets of less than $1,000,000. These organizations are the face of 
the nonprofit sector; they make up 75 percent of the nation's 
nonprofits and are on the front lines of some of the nation's most 
pressing social problems and solutions. Most recently, small- and mid-
sized nonprofits have been at the forefront of efforts to rebuild the 
Gulf Coast region in the aftermath of Hurricanes Rita and Katrina. 
Small- and mid-sized nonprofits have direct experience with the 
enormous challenges that communities face after hurricanes and have 
vital information regarding how to address immediate and long term 
needs to improve the quality of life and preparedness in communities 
across our country. However, they are least likely to have adequate 
resources to meet and articulate the needs of their constituents. Their 
experience and voices are needed to ensure that we learn from our most 
recent experience and prepare for future disasters.
    Nonprofits are an important resource that many families and 
individuals turn to for direct assistance. Nonprofits have stepped up 
and served local communities and helped improve the lives of people in 
the region. Unfortunately, the existence of these organizations is 
threatened by dwindling budgets, damaged facilities and a fleeing 
workforce. Like the business community, nonprofits need the support of 
the federal government to rebuild and sustain their efforts.
    NCNA, through its state associations in Louisiana and Mississippi, 
has gathered information from nonprofits and identified three 
legislative actions that would increase nonprofits' ability to serve 
and meet the growing demands for services.
    We urge Congress to enact the following legislation.

    <bullet>  Allow nonprofits a two-year reprieve of the requirement 
to secure matching funds in order to receive local, state, and federal 
grants. This will provide relief to nonprofit organizations that state 
and local governments currently rely on to deliver much-needed services 
to local communities without requiring the allocation of additional 
resources.
    <bullet>  Direct the Small Business Administration (SBA) to revise 
its regulations to allow nonprofits to qualify for economic injury 
loans, not just physical disaster loans.
    <bullet>  Direct FEMA to revise its directional guidance in order 
to clarify and expand the eligibility of certain private nonprofit 
organizations for disaster assistance.
Two-Year Reprieve to Secure Matching Funds.
    Congress can help nonprofits continue to deliver much-needed 
services to local communities without requiring the allocation of 
additional resources.
    We urge Congress to allow nonprofit organizations a two-year 
reprieve of the requirement to secure matching funds in order to 
receive local, state, and federal grants.
    A reprieve from match-requirements would:

    <bullet>  Allow nonprofits to continue to receive government grants 
that have already been allocated;
    <bullet>  Alleviate the burden of fundraising for nonprofits in the 
disaster areas;
    <bullet>  Support services in the disaster areas by allowing 
organizations to focus on serving rather than on fundraising; and,
    <bullet>  Enable the nonprofit sector to maintain a critical 
portion of its employment base.

Request that FEMA Clarify Eligibility of Private Non-Profit (PNP) 
        Organizations for Certain Disaster Assistance.
    The Public Assistance Program, administered by FEMA, provides 
supplemental Federal disaster grant assistance for the repair, 
replacement, or restoration of disaster-damaged, publicly owned 
facilities and the facilities of PNP organizations. Currently, certain 
PNP organizations cannot qualify for this assistance, due to FEMA's 
directional guidance rules.
    We urge Congress to enact legislation that directs FEMA to revise 
Recovery Division Policy Number: 9521.3 in order to clarify the 
eligibility of PNP organizations for certain disaster assistance and 
have the rule conform to the statutory definition indicated below.
    The formal regulatory definition of a PNP organization and facility 
used for disaster relief,\1\ as defined by congressional statute, is 
less restrictive than the FEMA guidance in regards to ``PNP facility 
eligibility'' rules. The regulatory definition indicates that:
---------------------------------------------------------------------------
    \1\ 44 C.F.R. Sec. 206.221.

    <bullet>  There is no specific exclusion of recreational facilities 
in the Public Assistance Eligibility Rules;
    <bullet>  ``Community centers'' are included in the category of 
facilities providing essential governmental services; and
    <bullet>  Eligible ``public facilities'' specifically include 
public buildings used for ``educational, recreational, or cultural'' 
purposes.

Request that the Small Business Administration (SBA) Amend Regulations 
        to Allow Nonprofits to Be Eligible for Economic Injury Loans.
    Nonprofit organizations are eligible for some forms of federal 
disaster relief assistance if they are located in a county declared a 
Major Disaster Area (within Alabama, Louisiana, and Mississippi) or in 
a state that is hosting evacuees from Hurricane Katrina (Arkansas, 
Colorado, District of Columbia, Florida, Georgia, Oklahoma, North 
Carolina, Tennessee, Texas, Utah, and West Virginia).
    The SBA can make federally subsidized physical disaster loans 
available to nonprofit organizations to repair or replace disaster-
damaged property not covered by insurance, including inventory and 
supplies. Nonprofit organizations, however, are not eligible for 
economic injury loans from the SBA that help with operational costs. 
Under current federal rules, economic injury loans are only available 
to for-profits.
    We urge Congress to enact legislation that directs the SBA to amend 
its regulations to support the original intent of the statute and allow 
certain charitable organizations to qualify as ``small business 
concerns'' for the purposes of receiving economic injury disaster 
loans.
    The limitation to nonprofit eligibility for economic injury loans 
is due to the SBA definition of who may qualify for such loans. The 
congressional statute governing the SBA provides that the SBA may make 
such loans as it determines necessary to any ``small business concern'' 
located in an area affected by a disaster if the SBA determines that 
the concern has suffered a substantial economic injury as a result of 
the disaster.\2\ SBA regulations define a ``small business concern'' as 
a business entity organized for profit.\3\ This needlessly restricts 
some crucial nonprofits from qualifying for assistance.
---------------------------------------------------------------------------
    \2\ See 15 U.S.C. Sec. 636(b)(1)(B)(2).
    \3\ See 13 C.F.R. Sec. 121.105.
---------------------------------------------------------------------------
Summary
    Nonprofit organizations are on the front lines of the battle to 
help our communities in need. The charitable or nonprofit sector has 
long been viewed as a significant resource for the social support 
system in the United States. In partnership with government and the 
private sector, charities have come to fill the gap for needs in a wide 
range of areas. Small- and mid-sized nonprofit organizations in 
particular have the best experience and expertise to provide cost-
effective services--and to do so locally without multiple layers of 
bureaucracy. In the wake of Hurricanes Rita and Katrina, many 
charitable organizations are struggling to meet the increased needs of 
the people in the Gulf Coast region, without having the necessary 
resources to do so. NCNA, LANO and MCN urge Congress to suspend the 
matching requirement for nonprofits to receive grants; clarify FEMA 
eligibility rules to allow certain nonprofits to qualify for aid; and, 
change SBA rules to allow nonprofits to qualify for economic injury 
loans. These actions will help ensure that nonprofits are able to 
fulfill their missions in partnership with government--and rebuild and 
sustain communities devastated by Hurricanes Rita and Katrina.

                                 <F-dash>
        Statement of the National Fraternal Congress of America

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the National Fraternal Congress of America (NFCA) and 
our 76 member-societies, representing 10 million fraternalists 
nationwide, we appreciate the opportunity to provide this statement to 
the Subcommittee's, as it reviews the response of charities to 
Hurricane Katrina.
    By way of background, the NFCA represents fraternal benefit 
societies (fraternals), which are organized under section 501(c)(8) of 
the Internal Revenue Code. The governing statute requires that 
fraternals meet two requirements that embody the concept of mutual aid. 
First, fraternals must operate under a lodge system for the exclusive 
benefit of their members and, second, they must provide for the payment 
of life, sick, accident, or other benefits to their members and their 
beneficiaries. While fraternals are not charities, they nonetheless are 
structured and operated to support national and local charitable 
activities in communities throughout the country and they always are at 
the forefront of disaster relief.
    Fraternals are unique organizations with many having been in 
existence since the Civil War. In essence, fraternals use the revenues 
received from providing insurance and other benefits to members to 
support the lodge system, one of the greatest forces for public good in 
America today, and to support charitable activities. While fraternal 
mutual aid primarily is achieved by providing personal and family 
financial security to members, fraternals, through the lodge system, 
support local communities throughout the year and provide special 
assistance in times of crisis. For example, the lodge system is what 
made it possible for fraternals to be a first responder to the 
Hurricane Katrina disaster.
    In effect, each fraternal has an existing, organized network of its 
members that meets regularly to consider and implement community-based 
projects. This includes mobilizing quickly to respond to crises. In 
2004, our member-societies expended approximately $400 million on 
charitable and fraternal projects--excluding special relief efforts--
and volunteered more than 91 million hours nationwide.
    When Hurricane Katrina struck, the lodge system went to work 
without delay. Within 24-48 hours of Katrina's landfall--and before 
governmental relief efforts began--fraternal lodge volunteers were on 
the ground distributing water and food in the affected areas. Within 
the week, fraternals were providing food, shelter, and supplies to care 
for babies and children of displaced families. A number of fraternals 
in the South, most notably Woodmen of the World, opened up their summer 
camps to displaced families for lodging within a week of the hurricane. 
By the third week of September, fraternal volunteers began supplying 
cleaning supplies and assisting families trying to get back into their 
homes.
    Within a month of Hurricane Katrina, fraternals had raised upwards 
of $16 million that was specifically targeted to hurricane relief, and 
that amount continues to grow. Further, through the lodge system, 
fraternalists already have devoted hundreds of thousands of volunteer 
hours in support of ongoing hurricane relief efforts.
    Fraternal benefit societies provided hurricane relief in two ways. 
First, through the lodge system our members directed their own relief 
operations, building on existing facilities in the affected region or 
using the lodge system to quickly organize relief efforts. For example, 
the Louisiana Councils of the Knights of Columbus served thousands of 
meals to hurricane evacuees, and organized efforts to deliver ice, 
food, water and other supplies through truck convoys to the affected 
areas. The Modern Woodmen of America collected and delivered books and 
toys for children who were displaced by Katrina and used their regional 
network of lodges to organize the delivery of these items. Members of 
Thrivent Financial for Lutherans devoted thousands of volunteer hours 
and raised almost $1 million for hurricane relief in the weeks 
immediately following the disaster.
    Fraternals also work with and support existing charitable 
organizations. One fraternal has pledged $5 million to Habitat for 
Humanity towards new homebuilding for Katrina victims, with another $6 
million pledged to directly assist victims in their recovery efforts. 
Another fraternal has been instrumental in contributing funds toward 
rebuilding local churches, schools and general infrastructure. Still 
other fraternals raised funds to assist the American Red Cross in its 
efforts, including funds raised through matching programs in which a 
fraternal matches funds raised by their members at the lodge level. And 
hundreds of thousands of fraternalists support the activities of 
organizations such as Habitat for Humanity through personal volunteer 
efforts.
    It is our understanding that one purpose of the hearing is to 
``explore areas where service delivery, preparedness and coordination 
could be improved,'' and we would like to offer some observations based 
on our experience.
    Local presence is extremely important in any significant relief 
effort. When conditions require that relief be delivered quickly and 
effectively under difficult circumstances, there is no substitute for 
having volunteers on the ground and the ability to organize them 
quickly. Fraternals, by statute, must be organized under the lodge 
system, which means that there is always in place a network of 
volunteers who are prepared and motivated, both to devote their time 
and personal efforts to assist victims of a national disaster, as well 
the ability to very quickly organize fundraising campaigns. Within a 
day of Hurricane Katrina, fraternals began relief efforts.
    Noting the contribution of fraternals to Katrina relief, Senator 
Rick Santorum (R-Pennsylvania) stated in a recent Senate Finance 
Committee hearing that ``[w]e have seen that within 48 hours of 
Katrina, the nation's fraternal benefit societies were feeding, 
housing, providing supplies, clothes, toiletries, cash and beds to 
those in need in shelters both in Houston and in New Orleans. During 
the first week of this effort, fraternals already had expended upwards 
of $14 million on hurricane relief, a sum which is expected to increase 
as those efforts broaden.''
    Ten million Americans have chosen to join fraternal benefit 
societies because they believe that giving back to their communities 
should be a way of life. Our members' response to Hurricane Katrina, as 
well as to Hurricanes Rita and Wilma, demonstrated once again that 
fraternals are a unique national resource that provides community 
assistance quickly and effectively.
    We urge the Ways and Means Committee to foster and encourage the 
growth of community-based organizations like fraternals that always 
will be ready, willing and able to lend a helping hand in time of need. 
Government efforts are critical and government, of course, has the 
greatest resources, but there is no substitute for Americans coming 
together at the local level to help friends and neighbors in time of 
crisis. This is who fraternals are and what they do and have done for 
almost 150 years. And with the Congress' continued support, fraternals 
will continue their important role for many years to come.

                                 <F-dash>
         Statement of Rotary International, Evanston, Illinois

    Rotary is an organization of business and professional leaders 
united worldwide who provide humanitarian service, help build goodwill, 
and support global peace and international understanding. Founded in 
1905 in Chicago with four members, in 2005 Rotary celebrated its 
Centennial with over 1.2 million members in over 32,000 autonomous 
Rotary clubs in 168 countries.\1\
---------------------------------------------------------------------------
    \1\ This sentence stands out too much. I would cut it. If that's 
not an option, I would try to incorporate it into the previous sentence 
by saying over 32,000 autonomous clubs.
---------------------------------------------------------------------------
    Rotary clubs responded immediately to the crisis after the 
devastation of Hurricane Katrina. The first priority was to provide 
food and shelter to the victims.\2\ Rotary clubs and districts (a group 
of 50-70 clubs) from throughout the affected Gulf Coast region sprang 
into action to collect necessary food and supplies, raise money, and 
provide shelter to evacuees.\3\
---------------------------------------------------------------------------
    \2\ I'm afraid that this could be interpreted by a non-Rotary 
audience as sounding too exclusive. I would say that ``the first 
priority was to provide food and shelter to the victims'' instead.
    \3\ Some people took a lot of flack for using this term.
---------------------------------------------------------------------------
    On 31 August, two days after the disaster, Rotary International 
President Carl-Wilhelm Stenhammar asked all Rotary clubs in affected 
areas to share information with Rotary headquarters so that Rotary's 
global network would know how to best support relief efforts. By 1 
September, several Rotary members had already contributed funds to 
local Rotary districts and donated essential goods.
    As evacuees were transported to Texas, Rotary members, particularly 
from Rotary District 5890 in Texas, served as critically needed 
volunteers to aid victims in Houston's Astrodome. Rotary club members 
worked around the clock, dividing coverage with 20-people teams for 
every eight hours. Rotary worked alongside the American Red Cross, 
local police, fire officials, and the Federal Emergency Management 
Association to provide any assistance that was urgently needed.
    One story of Rotary's immediate relief efforts includes the rescue 
of a British exchange student stranded at the University of Southern 
Mississippi. Rotary club members in Ontario, Canada, worked to secure 
her school transfer to the University of Windsor in Ontario, Canada. A 
Rotary member in Mississippi waited three hours in line to buy enough 
gas to drive the student from her dorm room to the closest town with an 
available flight to Windsor. The student was able to continue her 
studies with limited interruption to her exchange year.
    Within one month of the disaster, Rotary clubs sent and distributed 
over 1,400 ``ShelterBoxes'' to the most critically needed areas of the 
Gulf Coast. ShelterBox is a Rotary grassroots organization that 
customized its usual emergency boxes for Katrina victims to include two 
ten-person tents, water purification tablets and miscellaneous tools 
and equipment. The ShelterBoxes have helped accommodate some 28,000 
people with dry shelter and clean water.
    Rotary District 6840, in Louisiana and Mississippi, developed 
several projects to help reconstruct devastated areas, including public 
libraries, restoration of local child care facilities, repair and 
restoration of flooded homes, cleanup, laundry services, the 
development of lockable storage units, and the distribution of 
Christmas toys and gifts. The district serves as but one example of the 
work Rotarians have been doing to serve the victims \4\ of Hurricane 
Katrina.
---------------------------------------------------------------------------
    \4\ Unnecessary.
---------------------------------------------------------------------------
    District 6840 also joined with Districts 6820, 6880 and 6200 in 
Mississippi, Alabama, and Louisiana to administer over $400,000 in 
donations received for Hurricane Katrina Relief. These funds are 
available for anyone in need in the affected areas and are not 
restricted to use by Rotary members.
    To help address the large number of donations offered, Rotary clubs 
in 12 Southern and Midwestern states, including Louisiana and 
Mississippi, established the Katrina Relief Fund in cooperation with 
The Rotary Foundation. The fund has streamlined the flow of 
contributions from Rotarians around the world looking to assist victims 
of the Hurricane Katrina disaster. More than $1 million has been 
contributed through the Katrina Relief Fund in conjunction with The 
Rotary Foundation.
    The latest update on Rotary's efforts in the area can be accessed 
at www.rotary.org.

                                  <all>

</pre></body></html>
